IG’s Message to the Secretary


                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230



 April 30, 2002

 The Honorable Donald L. Evans
 Secretary of Commerce
 Washington, D.C. 20230

 Mr. Secretary:

 I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
 for the first half of fiscal year 2002. Section 5 of the Inspector General Act requires that you transmit
 this report, with any comments you may wish to add, to the appropriate congressional committees
 within 30 days of your receiving it.

 The work detailed here builds on the course we set during our last semiannual reporting period, made
 all the more urgent by events that have so deeply shaken our sense of national and personal safety.
 You will note in these pages a strong emphasis on assessing the security of the Department’s most
 critical operations, systems, and assets—including its people. Thus, we have completed
 comprehensive reviews of emergency preparedness, physical and information security, the export
 licensing process, and trade compliance activities, to name a few. We have identified some
 deficiencies that must be rectified to keep the Department strong in its operations and ever ready to
 meet the unexpected challenges that lie ahead.

 Given the Department’s highly visible role in matters of national and international consequence, the
 need to monitor these security-related concerns will likely be ongoing. I look forward to working
 closely with you and your senior officials to ensure that these and all other challenges confronting
 Commerce are met head-on and resolved—for the good of the Department, the public, and the
 nation.

                                                  Sincerely,




                                                  Johnnie E. Frazier
Table of Contents


IG’S MESSAGE FOR THE CONGRESS
    Foreword                                                                                   1
    Major Challenges for the Department                                                        3
           Successfully implement a Department-wide financial management system                4
           Strengthen Department-wide information security                                     5
           Successfully transition USPTO to a performance-oriented organization                8
           Increase international compliance with trade agreements and expand market access
               for American exporters                                                         10
           Enhance export controls for dual-use commodities                                   11
           Increase the effectiveness of fishery management                                   13
           Continue to improve the Department’s strategic planning and
               performance measurement in accordance with GPRA                                14
           Strengthen financial management controls to maintain a “clean”
               opinion on the Department’s consolidated financial statements                  16
           Successfully implement acquisition reform initiatives                              17
           Effectively manage major facilities renovation and construction
           projects                                                                           18

DEPARTMENT OF COMMERCE ORGANIZATION CHART                                                     20

AGENCY OVERVIEWS
     Bureau of Industry and Security                                                          21
     Economic Development Administration                                                      27
     Economics and Statistics Administration                                                  37
     International Trade Administration                                                       50
     National Oceanic and Atmospheric Administration                                          57
     Technology Administration                                                                62
     U.S. Patent and Trademark Office                                                         71
     Department-wide Management                                                               77

INVESTIGATIVE HIGHLIGHTS                                                                      90

OFFICE OF INSPECTOR GENERAL                                                                   94

STATISTICAL HIGHLIGHTS                                                                        95

REPORTING REQUIREMENTS                                                                        96

TABLES AND APPENDIXES                                                                         100

DEFINITIONS: TYPES OF OIG REVIEWS                                                             112

ACRONYMS                                                                                      113

OIG ORGANIZATION CHART AND POINTS OF CONTACT                                 (Inside Back Cover)
IG’s Message to Congress

                                          FOREWORD

                                             This semiannual reporting period has been one of introspection
                                             unlike any other in the 24 years that Offices of Inspector
       “Given the events                     General have been fulfilling their mandate. Given the events of
                                             the past year, federal agencies have rededicated themselves to
       of the past year, federal
                                             ensuring the integrity of their operations, the protection of their
       agencies have rededicated             employees, and their best service to the American public.
       themselves to ensuring the            OIGs, for their part, have looked with new vigor at their
       integrity of their                    responsibilities beyond ensuring that taxpayer dollars are well
       operations, the protection            spent, as they evaluated the success of their agencies’ efforts
       of their employees, and               to protect their people, their assets, and their core mission
                                             activities.
       their best service to the
       American public.”                       This intensified focus has had special resonance at the
                                               Department of Commerce and in our work of the last 6
                                               months. Many of the Department’s missions have implications
   for the integrity of the nation as a whole and for the well-being of each of its citizens. Thus, we have
   redoubled our efforts to ensure the security of Commerce data, systems, and programs; to uncover
   lapses in accountability and inefficiencies in financial management; and to assess human capital needs
   that are crucial to maintaining a strong, well-functioning Department. We have also worked with other
   OIGs to ensure that interagency efforts achieve these same ends. Of particular relevance is our work in
   the following areas:

   Homeland/Physical Security. We conducted four reviews of the integrity of Commerce’s critical
   systems and physical space: an interagency assessment of the export licensing process for dual-use
   commodities and munitions (see page 11); an evaluation of BIS’ effort to modernize its export licensing
   operations via the Export Control Automated Support System (see page 21); a study of USPTO’s
   information security program (see page 74); and an examination of emergency preparedness and
   physical security at selected Commerce facilities (see page 77). All of these reviews revealed varying
   degrees of weaknesses in existing policies, procedures, facilities, and operations. And in all cases, we
   recommended actions to correct the deficiencies.

   Performance Measurement/Financial Accountability. We continued during this semiannual period
   to evaluate efforts by Commerce operating units to implement effective performance measures, as
   mandated by the Government Performance and Results Act—examining measures used by NIST and
   USPTO (see pages 6 and 7, respectively). We were pleased to find that both bureaus have made a
   serious effort to establish comprehensive performance measurement systems. We found that their




Commerce OIG Semiannual Report                            1                                             March 2002
                                                  IG’s Message to Congress


systems require only minor improvements, and both bureaus have already implemented many of our
recommendations.

We also report in this issue on the results of our annual financial statements audits. The Department and the
individually audited units continue to receive unqualified opinions on these statements, although they still must
overcome weaknesses in controls on related reporting and information technology systems. Sound financial
management is key to sound operations. We are pleased with the strides the Department and its entities
have made toward achieving stability in this regard. (Findings from the Department’s consolidated audit
appear on page 83. Findings from our financial audit of the Census Bureau appear on page 47; of NIST, on
page 63; of NOAA, on page 59; and of USPTO, on page 76.)

Other Areas of Focus. Other pertinent activities included the following:

    Ø A special evaluation of Census 2000 (page 37). In a departure from our typical audit and
      inspection work, we issued a report that shares the lessons we gleaned from our nearly 10 years of
      monitoring and assessing the preparation for and execution of Census 2000. Our purpose was to
      provide meaningful and user-friendly guidance for improving census planning and operations. The
      report Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for
      2010 highlights a series of management and operational issues that need careful attention in
      preparing for the next decennial and suggests ways for addressing them.

    Ø Reviews of 15 financial assistance awards made by EDA (page 37) and NIST (page 62).
      Financial assistance awards are a key tool used by the Department to promote economic growth
      and productivity, and awardees’ proper use of these funds must be assured. Our examination of 15
      financial assistance recipients resulted in our questioning more than $2.6 million in federal claimed
      costs and in recommending $2.3 million in funds to be put to better use as well as identifying
      opportunities to improve the management and operation of these financial assistance programs.

    Ø An assessment of ITA’s trade agreement compliance activities (page 51). Several units within
      ITA handle market access and compliance work, as does the Trade Compliance Center—a
      component of ITA’s Market Access and Compliance unit created in 1996. Our review of the
      compliance-related activities of these units and the center revealed the need for better coordination
      among them, as well as for improved reporting and tracking systems and a reexamination of the
      measures they use to evaluate their performance.

These activities and the others detailed in the pages of this Semiannual Report to Congress convey the
broad approach we have taken toward fulfilling our responsibility for monitoring the efficiency and
effectiveness of Commerce programs and operations. Mindful of the new set of exigencies that guide our
efforts and those of the Department, we respectfully submit this report and press ahead with work in
progress for the next.



  Commerce OIG Semiannual Report                               2                                     March 2002
                                                                   IG’s Message to Congress


                               MAJOR CHALLENGES
                              FOR THE DEPARTMENT




                                                                                                                 Major Challenges for the Department
   This section highlights OIG’s list of Top 10 Management Challenges that faced the Department at the
   close of this semiannual period. We view these issues as Commerce’s top challenges because they meet
   one or more of the following criteria: they are important to the Department’s mission or the nation’s well-
   being; they are complex; they involve sizable expenditures; or they require significant management
   improvements. Given the diverse nature of Commerce activities, many of these issues cut across bureau
   and program lines. We believe that by addressing these challenges the Department can enhance program
   effectiveness; eliminate serious operational problems; decrease fraud, waste, and abuse; and achieve
   substantial savings.




                                   Top 10 Management Challenges
            1.      Successfully implement a Department-wide financial management
                    system.

            2.      Strengthen Department-wide information security.

            3.      Successfully transition the U.S. Patent and Trademark Office to a
                    performance-oriented organization.

            4.      Increase international compliance with trade agreements and expand
                    market access for American exporters.

            5.      Enhance export controls for dual-use commodities.

            6.      Increase the effectiveness of fishery management.

            7.      Continue to improve the Department’s strategic planning and
                    performance measurement in accordance with the Government
                    Performance and Results Act.

            8.      Strengthen financial management controls to maintain a
                    “clean” opinion on the Department’s consolidated financial
                    statements.

             9.     Successfully implement acquisition reform initiatives.

            10.     Effectively manage major facilities renovation and
                    construction projects.


Commerce OIG Semiannual Report                            3                                       March 2002
                                                                                                    IG’s Message to Congress


                                      CHALLENGE           1                                 for the package and hired a new contractor to
                                                                                            complete the modifications. In 1998 continuing cost
                                                                                            growth and schedule delays prompted the Department
                                      Successfully Implement a
Major Challenges for the Department




                                      Department-Wide Financial                             to review the CAMS program and revise the
                                                                                            implementation strategy, implement a reduced set of
                                      Management System                                     core functions, and reorganize the project management
                                                                                            structure.
                                      In 1992 the Department of Commerce began
                                      planning the development of the Commerce              The revised strategy called for four separate
                                      Administrative Management System (CAMS), an           implementations of CAMS to service the varying
                                      ambitious effort to improve and unify financial       financial management needs of the operating units: the
                                      management throughout the Department. At that         first—a pilot implementation at the Census Bureau—
                                      time, Commerce’s financial systems were outdated      would be followed by implementation for the units
                                      and fragmented, could not provide reliable            whose accounting functions are handled by the
                                      financial information, and did not comply with        National Institute of Standards and Technology, then
                                      federal financial management requirements.            for the National Oceanic and Atmospheric
                                                                                            Administration, and finally for NIST’s own financial
                                      CAMS is a major capital investment for the            management functions. The Census pilot was
                                      Department. Expenditures for developing CAMS          completed in June 1998. An independent review of the
                                      from 1995 through the end of fiscal year 2002 will    pilot concluded that the CAMS accounting software
                                      reach an estimated $195 million, and the              could support federal accounting and management
                                      Department plans to spend an additional               functions and was as good as or better than other
                                      $42 million in FY 2003 to complete the system.        federal accounting packages available at that time.
                                      However, additional work remains before
                                      Commerce is in compliance with OMB Circular           CAMS is now the official accounting system for
                                      A-127, which requires federal agencies to have a      Census and several units serviced by NIST, which
                                      single, integrated financial system with standard     include the Bureau of Economic Analysis, Economic
                                      information and electronic data exchange formats.     Development Administration, Economics and Statistics
                                      CAMS is scheduled to be fully deployed by the         Administration, Minority Business Development
                                      beginning of FY 2004. The cost of operating and       Agency, Office of the Secretary, and Office of
                                      maintaining the completed system is expected to       Inspector General. Commerce has also installed a
                                      exceed $25 million annually.                          Department-wide financial database, into which all
                                                                                            operating units submit financial statement data for
                                      Commerce has faced considerable difficulties in       consolidated reporting. The current plan is to
                                      pursuing the Department-wide implementation of        complete implementation of CAMS at NOAA by
                                      CAMS. In December 1994, it contracted for an          October 2002. NIST will complete implementation a
                                      off-the-shelf accounting software package and         year later. Commerce expects that by October 2003,
                                      related implementation and administrative services.   all of its operating units will be using integrated
                                      In 1997, after the vendor had difficulty modifying    financial management systems that comply with federal
                                      its accounting software to meet Commerce’s            requirements. Twelve units will use CAMS. The
                                      requirements, the Department took responsibility      remaining three—the International Trade

                                      Commerce OIG Semiannual Report                          4                                   March 2002
   IG’s Message to Congress


   Administration, U.S. Patent and Trademark          senior officials, we highlighted needed planning and
   Office, and National Technical Information         management improvements. Although the
   Service—will not be using CAMS, but will submit    Department had not officially responded to our draft




                                                                                                                 Major Challenges for the Department
   financial data to the Department-wide financial    report in this semiannual period, we understand that,
   database.                                          consistent with our recommendations, it is working
                                                      to improve the budget process as CAMS moves
   Since 1995 the Office of Inspector General has     into the operations and maintenance phase, has
   conducted reviews of the CAMS program,             begun tracking actual costs as of this fiscal year, and
   assessed the operational system in its annual      is working toward a performance-based
   financial statements audits, and monitored program management system. Nonetheless, because of the
   progress on a continuing basis. In recent          importance of CAMS to improving the
   semiannual reports, we expressed concern about     Department’s financial management and the
   the management of CAMS development and             significance of the work remaining, CAMS will
   maintenance as well as the efficiency and economy continue to warrant the close attention of senior
   of four CAMS implementations.                      Department officials and our office.

   In the last semiannual period, we reviewed CAMS
   contracting at the CAMS Support Center (see
   September 2001 issue, page 66). We found that
   although contract administration has improved
                                                         CHALLENGE            2
   steadily since late 1999, additional actions are      Strengthen Department-Wide
   needed such as greater use of performance-based
                                                         Information Security
   task orders, documented analyses of prices and
   costs, additional training for contracting officer
   technical representatives, and avoidance of           Information security is vital to Commerce: the
   contracts that appear to provide personal services.   Department operates many complex computer
   The Department is implementing an action plan to      systems that provide essential public services and
   address these recommended improvements.               support critical mission activities, such as national
                                                         and local weather forecasting; environmental
   The Department has already taken steps to             stewardship; and promotion of trade and
   address many of our recommendations. For              economic growth, scientific research, and
   example, the Department has increased its             technological development. Weaknesses in
   oversight of the operating units’ budget requests     information security throughout Commerce have
   for CAMS and obtained contractor support to           prompted us to identify this problem as a top
   provide a longer-term assessment of financial         management challenge.
   systems development, operations, and
   management.                                           During this semiannual period, OIG began its
                                                         second year of security evaluations under the
   During this semiannual period we continued our        Government Information Security Reform Act
   review of program management controls at the          (GISRA). GISRA requires each federal agency to
   CAMS Support Center. In our draft report to           review its information security program annually,

Commerce OIG Semiannual Report                            5                                         March 2002
                                                                                                           IG’s Message to Congress


                                      and each OIG to perform an annual independent           GISRA REVIEW FOR USPTO
                                      evaluation of that program. Agency heads must           Last year the U.S. Patent and Trademark Office
                                      provide both of these assessments to OMB along
Major Challenges for the Department




                                                                                              submitted its budget materials and security review
                                      with their annual budget submission.                    separate from the Department’s: USPTO has the
                                                                                              freedom to do so under the American Inventors
                                      In last year’s GISRA evaluation, we reported that       Protection Act of 1999, which gives it greater
                                      the Department is striving to improve information       independence and flexibility to meet federal
                                      security and make it an integral component of           mandates. We submitted the same GISRA
                                      Commerce’s business operations. Nevertheless,           evaluation for USPTO and the Department
                                      we concluded that inadequate attention to this          because the issues it addressed were applicable to
                                      issue in the past has required substantial efforts by   both. However, because USPTO has initiated its
                                      the Department to develop and oversee an                own actions to manage information security, we
                                      effective security program (see September 2001          conducted a separate review of its information
                                      issue, page 59). The Department identified
                                                                                              security policies and procedures this year.
                                      inadequate information technology (IT) security
                                      controls as a material weakness in its FY 2001          This evaluation covered the management,
                                      statement on financial and management controls          technical, and operational control areas identified
                                      prepared pursuant to the Federal Managers’              in the NIST IT security self-assessment guide,
                                      Financial Integrity Act (FMFIA).                        focusing on the controls for which implementation
                                                                                              could be evaluated on a bureau-wide basis. We
                                      As required by OMB under GISRA, the                     found that although USPTO generally has policies
                                      Department has developed a plan and schedule            and procedures that are consistent with accepted
                                      for improving information security. For this year’s     security practices, many are not implemented.
                                      evaluation, we will assess the Department’s             Thus, the bureau lacks assurance that its
                                      progress in implementing this plan, review the          operational systems and sensitive data are
                                      information security programs of selected               adequately protected. We noted that senior
                                      operating units, and hold discussions with chief        management’s awareness, support, and proactive
                                      information officers and senior IT security             involvement are essential to establishing the
                                      managers at all units. We will also examine the         environment and ensuring the commitment of
                                      assessments of IT security controls that were           resources to promote an effective information
                                      conducted as part of our audits of FY 2001              security program. In responding to our report,
                                      financial statements (see page 83). We are              USPTO agreed with all of our recommendations
                                      currently evaluating the information security           and, more important, described in detail actions it
                                      program at the National Institute of Standards and      is taking or plans to take to implement them. The
                                      Technology, using NIST’s Security Self-                 Under Secretary and Director of USPTO
                                      Assessment Guide for Information Technology             expressed his commitment to developing a strong
                                      Systems, as recommended by OMB.                         information security program, and significant
                                                                                              efforts are under way to address the weaknesses
                                                                                              we identified. These include providing increased
                                                                                              attention and resources to upgrading security


                                      Commerce OIG Semiannual Report                             6                                    March 2002
   IG’s Message to Congress


   awareness training, improving planning and             Our audit reports made recommendations to
   budgeting for information security requirements,       correct the control weaknesses identified at each
   and hiring personnel with information security         location. Responsible entities are required to




                                                                                                                Major Challenges for the Department
   expertise. (See page 74.)                              prepare audit action plans to address these
                                                          recommendations.
   Currently, we are assessing USPTO’s
   implementation of system-specific security             CONTRACT SECURITY WEAKNESSES
   controls, particularly focusing on the Patent        In last year’s GISRA report, we identified
   Application Capture and Review System (PACR).        problems with information security in IT service
   The bureau relies on PACR for day-to-day             contracts. In particular, we noted a lack of
   operations and has identified it as a high-security  sufficient policy and guidance to ensure that
   system. We will report the results of this review in contract documents for IT services contain
   the next semiannual period.                          adequate information security provisions. In this
                                                        semiannual period, we examined this weakness in
   BUREAU AND DEPARTMENT-WIDE IT SECURITY               greater detail: we reviewed 40 of the
   WEAKNESSES                                           Department’s IT service contracts and found that
   The system security reviews conducted as part of security provisions to ensure the safeguarding of
   the audits of FY 2001 financial statements of        sensitive but unclassified systems and information
   NOAA, Census, NTIS, and USPTO, as well as            were either insufficient or nonexistent. While some
   of the Department’s consolidated financial           contracts contained minimal coverage, none had
   statements, disclosed weaknesses in information      adequate provisions to safeguard the
   security controls over major financial management Department’s computer systems and networks
   systems. Taken together, these deficiencies are      from unauthorized access and its data from
   considered a material weakness—a serious flaw in unauthorized disclosure or modification. All but
   the design or operation of an internal control       two lacked evidence that information security was
   component that increases the risk that errors,       considered during the acquisition planning process.
   fraud, or noncompliance in material amounts may      Based on the results of this review, we concluded
   occur and not be readily detected (see page 74).     that the majority of IT service contracts throughout
   Specifically, our system security reviews found that the Department likely lack needed information
   some locations need to improve in the following      security provisions. In the next semiannual period,
   areas:                                               we will issue a report discussing these findings and
                                                        recommending actions that the Department should
        â entitywide security program planning and      take in the areas of policy, contract requirements,
           management,                                  and training to help ensure that adequate
        â access controls,                              provisions are included in contracts. Our next
        â application software development and          semiannual report will also detail the results of our
           change controls,                             other GISRA reviews, including our ongoing
        â system software,                              evaluation of the information security functions
        â segregation of duties and responsibilities,   associated with classified systems.
           and
        â service continuity plans.

Commerce OIG Semiannual Report                             7                                      March 2002
                                                                                                           IG’s Message to Congress


                                      CHALLENGE           3                                  FY 2001, a decrease of 21 percent. To address
                                                                                             the expanding patent application workload,
                                      Successfully Transition USPTO to a                     USPTO hired 789 patent examiners, but lost 706
Major Challenges for the Department




                                      Performance-Oriented Organization                      through attrition during fiscal years 2000 and
                                                                                             2001.
                                      The American Inventors Protection Act of 1999
                                      established the U.S. Patent and Trademark Office       Our prior audits of the Office of Patent
                                      as a performance-based organization, giving it         Publications and the Board of Patent Appeals and
                                      greater flexibility and independence to operate        Interferences reported on some of the challenges
                                      more like a business. As such, USPTO has               facing USPTO in recruiting and training examiners
                                      broader responsibility for managing its operations     and in hiring additional administrative judges to
                                      and expanded control over its budget allocations       hear appeals. As a performance-oriented
                                      and expenditures, personnel decisions and              organization, USPTO has greater flexibility to
                                      processes, and procurement operations.                 design incentives to attract and retain these highly
                                                                                             skilled employees. During this semiannual period,
                                      Despite the act’s potential benefits, the              we completed a review of attrition problems in
                                      transformation it allows is a formidable one.          two patent examiner work groups (see page xx).
                                      USPTO must develop the necessary personnel,            We made a number of recommendations for
                                      procurement, and administrative policies, as well      improving the screening and hiring process and
                                      as performance-oriented processes and standards        thereby ultimately improving retention.
                                      for evaluating cost-effectiveness, while meeting its
                                      performance goals under the Government                 Managing construction of new facility. During
                                      Performance and Results Act (GPRA) and the             these next few years, USPTO and the General
                                      timeliness standards of the American Inventors         Services Administration must oversee one of the
                                      Protection Act. USPTO management views the             largest real estate ventures that the federal
                                      passage of the act and the successful transition to    government will undertake this decade—
                                      a performance-oriented organization as critical to     construction of USPTO’s new 2.4 million-square-
                                      the operating unit’s success at addressing other       foot office complex in Alexandria, Virginia. When
                                      challenges identified by OIG in recent years, as       completed in 2005, the 5-building complex will
                                      described below.                                       provide space for USPTO employees and
                                                                                             operations currently scattered among 18 buildings
                                      Meeting staffing needs to handle increases in          in nearby Crystal City. Now that construction has
                                      patent activity. The number of patent application      begun, USPTO must aggressively hold the line on
                                      filings has skyrocketed in recent years, leading       project costs and stay within the legislatively
                                      USPTO to hire hundreds of new patent examiners         mandated cap on the cost of completing the build-
                                      and administrative judges. Trademark filings, on       out of the facility’s shell.
                                      the other hand, have been on the decline. In
                                      FY 2001, for example, USPTO received more              Maintaining state-of-the-art information
                                      than 326,000 applications for patents—an               technology capabilities. USPTO continues to
                                      increase of 11 percent over FY 2000. However,          face significant challenges in delivering essential IT
                                      296,000 trademark requests were received in            capabilities. The American Inventors Protection

                                      Commerce OIG Semiannual Report                            8                                      March 2002
   IG’s Message to Congress




                       700,000




                                                                                                                          Major Challenges for the Department
                                        Trends in Patent Applications
                       600,000


                       500,000
        Applications




                       400,000


                       300,000


                       200,000


                       100,000


                            0
                                 1990   1992   1994   1996   1998    2000    2002     2004     2006

                                                         Fiscal Year

       USPTO’s patent workload is projected to increase by roughly 30 to 50 percent annually from FY
       2002 through FY 2006. Historically high turnover among patent examiners has made it difficult for
       the bureau to process applications in a timely and efficient manner.

       Source: USPTO Business Plan February 2002. 2001. Washington, D.C.: United States Patent and
       Trademark Office. Accessed at http://www.uspto.gov/web/menu/fin03presidbudg1.doc.




   Act of 1999 requires greater operational efficiency              frequently not carried out (see page 71). USPTO
   from the bureau, further intensifying the demands                concurred with our findings and has already begun
   placed on IT solutions and USPTO’s ability to                    working to implement our recommendations.
   develop new and upgrade existing systems. Our                    While the results of our evaluation suggest that
   March 2002 evaluation of USPTO’s information                     information security has yet to become an integral
   security program found that in general, USPTO’s                  part of USPTO’s business operations, the
   documented policies and procedures are                           bureau’s response to our recommendations
   consistent with accepted security practices, but                 indicates genuine concern about the security of its
   many important security requirements are not                     IT systems and commitment to a stronger security
   implemented, and fundamental responsibilities are                program.



Commerce OIG Semiannual Report                                       9                                      March 2002
                                                                                                          IG’s Message to Congress


                                      CHALLENGE             4                               Overall, ITA’s approach to trade compliance and
                                                                                            market access is to try to solve problems at the
                                      Increase International Compliance                     lowest level possible—avoiding formal dispute
Major Challenges for the Department




                                      With Trade Agreements and Expand                      settlement structures such as the World Trade
                                      Market Access for American                            Organization, which can take years to resolve
                                      Exporters                                             cases.
                                      To compete effectively in today’s global
                                      marketplace, U.S. companies need help                 On the import side, unfair foreign pricing and
                                      addressing unfair trade practices and violations of   government subsidies can disrupt the free flow of
                                      trade agreements, inadequate intellectual property    goods and adversely affect U.S. companies’
                                      protection, and other barriers to the export of       global competitiveness. ITA’s Import
                                      U.S. goods and services. Commerce must ensure         Administration works with the International Trade
                                      that its trade compliance and market access efforts   Commission to enforce the nation’s antidumping
                                      adequately serve U.S. companies by helping            and countervailing duty laws. IA investigates
                                      expand trade, open world markets, and eliminate       complaints from U.S. industries regarding foreign
                                      unfair competition from imports priced at less than   producers and governments to determine whether
                                      fair market value.                                    dumping or subsidization has occurred and, if so,
                                                                                            to what extent. The commission determines
                                      Commerce, through various International Trade         whether U.S. industry is suffering material injury as
                                      Administration offices, works with the Office of      a result of the dumped or subsidized products. If
                                      the U.S. Trade Representative, the Departments        both agencies determine that dumping and injury
                                      of State and Agriculture, and numerous other          have occurred, IA instructs the U.S. Customs
                                      federal agencies to monitor and enforce trade         Service to assess duties against imports of those
                                      agreements. The number and complexity of              products.
                                      agreements have increased substantially in recent
                                      years.                                                In 2001 GAO identified monitoring and
                                                                                            enforcement of trade agreements as a major
                                      To help in its compliance efforts, ITA created the    management issue for Commerce. It cited two
                                      Trade Compliance Center in 1996. The center           main reasons for this problem: (1) the
                                      monitors U.S. trade agreements and reviews            Department’s shortage of staff with the expertise
                                      complaints from a variety of sources. When            to monitor compliance with trade agreements, and
                                      warranted, it forms a compliance team to bring a      (2) its difficulty obtaining balanced, comprehensive
                                      case to satisfactory conclusion. Team members         input from the private sector.
                                      are drawn from center staff and other ITA
                                      operating units including Market Access and           The Secretary of Commerce has taken steps to
                                      Compliance, Trade Development, the U.S. and           address the concerns of both Congress and GAO
                                      Foreign Commercial Service, and other                 by making the monitoring and enforcement of
                                      Commerce agencies, as appropriate. In addition        trade agreements a top priority for ITA and for the
                                      to the activities coordinated by the center, ITA’s    Department as a whole. Commerce received
                                      other operating units perform a substantial amount    additional funding for trade compliance activities in
                                      of market access and trade compliance work.           FY 2001 under the Compliance Initiative.

                                      Commerce OIG Semiannual Report                          10                                     March 2002
   IG’s Message to Congress


   We agree that a more coordinated federal effort is    Strengthening dual-use export licensing and
   needed to improve compliance. Our review of           enforcement requires new, comprehensive
   ITA’s trade agreement compliance process, as          legislative authority to replace the expired Export




                                                                                                                 Major Challenges for the Department
   managed by the Trade Compliance Center, found         Administration Act of 1979 and appropriately
   that the bureau needs to enhance its coordination     address current export control needs and realities.
   and tracking of trade compliance and market           Passed during the Cold War, the act sought to
   access activities within ITA. The results of this     prevent the export of critical goods and
   review are described on page 50.                      technologies to Communist bloc countries. In
                                                         today’s political climate, rogue countries and
   In the future, we intend to review other aspects of   terrorist groups seeking weapons of mass
   ITA’s approach to market access and trade             destruction and the systems to deliver them pose
   compliance, as well as key import administration      new threats to U.S. national security and foreign
   issues. In the meantime, ITA must continue to         policy goals. Legislation is needed to address
   work closely with U.S. companies and other            these threats, as well as to bolster BIS’ regulatory
   federal agencies to identify trade compliance         authority, stiffen penalties, and demonstrate
   problems, develop workable solutions for them,        America’s commitment to maintaining strong
   and thus enhance American firms’ access to            export controls while encouraging other countries
   foreign markets.                                      to do the same.

                                                         Given the importance of export controls to
   CHALLENGE           5
   Enhance Export Controls
                                                         national security, we have devoted considerable
                                                         attention to the challenges facing BIS. Specifically,
                                                         we responded to a request from the Senate
   for Dual-Use Commodities                              Governmental Affairs Committee to follow up on a
                                                         1993 interagency OIG review of the export
   The adequacy of export controls is a continuing       licensing process. At the conclusion of that follow-
   concern. Opinions vary on how well the                up work, we, along with OIGs from the Central
   government=s export control policies and practices    Intelligence Agency and the Departments of
   balance the need to protect U.S. national security    Defense, Energy, State, and the Treasury, issued a
   and foreign policy interests with the desire to       special interagency report in June 1999 on the
   promote U.S. trade opportunities and                  export licensing process for dual-use commodities
   competitiveness. Striking this balance is a           and munitions.
   significant challenge for the parties involved,
   particularly for Commerce=s Bureau of Industry        Subsequently, the National Defense Authorization
   and Security (BIS), which oversees the federal        Act (NDAA) for Fiscal Year 2000, as amended,
   government=s export licensing and enforcement         directed the inspectors general of the Departments
   system for dual-use commodities (goods and            of Commerce, Defense, Energy, and State, in
   technologies that have both civilian and military     consultation with the directors of the CIA and
   uses).                                                FBI, to report to Congress by March 30, 2000,
                                                         and annually until the year 2007, on the adequacy
                                                         of export controls and counterintelligence

Commerce OIG Semiannual Report                           11                                        March 2002
                                                                                                           IG’s Message to Congress


                                      measures to prevent the acquisition of sensitive        “deemed exports.” It also needs to conduct more
                                      U.S. technology and technical information by            outreach to federal and private research facilities
                                      countries and entities of concern. In addition, the     to ensure that they are cognizant of this regulation
Major Challenges for the Department




                                      NDAA for Fiscal Year 2001 requires the OIGs to          and apply for deemed export licenses, when
                                      discuss in their annual interagency report the status   appropriate.
                                      or disposition of recommendations made in earlier
                                      reports submitted in accordance with the act. To    The bureau also needs to improve its management
                                      date, we have completed three additional reviews    of the list of controlled dual-use commodities and
                                      of export controls in compliance with the act, as   technologies, known as the Commerce Control
                                      well as two separate follow-up reports.             List. We have recommended that BIS make the
                                                                                          list more user-friendly, improve the timeliness with
                                      Overall, our 1999 report described the licensing of which it implements agreed-upon multilateral
                                      U.S. dual-use exports as a balanced multiagency     changes to the list, and address the inappropriate
                                      collaboration that attempts to bring divergent      use of national security controls on some items.
                                      policy views and information to bear on the license
                                      decision-making process. In addition, we found      Furthermore, we have several concerns about the
                                      that the four-level escalation procedure for        overall effectiveness of the Committee on Foreign
                                      resolving license disputes among the referral       Investment in the United States (CFIUS),
                                      agencies was working relatively well.               specifically CFIUS’ lack of mandatory foreign
                                                                                          investment reporting and low number of
                                      While our assessments have identified significant   investigations conducted on company filings; the
                                      improvements in export controls since 1993, the     role of the Treasury in overseeing CFIUS
                                      1999 report detailed some weaknesses in the         activities; and—within Commerce—the division of
                                      licensing process. First, the processes for         responsibilities between BIS and ITA for the
                                      commodity classification and commodity              CFIUS program.
                                      jurisdiction were not timely and did not clearly
                                      specify the role of each agency. Second, the        The interagency OIG review team has agreed to
                                      intelligence community did not review all dual-use conduct an in-depth examination of the
                                      export license applications or consistently conduct Committee’s effectiveness as part of its future
                                      a comprehensive analysis of applications it did     work under the National Defense Authorization
                                      review, and license applications were not screened Act.
                                      against a key database maintained by the U.S.
                                      Customs Service. Third, there were some             UPGRADES TO AUTOMATED SYSTEMS
                                      recurring problems with BIS= monitoring of          During this reporting period, we completed a
                                      licenses that had reporting requirements.           review of BIS’ efforts to upgrade its automated
                                                                                          licensing and enforcement systems. These
                                      Subsequent reviews have added items to the list of enhancements are important for the Department
                                      areas that need BIS’ attention: the bureau needs to because BIS needs a more efficient system for
                                      clarify the licensing policy and regulations        processing export license applications. Our review
                                      regarding the release of controlled technology to   found that BIS has made some progress on its
                                      foreign nationals—commonly referred to as           redesign effort. For example, two components of

                                      Commerce OIG Semiannual Report                            12                                     March 2002
    IG’s Message to Congress


   the system are expected to be ready for
   implementation in 2002. However, our review also
                                                          CHALLENGE              6
                                                          Increase the Effectiveness
   highlighted several areas needing improvement to




                                                                                                                     Major Challenges for the Department
   ensure the long-term success of the project,           of Fishery Management
   including (1) planning, (2) implementation of
   established information technology management
   best practices, and (3) coordination with the
   interagency export licensing community.

   In addition to our assessment of Commerce’s
   system, the interagency OIG review team looked
   at the various automated dual-use and munitions
   export licensing systems maintained by
   Commerce, Defense, Energy, and State to
   determine whether the systems could better
   interact and whether system modernization
   initiatives were in accordance with federal policies
   and regulations (See page 21).
                                                          Source: NOAA

   FOCUSED PRIORITIES                                     The Northwest Fisheries Science Center in Seattle,
                                                          Washington—one of five research facilities operated by
   The challenges for BIS, as well as for the             NOAA’s National Marine Fisheries Service—provides
   administration and Congress, remain (1) passing a      scientific and technical support for management,
                                                          conservation, and development of the Pacific Northwest’s
   new Export Administration Act, (2) targeting
                                                          anadromous and marine fishery resources.
   federal licensing and enforcement efforts on those
   exports that present the greatest proliferation and
   national security risks, and (3) streamlining or       For nearly 30 years, the National Marine Fisheries
   eliminating controls that unnecessarily hamper         Service (NMFS) has had to balance two
   trade. We will continue to monitor BIS’ efforts to     competing interests: promoting commercial and
   improve dual-use export controls through the           recreational fishing as vital elements of our national
   annual reviews required by the National Defense        economy and preserving populations of fish and
   Authorization Act.                                     other marine life. The Marine Mammals Protection
                                                          Act of 1972 and the Endangered Species Act of
                                                          1973 gave NMFS responsibility for preventing the
                                                          extinction of marine fish, mammals, and turtles, as
                                                          well as anadromous fish, such as Pacific salmon,
                                                          which migrate between the ocean and inland
                                                          waterways. The Magnuson-Stevens Act of 1976
                                                          made NMFS the primary federal agency for
                                                          managing marine fisheries and established a
                                                          regional fishery management system to help the
                                                          agency carry out its mission. A 1996 amendment

Commerce OIG Semiannual Report                            13                                          March 2002
                                                                                                           IG’s Message to Congress


                                      to the act strengthened NMFS’ role in protecting       We are also completing a review of NMFS’ plans
                                      and sustaining fisheries.                              to design and construct the first of possibly four
                                                                                             acoustically quiet, state-of-the-art fisheries
Major Challenges for the Department




                                      The Department has reported that billions of           research vessels. These ships will be used to
                                      dollars in economic growth, thousands of jobs,         perform a wide variety of scientific activities, such
                                      and countless fishing opportunities have been lost     as implementing advanced technologies for
                                      as a result of overfishing and overcapitalization in   assessing fish stocks. We are assessing
                                      commercial and recreational fisheries. While           management controls on the acquisition to ensure
                                      certain fisheries appear to be well managed and        the vessels are procured on schedule and within
                                      produce positive benefits, others are severely         cost and that they meet NMFS’ requirements. We
                                      depleted and must therefore be restored and            will detail our findings for both of these reviews in
                                      properly managed to realize their long-term            the next Semiannual Report to Congress.
                                      potential. At the same time, fish species listed as
                                      threatened or endangered need to be recovered.
                                      Among 52 distinct groups of Pacific salmon, for
                                      example, 26 are threatened or endangered.
                                                                                             CHALLENGE             7
                                      NMFS has recently taken steps intended to help         Continue to Improve the
                                      restore Pacific salmon runs. The agency’s specific     Department’s Strategic Planning
                                      interest under the Endangered Species Act is to        and Performance Measurement in
                                      manage protected species through conservation          Accordance with GPRA
                                      programs and recovery plans. Its Federal
                                      Columbia River Power System 2000 Biological            Sound oversight of federal programs by Congress
                                      Opinion and the broader Federal Caucus Basin-          and agency managers requires relevant
                                      wide Salmon Recovery Strategy established              performance measures and credible performance
                                      performance standards to guide recovery of             data. The Government Performance and Results
                                      Pacific salmon in the Columbia River Basin.            Act of 1993 was designed to ensure the
                                      NMFS has also put together teams to develop            availability of such data by mandating that agencies
                                      recovery plans for threatened and endangered           set goals for program performance and report
                                      Pacific salmon species.                                outcomes measured against those goals. As the
                                                                                             administration moves toward integrating budget
                                      We are currently evaluating the role of NMFS’          and performance information and using
                                      Northwest Fisheries Science Center in supporting       performance data to make funding decisions, the
                                      salmon recovery efforts. Specifically, we are          credibility of reported performance results will be
                                      assessing the Center’s implementation of its           even more critical.
                                      Salmon Research Plan, which established priorities
                                      to ensure that the most important scientific work is   Like other federal agencies, the Department of
                                      conducted. If our review identifies deficiencies in    Commerce faces the challenge of producing data
                                      the process the center uses to guide its research,     that is accurate, appropriate, reliable, and useful.
                                      we will recommend appropriate corrective action.       To this end, OIG has been involved with



                                      Commerce OIG Semiannual Report                           14                                     March 2002
 FY 2001 Annual Program Performance
                           Number                Number            Measures          Measures
        Bureau
                           of Goals            of Measures           Met             Not Met
       EDA                     2                    12                 10                  2
      ESA                      3                    8                  7                  1
      ITA                      4                    7                  2                  5




                                                                                                               Major Challenges for the Department
      BIS                      4                    10                 4                  6
      MBDA                     2                    3                  2                  1
      NOAA                     7                   29                 22                  7
      USPTO                    3                    7                  4                  3
      TA                       6                   12                  7                  5
      NTIA                     3                    3                  2                  1
      Departmental
                               3                   20                  17                 3
      Management
      Totals                   37                  111                77                  34

   Source: Department of Commerce FY 2001 Annual Program Performance Report and FY 2003 Annual Performance
   Plan. Commerce operating units continue to improve their performance track record.


   Commerce’s efforts to implement GPRA since            While we believe the Department has made
   1997 and has taken the following steps to ensure      progress toward meeting the challenge of how
   the collection and reporting of such information to   best to plan and measure its performance,
   decision makers:                                      significant opportunities for improvement remain.
                                                         Our most recent audits of performance
       â provided implementation advice and              measurement and reporting at two Commerce
         assistance,                                     bureaus, NIST and USPTO, confirmed the need
       â monitored reviews by certified public           for additional improvements in the reporting of
         accounting firms of performance data            performance results—and improvements have
         contained in the annual financial               followed. For example, NIST responded to our
         statements,                                     findings of inadequate reporting by providing a
       â made presentations to departmental              more informative discussion of performance results
         officials on the importance of ensuring that    in the Department’s FY 2001 Accountability
         performance-related information is              Report and correcting reported results from prior
         reliable,                                       years to reflect our audit findings.
       â provided informal comments to the
         Department on various GPRA-related              We are currently evaluating performance
         documents, and                                  measurement and reporting at NOAA and, if
       â audited internal controls for selected data     warranted, will make recommendations to the
         on bureau performance.                          Department and its operating units regarding the
                                                         accuracy, appropriateness, reliability, and
   Commerce is operating under its second strategic      usefulness of its performance data.
   plan, which covers fiscal years 2000 to 2005.

Commerce OIG Semiannual Report                           15                                       March 2002
                                                                                                         15
                                                                                                            IG’s Message to Congress


                                      CHALLENGE              8                                substantial improvements in financial management,
                                                                                              maintaining a clean audit opinion remains a major
                                      Strengthen Financial Management                         challenge, especially under the accelerated
Major Challenges for the Department




                                      Controls to Maintain a “Clean”                          financial reporting dates mandated by OMB for
                                      Opinion on the Department’s                             FY 2002 and beyond. Further improvements are
                                                                                              essential to enable the Department and its entities
                                      Consolidated Financial Statements
                                                                                              to correct the material weaknesses and other
                                                                                              deficiencies identified in the audits of FY 2001
                                      The Chief Financial Officers Act of 1990, the
                                                                                              statements. Material weaknesses are serious flaws
                                      Government Performance and Results Act of
                                                                                              in the design or operation of an internal control
                                      1993, the Government Management Reform Act
                                                                                              component that increase the risk that errors, fraud,
                                      of 1994, and the Federal Financial Management
                                                                                              or noncompliance in material amounts may occur
                                      Improvement Act of 1996 were designed to
                                                                                              and not be readily detected.
                                      improve financial management and accountability
                                      in the federal government. These statutes require,
                                                                                              The audits of the Department’s FY 2001
                                      among other things, the preparation and audit of
                                                                                              statements identified two reportable conditions
                                      agency financial statements that present an entity’s
                                                                                              (one of which is considered a material weakness)
                                      financial position and results of operations, as well
                                                                                              and several instances of noncompliance with laws
                                      as other information needed by Congress, agency
                                                                                              and regulations, none of which was a new matter
                                      executives, and the public to assess management’s
                                                                                              (See page 83). The number of deficiencies is
                                      performance and stewardship. The audit report
                                                                                              lower than in previous years, but still represents an
                                      must state whether an agency’s financial
                                                                                              obstacle Commerce must overcome to avoid
                                      management systems comply with federal
                                                                                              jeopardizing future clean opinions.
                                      requirements.
                                                                                              The Department recognizes the need for ongoing
                                      The Department received an unqualified (clean)
                                                                                              efforts to create a financial management
                                      opinion on its FY 2001 consolidated financial
                                                                                              environment that provides timely, accurate financial
                                      statements—the third consecutive year for this
                                                                                              and performance information and complies with
                                      accomplishment despite continuing obstacles,
                                                                                              federal laws and regulations; it continues to focus
                                      including the absence of a single, integrated
                                                                                              on strengthening financial management controls.
                                      financial management system. During FY 2001,
                                      the Department and its reporting entities made
                                      significant progress toward resolving a previously
                                      reported material weakness regarding prompt
                                      recognition and recording of appropriations, and
                                      this weakness has thus been eliminated. In
                                      addition, some improvement in accounting balance
                                      reconciliations eliminated that matter as a separate
                                      reportable condition; the remaining weaknesses
                                      associated with that condition are now addressed
                                      in the reportable condition on financial
                                      management and reporting. Notwithstanding

                                      Commerce OIG Semiannual Report                            16                                     March 2002
                                                     IG’s Message to Congress


CHALLENGE          9                                     identify deficiencies in agencies’ acquisition
                                                         practices. For example,
Successfully Implement Acquisition




                                                                                                                Major Challenges for the Department
                                                              â GAO and various OIGs have reported
Reform Initiatives
                                                                problems with some agencies’ use of
                                                                purchase cards, primarily weak internal
Acquisition reform initiatives, such as the Federal
                                                                and administrative controls, improper
Acquisition Streamlining Act of 1994 and the Clinger-
                                                                purchases, lack of proper accountability,
Cohen Act of 1996, were intended to reduce the time
                                                                and inadequate training for card users and
and money spent in purchasing needed goods and
                                                                the officials who approve their purchases.
services. To accomplish this goal, reform initiatives
(1) rely on performance-based service contracting,
                                                              â OFPP, GAO, and others have expressed
(2) consider past performance in awarding contracts,
                                                                concerns about the use of government-
and (3) promote greater use of commercially available
                                                                wide agency contracts and other multiple-
products. They also emphasize results-based
                                                                award agreements, such as failure to
acquisition and promote life-cycle management of IT
                                                                obtain competitive quotes when using
as a capital investment. Performance-based
                                                                GSA schedule contracts.
measurement tools such as earned value and risk
management are key features of acquisition reform
                                                              â With federal spending on services
efforts.
                                                                exceeding $87 billion in fiscal year 2000,
                                                                GAO and OFPP have criticized the way
With the implementation of acquisition reform
                                                                the government buys services, noting in
initiatives well under way in the Department of
                                                                particular the failure of many agencies to
Commerce, OIG’s focus is shifting to the effectiveness
                                                                focus on results.
of the overall acquisition process. The Department
annually spends more than $1 billion, or about one-
                                                         We, too, have had ongoing concerns about service
quarter of its appropriation, through large contracts
                                                         contracting within the Department, and in recent
and other procurement vehicles. The challenge for
                                                         reports have identified problems with
Commerce is to balance the desire to streamline the
                                                         performance-based service contracting. Issues
acquisition process with the need to ensure that
                                                         include failure to use performance-based task
taxpayer dollars are wisely spent and laws and
                                                         orders where they would be beneficial, insufficient
regulations are followed. A streamlined process should
                                                         planning for contract administration and
not neglect basic acquisition principles: careful
                                                         monitoring, and the need for increased training of
planning, appropriate levels of competition, adept
                                                         contract technical representatives.
negotiations, well-structured contracts, and effective
contract management.
                                                         In this semiannual period, we completed the
                                                         fieldwork for a review of IT service contracts
Federal oversight organizations, such as GAO and
                                                         throughout the Department to determine whether
OMB’s Office of Federal Procurement Policy
                                                         they contain information security provisions that
(OFPP), along with the OIG community, continue to
                                                         adequately safeguard sensitive but unclassified
                                                         systems and information. We found that such

Commerce OIG Semiannual Report                           17                                        March 2002
                                                                                                           IG’s Message to Congress


                                      provisions were either inadequate or nonexistent.       and delivery orders under GSA Federal Supply
                                      We recommended that the Department develop              Schedules and other multiple-award contracts,
                                      policy, incorporate appropriate contract                and is reviewing interagency agreements and
Major Challenges for the Department




                                      requirements, and require training to help ensure       memorandums of understanding, as well as
                                      that contracts contain adequate information             purchase card policy. Finally, OAM is working
                                      security provisions, and that acquisition, program,     with the Office of the Chief Information Officer
                                      and technical personnel are knowledgeable about         and the Commerce budget office to integrate
                                      how to plan, implement, and manage such                 budget and planning for IT acquisitions. We will
                                      contracts. We also have continuing concerns with        continue to periodically assess the status of these
                                      management of the purchase card program within          efforts.
                                      the Department and are conducting a series of
                                      audits of that program.

                                      The complex nature of certain streamlining
                                                                                              CHALLENGE             10
                                      initiatives such as performance-based service           Effectively Manage Major Facilities
                                      contracting increases the importance of using a
                                                                                              Renovation and Construction
                                      multidisciplinary team approach to procurement.
                                      Teams should include not only experienced               Projects
                                      contracting and procurement staff, but also
                                      program, technical, budget, financial, logistics, and   The Department has plans for several major
                                      legal personnel. We believe that the lack of            construction projects that warrant OIG monitoring
                                      adequate security provisions in IT service              and review:
                                      contracts is attributable, in part, to insufficient
                                      involvement of program managers and IT                      â NOAA has 33 renovation and
                                      personnel during acquisition planning, requirements           construction projects scheduled or in
                                      definition, and contract award.                               process to ensure that its facilities remain
                                                                                                    state of the art and thus fully support its
                                      Commerce has continued to implement various                   missions of environmental monitoring and
                                      acquisition reform initiatives and has taken steps to         protection. These include modernization of
                                      improve procurement procedures and oversight.                 a National Weather Service facility in
                                      Its Office of Acquisition Management (OAM) has                Alaska, the National Ocean Service’s
                                      automated the procurement process and                         Marine and Environmental Health
                                      conducted an analysis of the acquisition                      Research lab in South Carolina, and a
                                      workforce, focusing on the quality of that                    National Marine Fisheries Service lab in
                                      workforce within the Department and its need for              Hawaii.
                                      tools and training. The office has taken steps to           â NIST will continue its multimillion-dollar
                                      provide oversight and measure performance of                  program to upgrade existing laboratories
                                      acquisition activities, using a risk management               in Gaithersburg, Maryland, and Boulder,
                                      program to monitor the effectiveness of reform                Colorado, including construction of the
                                      initiatives Department-wide. It has also reviewed             advanced measurement laboratory in
                                      procedures used by operating units to issue task              Gaithersburg.

                                      Commerce OIG Semiannual Report                            18                                    March 2002
   IG’s Message to Congress

               Current and Planned Construction Projects
                                                   Number of                  Estimated Costs
                    Operating Unit




                                                                                                                   Major Challenges for the Department
                                                    Projects                    (in millions)

                    NOAA                              33                         $625


                    NIST                                 1                        235

                    USPTO                                1                       1,200


                    Census Bureau.                       1                        340

                    Office of the                        1                         285
                    Secretary
                          Source: Commerce Office of Real Estate Policy and Major Programs




       â USPTO is implementing its billion-dollar            Effective renovation/construction management is a
         plan to consolidate employees and                   critical challenge for the Department because of
         operations in a new facility under                  the numerous inherent risks involved in the
         construction in Alexandria, Virginia. This is       planning and management of large, costly, and
         one of the largest real estate ventures to          complex capital improvement and construction
         be undertaken by the federal government             projects. Departmental leadership and OIG
         in this decade.                                     oversight are needed to maximize Commerce’s
       â The Census Bureau intends to construct              return on its investment in these projects. Past
         two buildings at its headquarters in                OIG reviews of major renovation and construction
         Suitland, Maryland, to provide employees            ventures have demonstrated that up-front
         with safe, modern facilities.                       oversight—that is, close monitoring during
                                                             planning and implementation—is essential.
       â Future Commerce plans include efforts to            Detecting and addressing potential problems
         completely modernize its headquarters in            during the developmental stages rather than after a
         Washington, D.C.                                    project’s completion saves untold time and money.
                                                             For this reason, we plan to actively monitor the
                                                             progress of some of the Department’s current and
                                                             planned construction projects.




Commerce OIG Semiannual Report                               19                                      March 2002
                                                     Department of Commerce
                                                           Organization Chart


                                                 Office of the
                                                  Secretary



  Bureau of                    Economic                             International                  U.S. Patent and
Industry and                  Development                               Trade                        Trademark
  Security                   Administration                        Administration                       Office




                 Economics and
                                                                                        Technology
                   Statistics
                                                                                       Administration
                 Administration




                                  Bureau of                            National Institute               National
     Bureau of                                                          of Standards                   Technical
                                  Economic
    the Census                                                         and Technology             Information Service
                                  Analysis




                                                                                           National
             Minority Business                      National Oceanic
                                                                                     Telecommunications
               Development                          and Atmospheric
                                                                                       and Information
                 Agency                              Administration
                                                                                        Administration



                                        National                       National
                                    Marine Fisheries                    Ocean
                                        Service                        Service




                                         National                      Marine
                                         Weather                     and Aviation
                                         Service                      Operations



                                          National                     Oceanic
                                  Environmental Satellite,         and Atmospheric
                                   Data, and Information
                                                                      Research
                                          Service




Commerce OIG Semiannual Report                                20                                        March 2002
               Bureau of Industry and Security


                                         JOINT REVIEW BY FIVE IG OFFICES CALLS FOR
The Bureau of Industry and
Security1 is primarily responsible
                                         GREATER INTERAGENCY COOPERATION ON
for administering and enforcing the
nation’s system for controlling
                                         EXPORT LICENSE SYSTEMS DEVELOPMENT
exports of sensitive dual-use
goods and technologies. BIS’             To prevent countries and entities of concern from acquiring militarily sensitive
major functions include formulating      U.S. technology and technical information, the Departments of Commerce,
and implementing export control          Defense, Energy, Justice, and State review export license applications for
policy; processing export license        approval or denial. The National Defense Authorization Act for Fiscal Year
applications; conducting various
                                         2000 directs the Inspectors General of Commerce, Defense, Energy, and
policy, technical, and economic
analyses; promulgating                   State, in consultation with the
regulations; conducting industry         Directors of the Central Intelligence
outreach; and enforcing the Export       Agency and the Federal Bureau of
Administration Act and regulations.      Investigation, to assess the adequacy
BIS’ activities also include
                                         of export controls and
promoting federal initiatives and
public-private partnerships across       counterintelligence measures and
industry sectors to protect the          submit a report to Congress by
nation’s critical infrastructures. BIS   March 30 of each year through 2007.
is divided into two units:
Export Administration
                                         In 2002, to comply with the third-
implements U.S. export control
and nonproliferation laws and            year requirement of the act, the OIGs
policies through export licensing,       conducted an interagency review of
commodity classifications, and           the automated systems that support
advisory opinions; technical,            the export licensing and enforcement
economic, foreign availability, and
                                         processes. The objective was to
policy analyses; promulgation of
regulations; and industry outreach.      determine how effective the systems
It also conducts various defense         are and how well they interact, and
industry activities and enforces         whether it is feasible to develop a single federal automated export licensing
industry compliance with arms            network or other alternatives.
control treaties.
Export Enforcement participates
                                         Review Results
in reviews of export license
applications and conducts criminal       Dual-use export licensing involves multiple automated systems owned and
and administrative investigations        operated independently by the licensing and review agencies. Many of
relating to the export control
portions of the Export
                                         these systems were developed prior to some of today’s information-
Administration Act and regulations.      sharing technologies, so are not optimally effective given present-day
It also administers and enforces         information-processing capabilities. Dual-use licensing agencies have
the antiboycott provisions of the
act and regulations.
                                         In April 2002, the Bureau of Export Administration (BXA) changed its name to the
                                         1

                                         Bureau of Industry and Security (BIS).


Commerce OIG Semiannual Report                                   21                                        March 2002
                                                          Bureau of Industry and Security


                                     made progress in modernizing their automated systems; however, current
                                     systems limitations include (1) differing security standards among
                                     agencies, (2) cumbersome manual and paper-based processes, and
                                     (3) lack of a comprehensive export-information database that can be
             Bureau of               used to assess the cumulative effect of multiple exports. Improvement
           Industry and              alternatives, beyond enhancing existing system interfaces, may not have
             Security                been adequately considered. Commerce is the agency primarily
                                     responsible for licensing dual-use exports.
   Export                Export
Administration        Enforcement    Munitions export licensing, like dual-use licensing, involves multiple,
                                     independently owned and operated, and nonintegrated automated
                                     systems. State, the agency primarily responsible for munitions licensing,
                                     has taken steps to upgrade aspects of its automated internal processes,
                                     but much of the licensing process remains manual or paper based. In
                                     addition, State’s inspector general found that the agency’s systems
                                     development approach does not include adequate risk management,
                                     identification of requirements, or coordination with industry and other
                                     federal agencies involved in the licensing process.

                                     U.S. Export Systems (USXPORTS), a Defense initiative, was established
                                     in 2000 to address interoperability concerns across agency lines.
                                     Partnering with Commerce, the USXPORTS Interagency Program
                                     Management Office has planned and implemented significant
                                     improvements in the export licensing processes for dual-use commodities.
                                     However, USXPORTS has been unable to fully address inefficiencies,
                                     identify requirements, and streamline the munitions export licensing
                                     process. As a result, its original goal—to modernize the entire federal
                                     export licensing process by providing participating agencies with
                                     electronic access to pertinent export data—has not yet been achieved.

                                     Recommendations Summary
                                     The interagency report recommended that the Secretary of Commerce, in
                                     conjunction with the Secretaries of Defense, Energy, State, and the
                                     Treasury, establish accountability for developing, integrating, and
                                     modernizing federal automated dual-use export licensing systems without
                                     unnecessary duplication. Establishing accountability would include forming
                                     a senior-level organizational structure, such as an interagency steering
                                     committee, to oversee the development effort.




    Commerce OIG Semiannual Report                       22                                    March 2002
Bureau of Industry and Security


For munitions export licensing, the team recommended that the
Secretary of State develop a memorandum of understanding with the
Secretaries of Defense, Energy, and the Treasury to develop integrated
and modernized automated munitions licensing systems without
unnecessary duplication and with an organizational structure to oversee
the development effort.

For both dual-use and munitions licensing, it was recommended that the
Secretary of Defense continue to work with Commerce, Energy, and
State to better integrate Defense’s role in reviewing and processing
licenses.

For the USXPORTS Interagency Program Management Office, the
recommendation was that the Secretary of Defense redirect
USXPORTS’ primary focus to automating, integrating, and modernizing
Defense’s processes for disseminating and reviewing export license
applications and associated technical documentation within that agency.
(Offices of Inspector General of the Departments of Commerce,
Defense, Energy, State, and the Treasury: IPE-14977; Department
of Defense: D-2002-074)


STRENGTHENING ECASS MODERNIZATION
EFFORTS WOULD HELP ENSURE THE PROJECT’S
LONG-TERM SUCCESS
In addition to the multiagency review, each OIG looked at its own
agency’s efforts to modernize its export licensing system. We reviewed
BIS’ Export Control Automated Support System (ECASS) to
determine whether BIS had (1) adequately considered business process
changes and appropriate resources for the life of the project;
(2) established an infrastructure capable of monitoring project costs,
schedule, and deliverables; (3) developed a realistic, achievable system-
design schedule; and (4) implemented previous OIG recommendations
pertaining to modernization of the export licensing system and other
internal control issues.




 Commerce OIG Semiannual Report                             23              March 2002
                                                       Bureau of Industry and Security


                                 What We Found
                                 Since 1998, when the ECASS 2000+ redesign began, BIS has made
                                 progress in four key areas. First, appointing a project manager in March
                                 2000 brought direction and stability to the project. Second, BIS is
                                 working with Defense’s USXPORTS office to develop a “front-end”
                                 licensing subsystem, called the Simplified Network Application
                                 Processing (SNAP)2/Electronic Support Documentation (ESD) system
                                 that allows export license applicants to submit all types of applications
                                 and supporting documentation on-line. Third, BIS’ new export
                                 enforcement investigative tracking system is scheduled to be
                                 implemented in June 2002. Fourth, during its fiscal year 2003 budget
                                 planning cycle, BIS established a Capital Planning Team to coordinate
                                 its strategic planning, annual budgeting, and information technology
                                 functions. Still, there is much to be done.

                                 EVALUATION REVEALS ISSUES REQUIRING
                                 RENEWED ATTENTION

                                 Planning, Resources, and Oversight by BIS Management and
                                 the Department

                                 BIS’ business process reengineering (BPR) study, completed in 1998, is
                                 too narrow in scope; this deficiency was not adequately addressed by
                                 BIS management. A BPR study yields information used to define or
                                 redefine requirements that must be met by an automated system. A
                                 flawed BPR study can mean a flawed benefit-cost analysis. Also, the
                                 ECASS redesign is based on a benefit-cost analysis that is outdated in
                                 terms of both cost and proposed requirement changes. Complicating
                                 this issue is the fact that BIS increased its baseline for ECASS from $6
                                 million in 1998 to $7.5 million in 2001 without preparing adequate cost
                                 estimates. As a result, BIS does not know what funding levels are
                                 needed or whether the $7.5 million will be sufficient to complete
                                 ECASS 2000+ by fiscal year 2006. Another planning issue concerns
                                 stakeholder participation. Not all ECASS 2000+ users’ specific needs
                                 and requirements have been adequately specified and documented. We
                                 found minimal user involvement in the preparation of requirements for
                                 the licensing subsystem, and the information technology security
                                 requirements had not been specified.
                                 2
                                  SNAP is currently being beta tested at http://www.bxa.doc.gov/SNAP/default.htm; it is
                                 scheduled for release in mid 2002.


Commerce OIG Semiannual Report                        24                                          March 2002
Bureau of Industry and Security


Documentation of Security Requirements and Implementation of
IT Best Management Practices

Although the ECASS 2000+ project officially began in March 2000, as
of September 30, 2001, BIS had not completed the design of key
system management processes or the documentation needed to better
manage the redesign. At that time, ECASS 2000+ lacked adequate
management tools, including (1) a configuration management process,
(2) a risk management process, (3) a software acquisition training
program for its project team members, (4) a project management plan,
and (5) a target architecture. OMB, GAO, and the Department’s Office
of Chief Information Officer have all noted that these management tools
are requisite for systems development.

Interagency Cooperation on Planning, Design, and Development

Our 1999 export licensing report raised concerns about the multiple,
discrete automation efforts under way by the various export licensing
agencies and recommended that BIS coordinate its system development
efforts with the other agencies to maximize efficiencies and savings as
well as acquire a more integrated licensing system. Since then, BIS has
been involved in some interagency modernization efforts but has not
involved the other agencies in its own redesign effort beyond SNAP/
ESD. Also, BIS may not be adequately considering system
improvement alternatives beyond enhancing interfaces with the existing
licensing systems.

Recommendations Summary
As a result of our findings, we made 13 recommendations to the Under
Secretary for Industry and Security, essentially suggesting that BIS do
the following:

    â Determine whether changes proposed in the 1998 business
      process reengineering study, as well as those in a 2001 internal
      licensing task force report, should be factored into ECASS
      2000+ design and requirements.

    â During the second quarter of FY 2002 (January-March 2002),
      implement the ECASS 2000+ configuration management and
      risk management processes, revise and approve the program

 Commerce OIG Semiannual Report                            25             March 2002
                                               Bureau of Industry and Security


                                    management plan, complete the target architecture, and select
                                    the location for ECASS.

                                 â Develop a central multiagency data repository for records
                                   pertaining to all applications reviewed, ensuring that the
                                   repository has appropriate access controls yet permits agencies
                                   to retain control of their respective databases.

                                 â For FYs 2002 through 2005, determine what resources are
                                   needed and how to secure adequate funding for them, and
                                   whether it is necessary to extend the project time frame. Also,
                                   document security requirements and determine how to fund
                                   them.

                                 â Ensure that relevant interagency stakeholders validate system
                                   requirements. Also, determine whether Defense can use
                                   ECASS 2000+ for its export licensing needs. To promote the
                                   accord essential to developing an effective decision-making
                                   process for export licensing and security policy, document the
                                   responsibilities of all dual-use licensing agencies, including
                                   Treasury and the Central Intelligence Agency, and the best
                                   approach to coordinating the ECASS 2000+ redesign effort
                                   with each agency’s automation initiatives. (Office of
                                   Inspections and Program Evaluations: IPE-14270)




Commerce OIG Semiannual Report                 26                                  March 2002
Economic De
          Devvelopment
Administration
                                     During this reporting period, we completed audits of five EDA revolving
                                     loan funds and four public works projects. Our findings of improper and
The Economic Development
Administration was established       excess claims, noncompliance with funding regulations, and lack of need
by the Public Works and Eco-         resulted in recommendations for funds to be put to better use totaling
nomic Development Act of 1965        about $1.9 million and questioned costs totaling approximately
to generate new jobs, help retain     $1.7 million.
existing jobs, and stimulate
commercial and industrial growth
in economically distressed areas     NONCOMPLIANCE AND QUESTIONABLE COSTS
of the United States. EDA
continues to fulfill this mission    FOUND IN AUDIT OF UTAH CORPORATION’S
under the authority of the
Economic Development Adminis-
                                     DEFENSE CONVERSION GRANT
tration Reform Act of 1998, which    In our March 2001 issue (page 28), we reported on our interim audit of
introduced the concept of
Comprehensive Economic
                                     a defense conversion grant awarded to a Utah city in 1996 to help
Strategies, a local planning         redevelop a closed army depot for commercial use. The EDA-funded
process designed to guide the        project included construction of both a sewer line from the depot to the
economic growth of an area.          city’s new wastewater treatment plant and collector sewers at the depot.
Based on these locally and           The total approved project cost was $5,371,000: $2,500,000 in federal
regionally developed strategies,
EDA works in partnership with
                                     funds (47 percent) and $2,871,000 as the city’s matching share (53
state and local governments,         percent).
regional economic development
districts, public and private        In our interim audit report, we questioned $3,416,014 in costs claimed
nonprofit organizations, and         under the EDA award as unsupported. As part of the audit resolution,
Indian tribes to help distressed
communities address problems
                                     we agreed to perform a final cost audit of the grant in coordination with
associated with long-term            a Department of the Interior audit of a related Bureau of Reclamation
economic deterioration and           grant.
recent, severe economic disloca-
tions, including recovery from the   Our final audit, completed this period, revealed that the city (1) did not
economic impact of natural
disasters, the closure of military
                                     complete the original grant project because it failed to construct the
installations and other federal      collector sewers, (2) used project underrun funds to impermissibly
facilities, changes in trade         expand the scope of the project, (3) claimed unbudgeted and
patterns, and the depletion of       unsupported in-kind land costs, (4) allocated excessive wastewater
natural resources. EDA provides      treatment plant costs to the EDA grant, and (5) failed to maintain an
eligible recipients with technical
assistance, as well as grants for
                                     adequate financial management system, which resulted in duplicative
public works and economic            cost claims to the EDA and Bureau of Reclamation awards. We
development, planning, training      questioned a total of $3,042,324 in claimed project costs, which
and research, and economic           included approximately $2,500,000 in costs also billed to the Bureau of
adjustment.                          Reclamation grant.

                                     We recommended that EDA (1) provide no additional funds to finance
                                     the incomplete portion of the grant, (2) disapprove any expansion of the
                                     grant scope through the use of underrun funds, (3) disallow unsupported
Commerce OIG Semiannual Report                           27                                   March 2002
                                                  Economic Development Administration

                                      in-kind contributions of land and excessive allocations of wastewater
            Economic                  treatment plant costs, (4) require the city to maintain an adequate
           Development
                                      financial management system for future awards, and eliminate duplicative
          Administration
                                      project costs from its claims on the EDA and Bureau of Reclamation
                                      grants, and (5) seek recovery of EDA’s share of questioned costs.
  Program             Finance and
                                      (Denver Regional Office of Audits: DEN-14874-2)
 Operations          Administration

                                      RLF IN PUERTO RICO WAS NOT RECORDING
Cong. Liaison,
  Program              Regional       PROGRAM INCOME
Research and           Offices
 Evaluation                           We performed a financial and compliance audit of an RLF established in
                                      1987 through a $500,000 EDA grant to an institution in Puerto Rico.
                                      EDA recapitalized the RLF twice, providing an additional $1 million for
                                      the fund in both 1989 and 1990. When combined with the recipient’s
                                      required matching contribution of $1.75 million, total capitalization for
                                      the RLF was $4.25 million. In 1999 EDA awarded another $1 million to
                                      the RLF; however, use of these funds was restricted to providing
                                      assistance to businesses adversely impacted by Hurricane Georges,
                                      which hit Puerto Rico the previous year.The primary objective of our
                                      audit was to determine the institution’s compliance with applicable
                                      federal laws and regulations, EDA guidelines, and grant terms and
                                      conditions in administering the RLF.

                                      We issued two reports on the audit: one dealing with the 1999
                                      recapitalization award and a second addressing the overall
                                      administration of the RLF under the three earlier awards. At the time of
                                      our audit, no funds had been drawn down on the 1999 award and no
                                      loans had been made. Under the circumstances, we recommended that
                                      EDA terminate the grant and deobligate the $1 million in undisbursed
                                      federal funds. The agency agreed and subsequently implemented our
                                      recommendation. (Atlanta Regional Office of Audits: ATL-13955-1)

                                      We reported jointly on the other three awards because they shared the
                                      same general purpose and were administered as one RLF project. Our
                                      audit determined that $204,276 in cumulative RLF income had not been
                                      recorded, which caused the institution to understate the fund’s actual
                                      balance and may have unnecessarily restricted its RLF lending over the
                                      years. We also found instances of improper lending; unsupported
                                      administrative charges; inaccurate loan, income, and cost data in reports
                                      to EDA; and failure to file required annual RLF plan certifications.


  Commerce OIG Semiannual Report                          28                                   March 2002
Economic Development Administration


The recipient took steps to resolve certain of the audit findings after we
issued our draft report. In view of these developments, our final
recommendations were that EDA require the institution to (1) record
and deposit into the RLF account an additional $51,988 in income,
(2) record all future income in accordance with grant regulations,
(3) annually submit a properly executed RLF plan certification, and
(4) ensure that future status reports to EDA are accurate. (Atlanta
Regional Office of Audits: ATL-13955-2)

UNCERTAINTIES, QUESTIONED COSTS DISCLOSED
IN AUDIT OF ARIZONA WATER SYSTEM PROJECT
In August 1999, EDA awarded a public works grant to a town in
Arizona for construction of the second phase of a five-phase water
distribution master plan. Phase II was intended to provide a new
infrastructure to replace contaminated portions of the existing water
system in the town’s commercial section.

The total cost of phase II was $2,584,500, of which the EDA grant
would fund a maximum of $1.2 million, with the balance to be covered
by $1,384,500 in local matching funds. EDA asked us to conduct an
interim audit of the project to determine whether the town had sufficient
funds for the match, had obtained required easements and rights-of-
way, and had claimed only those project costs allowed under the terms
of the grant. Our audit examined project activities and costs claimed
under the award for the period of August 25, 1999, through January 11,
2001.

We verified that the town had the easements and rights-of-way for part
of the construction contract that was under way. However, it was still
trying to secure the easements necessary to complete the current
contract and obtain approval to start the remaining two contracts for
phase II.

We also determined that the town had failed to comply with federal
procurement and financial management standards, and with federal cost
principles applicable to the award. Specifically, we found the town had
(1) selected the town engineer to serve as the phase II project engineer
rather than submit the architectural engineering contract to competitive
bidding, (2) developed an incomplete and inconsistent engineering
agreement, and (3) failed to implement procedures to adequately

 Commerce OIG Semiannual Report                              29              March 2002
                                             Economic Development Administration


                                 manage the contract. We also found that the town’s financial
                                 management system could not generate accurate data about results of
                                 the award. This noncompliance weakened the recipient’s control over
                                 EDA funds and caused us to question almost the entire amount of costs
                                 claimed through the interim audit cutoff date—$212,388 of $214,398.

                                 Finally, we concluded that the town had the required matching funds, as
                                 well as sufficient funds, to complete the remaining three phases of the
                                 master plan, if actual costs stayed within the January 1999 estimate of
                                 $5.3 million. We cautioned, however, that further delays in obtaining
                                 easements and rights-of-way and EDA’s determination regarding
                                 questioned costs could jeopardize completing the project within budget.

                                 Based on our findings, we recommended that EDA disallow the
                                 questioned costs, offset the federal share of disallowed costs against the
                                 recipient’s future requests for reimbursement, and take several
                                 additional actions including the following:

                                          1. Prohibit the town from advertising future contracts until it
                                             obtains all required easements and rights-of-way.

                                          2. Advise town officials that all costs incurred under the
                                             project engineering agreement are unallowable for EDA
                                             participation, and offset the federal share of all engineering
                                             expenses claimed subsequent to the interim audit against
                                             future reimbursement requests.

                                          3. Determine whether the town has sufficient funds to
                                             complete the EDA portion of the project once it deals with
                                             our recommendations. If it does not, EDA should
                                             terminate the award and recover all federal funds
                                             disbursed.

                                 In general, the town agreed with the findings of our audit and took
                                 action on several recommendations. Although it agreed with our
                                 questioning of $212,388 in claimed costs, it disagreed with our
                                 recommendation that EDA disallow these costs and recover the federal
                                 share, citing mitigating circumstances. EDA sustained our findings and
                                 recommendations. (Seattle Regional Office of Audits: STL-14253)




Commerce OIG Semiannual Report                      30                                    March 2002
Economic Development Administration


AUDIT OF LOUISIANA RLF REVEALS FAILURE TO
COMPLY WITH AWARD TERMS AND CONDITIONS
EDA awarded a $500,000 Long-Term Economic Deterioration (LTED)
grant to a Louisiana economic development organization in 1989 to
establish a revolving loan fund to assist businesses and support
economic development in the local area. In 1996 the organization
received a second EDA grant to recapitalize the RLF. We issued an
audit report, in March 2001 Atlanta Regional Office of Audit: ATL-
13214-1 that addressed the lack of need for the recapitalization award.
(See March 2001 issue, page 26.) As a result, in September 2001,
EDA deobligated the unused grant balance of $253,388.

During this semiannual period we issued a second report addressing the
organization’s financial management of the RLF and its compliance with
applicable administrative requirements. We found that the organization’s
cost allocation plan was incomplete and failed to meet technical
requirements and that annual organizational audits were not performed
as required. In addition, our review of RLF loan files revealed that they
were not always documented in accordance with EDA requirements and
that loans may have been made to unqualified borrowers.

We recommended that EDA require the organization to implement
procedures to remedy these deficiencies. The organization generally
agreed with our findings, noting that actions were already under way to
ensure future compliance. (Atlanta Regional Office of Audits: ATL-
13214-2)

AUDIT CONFIRMS MULTIPLE COMPLIANCE
ISSUES AT SOUTH CAROLINA RLF
In April 2001, EDA suspended the lending authority of an RLF operated
by a South Carolina city, based on the city’s failure to comply with
various grant terms and RLF administrative requirements. At that time,
EDA also requested that our office audit the fund. We performed a
financial and compliance audit to review the issues cited in EDA’s audit
request and to determine the current financial status of the RLF. Our




 Commerce OIG Semiannual Report                            31               March 2002
                                             Economic Development Administration


                                 audit confirmed that the city was not complying with numerous
                                 administrative requirements. Specifically we found the following:

                                     â The RLF had more than $47,000 in excess cash reserves
                                       resulting from a lack of loan activity in recent years.
                                     â Three loans were made during 1998 and 2000 that violated
                                       provisions of the city’s RLF plan and were not properly
                                       documented.
                                     â The city’s RLF plan did not meet EDA guidelines, and its most
                                       recent RLF plan certification was incomplete and inaccurate.
                                     â The status of the RLF loan portfolio was materially
                                       misrepresented in the city’s latest semiannual report to EDA.
                                     â A minor amount of unallowable administrative costs were
                                       charged to the EDA RLF and two other federally funded RLFs.

                                 To remedy these problems, we recommended that EDA require the city
                                 to do the following:

                                     â Use the excess cash to make new RLF loans within 6 months
                                       or remit all excess cash on hand to the U.S. Treasury.
                                     â Ensure that future loans strictly comply with the RLF plan and
                                       document RLF loan files in accordance with EDA requirements.
                                     â Revise the RLF plan to comply with EDA’s December 1998
                                       plan guidelines and ensure that future annual plan certifications
                                       are complete and correct.
                                     â Ensure that future semiannual RLF reports submitted to EDA
                                       are complete and accurate.
                                     â Reimburse the federally funded RLFs for their respective shares
                                       of the unallowable administrative costs.

                                 City officials have agreed to correct the problems noted and have
                                 already reimbursed the EDA RLF for its share of unallowable costs.
                                 (Atlanta Regional Office of Audit: ATL-14690-1)

                                 COSTS QUESTIONED IN AUDIT OF GRANT TO
                                 NEW YORK ECONOMIC DEVELOPMENT
                                 ORGANIZATION
                                 A $1,240,000 Defense Economic Adjustment grant was awarded to a
                                 local economic development organization in New York in 1995 to help
                                 fund the renovation of an industrial facility to create incubator space for
Commerce OIG Semiannual Report                       32                                     March 2002
Economic Development Administration

small start-up companies and develop job opportunities for workers
displaced by defense industry downsizing in the area.

In March 1997, the grantee advised EDA that it could not continue with
the project as planned and requested the agency’s permission to use the
award to develop an industrial park and multi-tenant industrial building.
EDA denied the request and subsequently notified the grantee that the
award would be terminated. The Economic Development Reform Act
of 1998, however, provides relief for projects obligated with FY 1995
funds, specifically giving grantees the opportunity to modify a project’s
scope of work. In August 1999, the organization requested an
amendment to the award that would permit it to use the grant proceeds
to develop a countywide training program. EDA approved the request
in February 2000, but by August 2000 it was clear that the project
could not be completed before the funds expired on September 30,
2000. EDA closed the award, effective on the expiration date.

Our audit of the award found that the recipient had improperly claimed
costs totaling $194,657, including an inadequately supported in-kind
costs claim of $157,415 for salaries and fringe benefits, and operations
and maintenance. The corporation also violated the terms and
conditions of the award by failing to return, on a timely basis, interest
earned on EDA disbursements.

Before we issued our final report, the grantee remitted $165,889 to
EDA: $159,137 in grant funds and $6,752 in earned interest. Based on
the questioned costs, however, we determined that an additional
$42,011 was owed to the federal government. We recommended that
EDA disallow the full amount of questioned costs and recover the
$42,011 balance of excess disbursements. (Atlanta Regional Office of
Audits: ATL-14033-1)

AUDIT OF WASHINGTON RLF DISCLOSES
ADMINISTRATIVE ISSUES AND FAILURE TO
COMPLY WITH MATCHING SHARE
REQUIREMENTS
In September 1998, EDA awarded a Washington nonprofit association
a $300,000 grant, to be matched by $100,000 in recipient funds, to
establish an RLF intended to provide increased resources to low- and

 Commerce OIG Semiannual Report                             33              March 2002
                                            Economic Development Administration

                                 moderate-income persons expanding or creating businesses in the area.
                                 More than 2 years after the award was made, however, 50 percent of
                                 the grant funds remained undisbursed.

                                 We performed a limited-scope, financial-related audit of the award to
                                 determine why fund disbursement had been delayed and to assess
                                 whether a valid need for the RLF continued to exist. We found that
                                 despite having missed two interim disbursement milestones, the
                                 association had sufficient projects in the pipeline to use the remaining
                                 funds and meet the final disbursement deadline, and that the original
                                 justification for the award remained valid. Our audit did, however,
                                 disclose a number of significant administrative issues that jeopardized
                                 RLF operations and required action by the association. We also
                                 determined that the recipient had failed to comply with award provisions
                                 and EDA guidance governing the nonfederal share by claiming funding
                                 sources that were restricted or otherwise ineligible for that purpose.

                                 We recommended that EDA disallow $75,000 in claimed nonfederal
                                 matching funds and recover $53,500 in excess disbursements. We also
                                 recommended that the agency do the following:

                                        1. Require the association to submit evidence of the availability
                                           of sufficient eligible matching funds to complete the award
                                           disbursement phase within a reasonably revised deadline, or
                                           terminate the award and deobligate the unused award funds
                                           if those conditions are not met.

                                        2. Require the association to promptly hire a full-time,
                                           experienced loan officer and develop contingency plans to
                                           protect and manage the RLF should its president/CEO
                                           become unavailable or incapacitated.

                                 After reviewing the recipient’s response to our report, EDA sustained
                                 the audit findings and recommendations. The association is currently
                                 working on corrective actions to preserve the full award. (Seattle
                                 Regional Office of Audits: STL-14140-2)




Commerce OIG Semiannual Report                      34                                  March 2002
Economic Development Administration


ILLINOIS RLF NEEDS TO IMPROVE ITS
ACCOUNTING AND REPORTING OF FUNDS
In September 1996, EDA awarded an Illinois local development
organization a $375,000 grant to create a $500,000 RLF to help
mitigate unemployment caused by a sharp decrease in the area’s
industrial sector and a 25-year dearth of investment in the local
community. The RLF was to be used to award low-interest, gap
financing loans to small industrial and commercial businesses located
within the organization’s 10 square-mile service area.

We performed an interim financial and compliance audit during June
2001 to evaluate the recipient’s financial management of the RLF and
determine whether it was complying with applicable RLF administrative
and loan documentation requirements. Our audit disclosed that the
organization (1) was not properly accounting for RLF funds because
assets, liabilities, and balances had been commingled with accounts of
similar loan programs; (2) was charging the RLF with estimated
administrative expenses rather than actual costs incurred; and (3) had
not achieved any of the grant disbursement milestones specified in the
award.

We recommended that EDA direct the organization to separately
account for each asset, liability, income, and expense comprising the
RLF fund and claim only actual, supportable RLF administrative costs,
in accordance with grant requirements. The organization proposed to
correct its inadequate record keeping by establishing a separate account
solely for RLF funds effective January 1, 2002; and when its 2001
calendar year audit is complete, will deposit $3,953 into the RLF
account to correct the charge for administrative expenses. As for the
required disbursement milestones, the organization worked with EDA to
develop a realistic time schedule extension and by September 30, 2001,
had disbursed and obligated the entire grant. (Denver Regional Office
of Audit: DEN-14321-2)




 Commerce OIG Semiannual Report                             35             March 2002
                                                      Economic Development Administration


                                          NO DEFICIENCIES FOUND IN WASHINGTON STATE
                                          PORT PROJECT’S HANDLING OF EDA FUNDS
                                                        A port in Washington State was established in 1966 after
                                                        local authorities acquired an Air Force base from the federal
                                                        government during base closures in 1965. The port operates
                                                        a small airfield, a foreign trade zone, and an industrial park
                                                        of about 5,000 acres. In September 1998, EDA awarded a
                                                        grant to the port to construct a wastewater collection,
                                                        storage, and disposal system to permit future industrial
                                                        expansion at the facility. The total project cost was estimated
                                                        at $4,014,000, with the EDA award contributing about 37
                                                        percent of the project (not to exceed $1.5 million). The
                                                        award period was from September 1998 to September
                                                        2000.

                                                        Our audit did not disclose any deficiencies. All project
                                                        costs claimed through December 2000 were supported
                                                        and appeared reasonable and necessary for the project.
                                                        Although a problem with pump station monitoring caused
                                                        a delay in project completion, the problem was resolved
                                                        and the project is now functioning as designed. The port
                                                        was in compliance with federal award requirements and
                                                        with EDA award terms and conditions.
Source: Washington State Port
                                          Most of the project costs had been claimed for reimbursement at the
Four runways meet to form the “X” in      time of our review, and the project was 87 percent complete. There
this aerial photograph of a port in
Washington state that includes an         appear to be sufficient funds available to cover the construction contract
international airport, an industrial      retainage and miscellaneous project closing costs. Therefore, unless
park, and a foreign trade zone. The       EDA has reason to question the final reimbursement claim on project
port used EDA funding to construct an
on-site system for collecting, storing,   closeout, we consider the award closed for audit purposes. (Seattle
and disposing of industrial wastewater,   Regional Office of Audits: STL 14790-2)
thereby relieving an overburdened
municipal treatment system.




     Commerce OIG Semiannual Report                          36                                      March 2002
Economics and
Statistics Administration
                                       SPECIAL OIG REPORT EMPHASIZES THAT CENSUS BUREAU
 The Economics and Statistics          NEEDS TO CAPITALIZE ON SUCCESSES OF CENSUS 2000 AND
 Administration analyzes
 economic developments,                IMPROVE WEAKNESSES AS IT PREPARES FOR 2010
 formulates policy options, and
 produces a major share of U.S.        At an estimated cost of $6.5 billion, the 2000
 government economic and               decennial census was the most expensive to
 demographic statistics. The Chief
                                       date. Yet it is generally considered a
 Economist monitors and analyzes
 economic developments and             success—participation was higher than
 directs studies that have a bearing   anticipated, especially among the historically
 on the formulation of economic        undercounted, and operations concluded on
 policy. ESA has two principal         time. Census 2000 counted approximately
 agencies:
                                       281 million people living in 116 million housing
 Bureau of the Census is the
 country’s preeminent statistical      units.
 collection and dissemination
 agency. It publishes a wide variety   OIG monitored the bureau’s planning of
 of statistical data about the         Census 2000 through the decade preceding
 nation’s people and economy, con-
                                       it and has since evaluated its execution: we
 ducting approximately 200 annual
 surveys, in addition to the decen-    issued more than 30 reports and memorandums regarding the 2000
 nial census of the U.S. population    decennial; listened to the concerns and insights of Census Bureau officials
 and the decennial census of           and Commerce managers; conferred with census enumerators and
 industry.                             managers; talked with congressional members and staff, as well as state
 Bureau of Economic Analysis
                                       and local elected officials; and sought input from census experts both within
 prepares, develops, and interprets
 the national income and product       and outside the government. During this semiannual period, we issued our
 accounts (summarized by the           report, entitled Improving Our Measure of America: What Census 2000
 gross domestic product), as well      Can Teach Us in Planning for 2010, which summarizes the findings of
 as aggregate measures of              this work, organized around 10 lessons learned, to help the bureau
 international, regional, and state
                                       capitalize on its successes, improve areas of weakness, and anticipate
 economic activity.
                                       emerging challenges as it plans for Census 2010.

                                               Lesson 1: Reach Early Consensus on the 2010 Design to
                                               Facilitate Effective Planning and Obtain Sufficient
                                               Funding.
        Economics and
          Statistics
        Administration                 An undertaking as huge and complex as the decennial census requires
                                       long lead times to allow for proper development and testing of the
                                       overall design and to define and procure systems. Therefore, an agreed-
  Bureau              Bureau of
   of the             Economic         upon design with sufficient funding to support its development must be
  Census              Analysis         in place early. The drawn-out dispute over sampling precluded early
                                       agreement on Census 2000’s design and increased problems in its
                                       execution.

Commerce OIG Semiannual Report                              37                                    March 2002
                                                         Economics and Statistics Administration


Our review of the bureau’s readiness to conduct the 2000
decennial revealed that as late as 1995 Census still did not have
a design that was sufficiently finalized to undergo full-scale testing.
In 1998, as the dress rehearsal approached, many in Congress
were opposed to the use of sampling and required the bureau to
test two census designs—one that relied on sampling and one
that did not. A final decision on the design did not come until
1999, when the United States Supreme Court ruled that sampling
could not be used to apportion the House of Representatives, in
effect, telling Census that it must concentrate on the traditional
approach of enumerating every household in the nation.

Eager to avoid the design-related problems experienced during
Census 2000, the bureau is already developing its plan for 2010,
which includes a reengineered address file and associated maps,
                                                                                  Source: U.S. Census Bureau
as well as a design that collects data using only the short form questionnaire.
The bureau currently intends to replace the decennial long form with data         The huge increases in population and
collected from a continuous measurement system called the American                number of households requiring
                                                                                  enumeration from decade to decade have
Community Survey (ACS). We commend the bureau for these early                     increased the complexity—and costs—of
planning efforts, but are concerned about its intention to rely on this new       conducting the decennial census. Total
design because of the uncertainty of funding for it: if the bureau does not       costs for the 2000 decennial reached
                                                                                  $6.5 billion—roughly five times the
receive sustained ACS funding throughout the decade, it may be unable
                                                                                  $563 million spent on the 1960 census.
to eliminate the long form for 2010. We believe that Census’ plan for the
next decennial should (1) standardize the long form and ACS questionnaires
so that they are compatible in content and
layout, sample design, and data collection,
capture, and processing methods and
technologies; and (2) include a contingency plan
for use of the long form.

         Lesson 2: Produce Accurate,
         Complete Address Lists and
         Maps.


Knowing where the nation’s people are and
how to reach them is fundamental to the
decennial census. The Master Address File
(MAF) is the bureau’s primary tool for
accomplishing this task. Accuracy and

   Commerce OIG Semiannual Report                                38                                   March 2002
Economics and Statistics Administration


completeness are vital to the reliability of the MAF and associated
maps; hence, the bureau’s ongoing planning must include special efforts
to create a more reliable address file and mapping system. Over the
course of the last decade, we issued several reports on these critical
operations; some of these reports identified serious problems with the
MAF, such as missing, duplicate, and inaccurate addresses, and noted
that maps were often neither current nor drawn to appropriate scale. To
help avoid these problems in the next decennial, the bureau should
continue working to improve the MAF and mapping system throughout
the decade, establishing performance measures for accuracy and
completeness, testing against these goals, and reporting to decision
makers on the progress made toward meeting performance objectives.

       Lesson 3: Conduct a Carefully Targeted and Aggressive
       Public Awareness Campaign.

The bureau had set goals for Census 2000 of increasing public
awareness and improving the mail response rate. To achieve these
goals, Census conducted a two-part publicity campaign: (1) national
paid advertisements began 6 months before census forms were mailed
out; and (2) partnerships between the bureau and state and local
organizations developed community-specific initiatives to publicize the
decennial. Both components were designed to educate individuals about
the census and encourage them to return census forms. The 2000
response rate of 67 percent surpassed that of 1990 (65 percent) and
far exceeded the projected rate of 61 percent. Considering the general
downward trend in return rates from one census to the next, we
commend the bureau for having done an excellent job in motivating the
American public to participate. The higher-than-anticipated response
rate in 2000 also reduced the overall cost of the decennial because
enumerators had to visit fewer households for nonresponse follow-up.

We reviewed the bureau’s public awareness campaign prior to kickoff
of the 2000 decennial. We found that the advertising message was
developed using a sound methodology and that the partnership effort
had resulted in a comprehensive, effective nationwide program of
education aimed at increasing the mail response rate and thereby
reducing the undercount. Given the apparent success of these programs
at getting people to respond, we believe the bureau should incorporate
similar components into its 2010 decennial design.

 Commerce OIG Semiannual Report                           39              March 2002
                                           Economics and Statistics Administration

                                         Lesson 4: Strengthen Quality Control of Nonresponse
                                         Follow-up.

                                 For 2010, Census must do a better job of overseeing data collection at
                                 local offices to avoid costly reenumeration and ensure the public’s
                                 confidence in census results. More specifically, the Census Bureau
                                 needs to improve its quality assurance efforts to better identify
                                 inaccurate or falsified information. Inaccurate or falsified data submitted
                                 by enumerators threatens the integrity of the entire census and when
                                 identified, results in the costly exercise of having to reenumerate the
                                 affected area. Highly questionable data and shortcuts used to collect
                                 census information were problems at a number of local census offices,
                                 particularly at three Florida locations where suspect data required the
                                 bureau to reenumerate much of the coverage areas. The negative
                                 publicity surrounding these events raised the public’s concern about the
                                 accuracy of the census.

                                         Lesson 5: Implement Clear Policies and Guidance for
                                         Managing Temporary Staff.

                                 The bureau hired more than 950,000 temporary workers to conduct
                                 various field operations at its 520 local census offices. Hiring and
                                 managing large numbers of temporary employees was a challenge for all
                                 these offices, and created some significant problems at a few. Although
                                 the task of recruiting, training, and effectively managing a large number
                                 of people during the decennial census is inherently difficult, our findings
                                 and observations suggest nonetheless that the process can be improved.
                                 The bureau needs to examine and strengthen personnel policies and
                                 procedures regarding such matters as employee safety, overtime,
                                 termination for cause, and reassignment of staff among census offices.

                                         Lesson 6: Determine Whether Sampling Has a Role
                                         Beyond Measuring Coverage.

                                 The proposed use of sampling to improve coverage was perhaps the
                                 most controversial aspect of Census 2000. In 1999, after the United
                                 States Supreme Court ruled that sampling could not be used to
                                 apportion the House of Representatives for the upcoming decennial, the
                                 bureau proceeded with sampling operations for other potential uses,
                                 such as allocating federal funds and redistricting. The bureau initially
                                 believed it could improve the accuracy of census counts by adjusting
                                 them via sampling. But extensive data analysis has not demonstrated
Commerce OIG Semiannual Report                      40                                    March 2002
Economics and Statistics Administration

that the statistically adjusted counts are more accurate than the
unadjusted ones. As early as possible for 2010, we believe the bureau
must determine whether sampling has a purpose beyond providing a
quality check to measure coverage.

        Lesson 7: Implement Rigorous System and Software
        Development Processes and Effective Information
        Security Measures.

The bureau needs to strengthen its management of information
technology and its approach to software development. Data collected
from the decennial must be processed within severe time constraints,
and results must be accurate. During Census 2000, the bureau often
used an ad hoc approach to software development that provided
inadequate controls, insufficient testing, and poor or no documentation.
In several instances, these unsystematic methods led to disruptive errors
that had to be corrected as the census was being conducted.

In addition, with the inevitable expansion of Internet use and the
bureau’s plans to increase electronic transmission of census
questionnaire data, information security will be ever more critical in
2010. Title 13 of the U.S. Code prohibits the Census Bureau from
disclosing data it collects about individuals and establishments.
Unintentional disclosure of this data could seriously damage the
decennial by undermining confidence in the bureau’s ability to keep
information confidential and thus diminishing the public’s willingness to
respond. The bureau, with its unique mission, must incorporate strong
security mechanisms that will safeguard its census-related computer
systems and networks from unauthorized access and its data from
unauthorized disclosure or modification.

        Lesson 8: Upgrade and Maintain Contracting and
        Program Management Expertise.

For Census 2000, the bureau contracted out various important projects
including development and operation of its largest, most complex IT
systems and its advertising campaign. However, it did not have sufficient
contracting and program management staff with the training and
experience to properly acquire systems and manage the contracts.
Ultimately, the contracts supported decennial census operations but at a


 Commerce OIG Semiannual Report                               41            March 2002
                                             Economics and Statistics Administration

                                 higher cost than necessary. For 2010, when contractors will likely play
                                 a larger role, the bureau must have a sufficient number of highly skilled
                                 and properly trained personnel who are dedicated to the planning and
                                 management of decennial contracts.

                                         Lesson 9: Generate Timely, Accurate Management and
                                         Operational Information.

                                 In a program as time sensitive as the decennial census, the importance
                                 of having timely and accurate information about management activities
                                 and operational functions cannot be overstated. Without such data,
                                 Census management is unable to effectively oversee and evaluate
                                 performance, make informed management decisions, and improve the
                                 execution of future censuses. For example, the bureau failed to track
                                 and analyze proxy questionnaire data—thus depriving itself of a critical
                                 management tool for assessing the integrity of nonresponse follow-up
                                 operations. Had the bureau monitored proxy data, perhaps it would
                                 have recognized enumeration irregularities in Hialeah, Florida, where
                                 local management sanctioned inappropriate use of proxy questionnaires
                                 and other procedural abuses. As a result of these actions, Census had
                                 to completely reenumerate the Hialeah district. The number of LCOs
                                 that experienced similar improprieties will never be known because data
                                 from proxy questionnaires is unavailable. In 2010, the bureau must
                                 closely monitor this data collection operation to avoid repetition of these
                                 abuses.

                                 Furthermore, providing timely information to the unprecedented number
                                 of organizations that tracked the progress of the census, including GAO,
                                 the Census Monitoring Board, and our office, proved difficult. For
                                 2010, the bureau should be prepared for the scrutiny and interest of
                                 outside parties and therefore should ensure effective procedures for
                                 providing them with accurate, timely data while the decennial is being
                                 conducted.

                                         Lesson 10: Mitigate Potential Disruptions and
                                         Distractions to the Work Environment and Workforce.

                                 Although the decennial is the bureau’s most costly and labor-intensive
                                 function, Census has other important initiatives and responsibilities that it
                                 must handle as well. The bureau must be prepared to overcome


Commerce OIG Semiannual Report                      42                                     March 2002
Economics and Statistics Administration

challenges that affect all of its operations. Time and again, the bureau
has proven its ability to do so, and its handling of one potential problem
for the 2000 decennial showed particular foresight. The bureau needed
to hire nearly 1 million temporary employees to support decennial
operations at a time when unemployment was at historically low levels.
Concerned that it would have difficulty hiring sufficient personnel, the
bureau increased wage levels across the country. As a result of this and
other efforts, Census successfully hired enough temporary workers.

During this decade of preparation for 2010, Census must handle at least
two major challenges that could impact decennial activities. (1) The
bureau could lose, through retirement, up to half of its current decennial
staff. As soon as possible it must have strategies in place to retain
institutional knowledge and expertise so as to ensure the smooth
continuity of decennial management and operations. (2) Census is
scheduled to move into its new headquarters building in 2008. Given the
timing of the move, which is set for the same year as the planned dress
rehearsal, and the frequent delays associated with many construction
projects, the bureau must have a solid relocation plan to minimize
disruptions to its operations, and to identify and ameliorate potential
problems while keeping costs in check and decennial preparations on
track. (Office of Audits: OIG-14431)

ASPECTS OF ACCURACY AND COVERAGE EVALUATION NEED
IMPROVEMENT BEFORE 2010
During a decennial census, the Census Bureau attempts to gather
information about every resident in the country. Inevitably, some
enumerations that should be excluded (like duplicates or people
enumerated at incorrect addresses) are included, and some that should
be included are missed. The first error leads to an overcount; the
second, to an undercount. To measure these coverage errors, the
bureau conducts a separate survey known as the Accuracy and
Coverage Evaluation (A.C.E.). A.C.E. obtains an independent sample
of the population and matches it with census enumerations to identify
persons missed or incorrectly counted in the census. It is important that
the A.C.E. enumerations, or “person records,” be correctly matched
with census person records because even small mistakes can affect the
bureau’s ability to measure the overcount and undercount precisely.



 Commerce OIG Semiannual Report                              43              March 2002
                                           Economics and Statistics Administration


                                 Although the U.S. Supreme Court ruled that sampling could not be used
                                 for congressional apportionment, it was silent on its use for state
                                 redistricting and allocation of federal funds. The Census Bureau
                                 therefore conducted A.C.E. and evaluated the data to determine
                                 whether it could be released to the states for redistricting. It
                                 subsequently recommended that the unadjusted counts be used for
                                 redistricting and allocating federal funds because of disparities in data
                                 from two sources: A.C.E. and population counts from the prior census,
                                 adjusted by subsequent births, deaths, and immigration statistics.

                                 OIG reviewed two A.C.E. components that are critical to the integrity
                                 of the survey’s outcome: computer matching of A.C.E. enumerations
                                 with those from the 2000 decennial (“person computer matching”) and
                                 follow-up in the field (“person follow-up”) to attempt to resolve any
                                 discrepancies revealed in the computer matching that analysts could not
                                 explain. We sought to determine how efficient and effective these
                                 operations were and how well the systems supporting them worked.
                                 Our review revealed a number of weaknesses.

                                 The A.C.E. independent sample may have omitted residents of
                                 retirement homes. A.C.E. included people living in individual housing
                                 units, such as houses, apartments, or mobile homes, but excluded
                                 people living in group quarters (nursing homes, dormitories, prisons, and
                                 other communal facilities). However, A.C.E. and census definitions of
                                 group accommodations for the elderly differed, and that difference
                                 could have skewed A.C.E. results. The census definition of group
                                 quarters includes “nursing homes or convalescent homes” but not
                                 “homes for the elderly.” Under this definition, a retirement home that
                                 had separate accommodations for its occupants and direct access from
                                 the outside of the building or through a common or public hall would
                                 have been considered an apartment building—as containing individual
                                 housing units—and enumerated as such in the census. A.C.E.
                                 specifically included “homes for the elderly” in its definition of group
                                 quarters, and thus did not enumerate them. As a result, retirement home
                                 residents counted in the census would not have been counted in A.C.E.

                                 We recommended that Census evaluate whether residents of retirement
                                 homes were systemically omitted from the A.C.E. independent sample
                                 and if so, what impact this had on estimates of the elderly population.
                                 We also recommended that the definition of housing units, group

Commerce OIG Semiannual Report                     44                                   March 2002
Economics and Statistics Administration


quarters, and all nontraditional living situations (“special places”) be
standardized for both surveys.

The process for defining A.C.E. requirements should be
improved. Many systems designed to support various headquarters
and field operations were subsequently defined and developed for
A.C.E. However, the bureau did not always take steps to ensure that all
requirements for A.C.E. were appropriate, sufficiently defined, and
clearly communicated. Specifically, the bureau did not always follow its
own standards for developing software requirements, and sometimes
relied on dress rehearsal specifications that did not adequately define
requirements for A.C.E. In one case, it did not adequately define and
communicate the schedule for delivering census enumeration data to
A.C.E., which meant that follow-up operations were conducted late in
some high-risk areas and required extra staff to accomplish. In a second
case, the bureau provided field supervisors overseeing A.C.E. follow-
up with laptops programmed for other surveys but not updated to
adequately support A.C.E. Finally, we found that certain requirements
for the computer matching operation could have been better defined
and documented.

We recommended that for future A.C.E. operations, the bureau
document and clearly communicate IT requirements for systems needed
to support both the census and A.C.E., improve planning for A.C.E.
field operations among its divisions and regions, better define and
document computer matching requirements, and update laptops to fully
support user needs.

Automated tools need better testing, documentation, and quality
assurance. The bureau’s use of a trusted, much-used software tool
(the “computer matcher”) and a questionnaire printing system enhanced
the efficiency of matching enumerations and producing person follow-up
questionnaires. Although the computer matcher was not newly
developed software, the bureau was using it in a new way and should
have documented the results of its testing. With respect to the
questionnaire printing system used for person follow-up, errors
occurred in production that we believe resulted from an insufficient
verification of printed questionnaire data after last minute software
changes.


 Commerce OIG Semiannual Report                                45          March 2002
                                           Economics and Statistics Administration

                                 In the future, the bureau should ensure that computer systems are
                                 developed and modified in accordance with rigorous, documented
                                 system and software engineering standards that, at a minimum, address
                                 requirements specification, design and development, testing,
                                 documentation, and quality assurance.

                                 Quality assurance for person follow-up needs to be
                                 automated.The bureau conducted quality assurance on selected person
                                 follow-up questionnaires to detect interviewing problems, including data
                                 falsification, but the system, which was added after the 1998 census
                                 dress rehearsal, was not tested before being used in the decennial.
                                 Tracking the quality assurance workload was paper—and labor—
                                 intensive. For A.C.E., the bureau had planned to conduct the person
                                 follow-up operation using a computer-assisted system similar to that
                                 used to collect the A.C.E independent sample, but lacked the resources
                                 to develop and appropriately test such a system.

                                 For the 2010 decennial, the bureau should ensure the efficiency of
                                 quality assurance procedures by integrating them into an automated
                                 person follow-up operation.

                                 AGENCY RESPONSE
                                 The bureau generally agreed with all but one of our recommendations—
                                 that A.C.E. results should be examined to determine whether retirement
                                 home residents were systematically omitted. Bureau officials stated that
                                 cross-checking A.C.E. data for the elderly against census data would
                                 be difficult because the census data did not identify whether a specific
                                 housing unit was in fact in a retirement home, and because residents
                                 may no longer live in the housing units in question, given that 2 years
                                 have elapsed since the decennial was conducted. The bureau added
                                 that it is considering including group quarters in the A.C.E. for Census
                                 2010, which should reduce the potential for this error.

                                 We still maintain that not knowing the extent to which missed coverage
                                 of retirement homes impacted this population’s net undercount
                                 diminishes confidence in the A.C.E. results for the elderly. (Office of
                                 Inspector General: OIG-14226)




Commerce OIG Semiannual Report                     46                                   March 2002
Economics and Statistics Administration

AUDIT OF THE CENSUS BUREAU’S FY 2001 FINANCIAL
STATEMENTS
For the third consecutive fiscal year, the Census Bureau received an
unqualified opinion on its financial statements. However, as in years
past, this success was tempered by continuing deficiencies in the
bureau’s internal control structure and its failure to develop and maintain
financial management systems that substantially comply with federal
requirements for such systems.

Our audit, conducted by an independent certified public accounting
firm, identified three reportable conditions, the first two of which are
material weaknesses. These same three conditions were identified as
problems in the audit of FY 2000 statements and have yet to be
resolved.

Financial systems, management, and reporting. The two material
weaknesses were in the following areas:

    â Financial reporting and management. It is important to note
      that Census improved its financial management and reporting
      over the previous year. However, it continues to experience
      significant difficulties in using CAMS to produce routine and
      timely reports that meet the bureau’s internal management and
      audit requirements. In addition, Census did not conduct a
      sufficient, detailed supervisory review of the FY 2001 financial
      statements to detect potential errors and omissions and to
      ensure the statements and related footnotes were prepared in
      accordance with OMB guidelines.

        To correct these deficiencies, Census must continue to work
        closely with the Department to fully implement Hyperion (a
        software for financial reporting) and produce timely reports
        from CAMS. It must also perform a more detailed supervisory
        review of the financial statements.

    â Account reconciliations. Certain key account balances in the
      FY 2001 financial statements were not properly reconciled, and
      bureau-specific feeder systems were not fully integrated or
      electronically interfaced with CAMS. These weaknesses
      required the bureau to conduct extensive manual account

 Commerce OIG Semiannual Report                               47              March 2002
                                            Economics and Statistics Administration

                                         reconciliations. Specifically, deferred revenue and accounts
                                         receivable were not properly reconciled throughout the fiscal
                                         year and at year-end, and subsidiary ledgers for undelivered
                                         orders and accounts payable contained debit balances at a
                                         summary fund level and offsetting credit balances at a detailed
                                         transaction level. Census has begun eliminating these entries in
                                         FY 2002, but further cleanup is needed.

                                         To correct these weaknesses, the auditors recommended,
                                         among other things, that Census perform accurate and timely
                                         account reconciliations, and review and support these on a
                                         monthly basis; reconcile all deferred revenue and accounts
                                         receivable financial transactions to the general ledger on a timely
                                         basis throughout the year; purge unmatched transactions from
                                         the undelivered orders and accounts payable balances; and
                                         inventory all open obligations to determine if any should be
                                         deobligated or accrued. The auditors also recommended that
                                         Census personnel receive training in how to determine, estimate,
                                         and document accrued liabilities.

                                 Information technology controls. The third repeat condition was
                                 identified during the audit’s separate review of general controls against
                                 the six criteria outlined in GAO’s Federal Information System
                                 Controls Audit Manual (FISCAM): entitywide security program
                                 planning and management; access controls; application software
                                 development and change control; system software; segregation of
                                 duties; and service continuity. The auditors continued to report certain
                                 control deficiencies and identified two new weaknesses—entitywide
                                 security planning and management, and access controls. If not resolved,
                                 these weaknesses could adversely affect the accuracy and security of
                                 Census data as well as the security of its programs and hardware, and
                                 could negatively impact financial statements for both the bureau and the
                                 Department.

                                 Compliance with laws and regulations. The FY 2001 audit revealed
                                 one instance of noncompliance with applicable laws and regulations:
                                 Census’ financial management systems do not comply with system
                                 requirements and accounting standards stipulated in the Federal
                                 Financial Management Improvement Act of 1996. In fact, many of the
                                 deficiencies noted in the bureau’s financial management and reporting
                                 processes and account reconciliations (above) are the same conditions

Commerce OIG Semiannual Report                     48                                    March 2002
Economics and Statistics Administration

that rendered its financial systems noncompliant with federal
requirements.

The bureau concurred with the audit findings and recommendations
regarding general control weaknesses and reported that corrective
action is under way. However, it disagreed with the findings regarding
financial management and reporting, account reconciliations, and
noncompliance with federal laws and regulations. (Financial
Statements and Audits Division: FSD-14473-2)




 Commerce OIG Semiannual Report                             49           March 2002
                                                               Inter na
                                                               Interna tional Tr ade
                                                                     national
                                                                    Administr ation
                                                                     Administra
                                       ITA OPERATING UNITS NEED TO BETTER
The International Trade
Administration is responsible for      COORDINATE TRADE COMPLIANCE ACTIVITIES
the trade promotion and policy
issues associated with most            U.S. companies that want to compete effectively in today’s global business
nonagricultural goods and services.
ITA works with the Office of the       arena often need assistance to address unfair trade practices or violations
U.S. Trade Representative to           of trade agreements, inadequate protection of intellectual property, or other
coordinate U.S. trade policy. ITA      barriers to the export of goods and services. The Department of Commerce
has four principal units:              provides such assistance through various offices in the International Trade
Market Access and Compliance           Administration that work with other federal agencies to monitor and
develops and implements
international economic policies of a   enforce trade agreements. Overall, ITA endeavors to settle trade
bilateral, multilateral, or regional   compliance and market access problems quickly and at the lowest level
nature. Its main objectives are to     possible, in order to avoid formal dispute settlement structures such as the
obtain market access for American      World Trade Organization, which can take years to resolve cases.
firms and workers and to ensure
full compliance by foreign nations
with trade agreements signed with      Market access and compliance work is handled by three units within
the United States.                     ITA: Market Access and Compliance (MAC), Trade Development, and
Trade Development advises on           the U.S. and Foreign Commercial Service (US&FCS), with other
international trade and investment     offices involved as appropriate. In response to a substantial increase in
policies pertaining to U.S.            the number and complexity of trade agreements over the years, the
industrial sectors, carries out
programs to strengthen domestic        Department reorganized its international economic policy staff in July
export competitiveness, and pro-       1996 to give greater focus to market access and trade compliance
motes U.S. industry’s increased        issues. It created the MAC unit, and housed within that unit a new
participation in international         Trade Compliance Center (TCC). The center coordinates access and
markets.                               compliance efforts throughout ITA, monitors trade agreements, and
Import Administration defends
American industry against injurious    reviews compliance complaints from a variety of sources. When
and unfair trade practices by          warranted, the center forms a compliance team to work to resolve
administering the antidumping and      complaints and achieve a satisfactory outcome for U.S. exporters.
countervailing duty laws of the        Team members are drawn from the center and various other ITA
United States and enforcing other      components.
trade laws and agreements
negotiated to address such trade
practices.                             We examined ITA’s trade compliance efforts, with a specific focus on
U.S. and Foreign Commercial            the activities of the TCC, to determine whether the trade agreement
Service promotes the export of         compliance process, as managed by the center, was efficient, effective,
U.S. products and helps small and      and responsive to client needs. We analyzed how the compliance
medium-sized businesses market
their goods and services abroad. It    activities of the various units and the TCC could best be coordinated
has 105 domestic offices and 157       and tracked so as to avoid duplication and ensure full reporting of
overseas posts in 84 countries.        compliance work. We also examined whether ITA’s compliance efforts
                                       were successful at promoting adherence to trade agreements and



Commerce OIG Semiannual Report                            50                                     March 2002
International Trade Administration

addressing market access problems. Specifically, we found the
following:
                                                                                        International
                                                                                            Trade
Trade agreement compliance work needs better coordination                              Administration
within ITA. To ensure the success of compliance activities, ITA’s
operating units must collaborate. Each has unique areas of expertise that                            Market
                                                                               Import
                                                                                                   Access and
                                                                            Administration
are important to the positive resolution of trade compliance complaints.                           Compliance
We found, however, that many staff members did not understand the
role of the center and thus were not making effective use of its services      Trade
                                                                                                  U.S. and Foreign
                                                                                                   Commercial
in working trade compliance complaints. Moreover, organizational            Development
                                                                                                      Service
rivalries among the various ITA units further hindered collaboration, as
did the lack of written guidance about the need for and importance of
working together to ensure that U.S. exporters receive complete, timely,
and accurate responses to compliance complaints. In addition, we
pointed out that the TCC lacked the authority to require cooperation
from the units, and managers in the various units did not make use of
ITA’s incentive awards program, which encourages and rewards
interunit cooperation and teamwork.

We recommended a number of actions that ITA management should
take to address these problems, including development of guidance that
clearly delineates the role of the TCC and defines the types of
complaints and issues that overseas and domestic staff from the other
ITA units should bring to the center’s attention or should coordinate
with the center to resolve. We also recommended that the center
market itself as a resource for other ITA units, and that ITA managers
use all available awards and incentives to encourage collaboration
among employees from the various components that handle compliance
work. Subsequent to our fieldwork, ITA agreed to expand its use of
awards programs to recognize team performance, and the TCC
developed a trade compliance manual and distributed it to all ITA staff.
The manual does a good job of explaining how the compliance program
works and of defining the roles of the various ITA components.
However, it does not provide clear direction on what types of
complaints require coordination between a component and the TCC.
We asked ITA to address this important issue in its action plan.

A central database of trade compliance work is needed. The TCC
is responsible for tracking ITA-wide compliance-related activities and
reporting this work monthly to the Secretary. The center relies on the


 Commerce OIG Semiannual Report                             51                                 March 2002
                                                         International Trade Administration

                                 individual units to provide information about their activities, but the units
                                 often fail to report all of their compliance work. As a result, the reports
                                 are incomplete. There is no single database for tracking ITA-wide
                                 compliance activity; the units use several databases to record their own
                                 work. Therefore, ITA should establish a single database that tracks all
                                 compliance work conducted by the center and other ITA staff.

                                 Subsequent to our fieldwork, MAC created a compliance database that
                                 became operational on February 1, 2002. However, the database is
                                 primarily used by MAC units—the country desks and the TCC; its use
                                 in tracking market access and compliance work performed by
                                 US&FCS and Trade Development was unclear. We asked ITA to
                                 address this issue in its action plan.

                                 ITA’s compliance performance measures should be reexamined.
                                 ITA proposed two measures for assessing the effectiveness of its trade
                                 compliance activities: (1) the number of market access and compliance
                                 cases initiated, and (2) the dollar value of trade barriers addressed. We
                                 understand that ITA came up with the first measure in part to encourage
                                 staff to focus more on compliance issues, on the theory that people will
                                 follow through on actions that are being measured. We questioned,
                                 however, what bearing the number of initiated cases has on ITA’s goal
                                 of ensuring fair competition in international trade. As for the second
                                 measure, we noted that this data is difficult to collect and the values
                                 obtained may not be reliable. In addition, US&FCS may already be
                                 collecting and reporting this data, which would make the center’s efforts
                                 duplicative. We recommended that ITA reexamine its market access
                                 and trade compliance measures, with an eye to developing and
                                 implementing measures that clearly focus on the results of compliance
                                 efforts and the agency’s goal of ensuring fair competition in international
                                 trade.

                                 The TCC complaint process has improved over time, but some
                                 aspects still require adjustment. We found that TCC’s process for
                                 reviewing trade compliance work has improved since the center began
                                 handling such matters in 1997. Over time, the staff’s knowledge and
                                 experience have grown, and the results achieved by the compliance
                                 teams have enhanced ITA’s efforts to increase access to foreign markets
                                 and improve compliance with trade agreements. In addition, TCC staff
                                 does a good job of tracking compliance issues and complaints, ensuring
                                 work is accomplished, and meeting deadlines. However, we found that

Commerce OIG Semiannual Report                      52                                      March 2002
International Trade Administration

some aspects of the center and its operations require adjustment. For
example, the Rapid Response Team initiative, which calls for TCC staff
members to travel to overseas US&FCS posts to help with market
access and compliance issues, was developed without a clear plan. ITA
should reevaluate the initiative in 9 to 12 months to determine whether it
should be continued. In addition, we made recommendations to
improve the TCC web site. Some of our concerns have been addressed
by the site’s recent redesign.


US&FCS ITALY POST IS WELL RUN, BUT
NEEDS TO IMPROVE SEVERAL MANAGEMENT AND
PROGRAM PRACTICES
Italy is one of America’s most important trade partners. Its market is
mature, highly competitive, and open to innovative U.S. products,
services, and technologies. However, a sizeable trade imbalance exists
between the two countries. In 2000, for example, the United States
exported approximately $11 billion in goods to Italy, but imported
$25 billion.

US&FCS Italy is the agency’s eleventh largest overseas post, in terms of
operating budgets. The post’s resources are focused in Rome and Milan,
with smaller offices located in Florence, Naples, and Genoa. US&FCS
provides a range of assistance to American firms interested in the Italian
market, such as trade events, technical assistance, and market research.

The Omnibus Trade and Competitiveness Act of 1988 requires OIG to
periodically evaluate US&FCS overseas operations. Under this authority,
we inspected the agency’s Italy post, conducting our fieldwork from April
to June 2001. We examined the post’s management, program, financial,
and administrative practices and its coordination with other trade-related
organizations and agencies. Specifically, we sought to determine whether
the post was using its resources efficiently and effectively, meeting the
needs of U.S. exporters, helping increase U.S. export levels and market
access, and using appropriate financial management procedures.

In general, we found that US&FCS Italy is a well-run, effective
overseas operation. It delivers high-quality products and services to its
clients and has good working relationships with the U.S. embassy and


 Commerce OIG Semiannual Report                              53              March 2002
                                                         International Trade Administration

                                                                             consulates and American

                US&FCS Italy                                                 organizations located there,
                                                                             such as the American Chambers
                                                                             of Commerce. We did note
                                                                             some weaknesses, however.
                                                                             These were in certain aspects of
                                                                             the post’s strategic planning
                                                                             process, reporting procedures,
                                                                             client follow-up, financial
                                                                             operations, and information
                                                                             technology infrastructure. Our
                                                                             key findings and
                                                                             recommendations are
                                                                             summarized below.

                                                                              Strategic direction and
                                                                              resource management. We
                                                                              noted three strategic and
                                                                              resource management
Source: OIG
                                                                              processes that inhibit the post’s
                                    efficiency and productivity. (1) The one-page strategic plan that guides
US&FCS Italy’s five offices are     post operations, although required to be so brief by US&FCS
strategically located throughout
the country to provide support to
                                    headquarters, lacks sufficient detail to be very useful for post
U.S. firms seeking access to the    management or staff. We recommended that the post include more
Italian market.                     specifics about how it intends to attain its goals. (2) US&FCS Italy
                                    currently uses an ad hoc approach to allocating resources. It needs to
                                    develop a countrywide strategy for resource allocation that is based on
                                    strategic goals and priorities. (3) The post has not developed ways to
                                    deal with the explosive growth in e-mail requests for information and
                                    assistance from outside entities. Post management claimed that this
                                    workload increase has hurt the post’s core services and quality control
                                    over work products. US&FCS Italy must develop policies and
                                    strategies to deal with the e-mail workload efficiently and maintain
                                    quality operations overall.

                                    Reporting of export successes. US&FCS Italy’s procedures for
                                    reporting activities, particularly export successes, do not meet
                                    established agency criteria, and reports are often inconsistent and
                                    inaccurate. For example, 19 percent of the export success entries in the
                                    post’s Client Management System (CMS) database that we reviewed
                                    did not meet US&FCS criteria, and the post’s tallies of its performance

   Commerce OIG Semiannual Report                      54                                     March 2002
International Trade Administration

often differed from those contained in headquarters’ databases. CMS
may therefore not be a reliable gauge of the post’s performance—a
problem we suspect is primarily the result of weak internal controls or
inadequate oversight of export success reporting by both the post and
US&FCS headquarters.

Systematic client follow-up. US&FCS Italy does not systematically
follow up with clients, as required by US&FCS policy, to track their
satisfaction with services rendered, monitor the outcome of their export
activity, and determine whether they require further assistance. Post staff
indicated that other, higher priorities generally take the time that might
otherwise be spent following up with clients. By failing to conduct
systematic client follow-up, US&FCS Italy may be overlooking
opportunities to capture valuable customer feedback on the post’s
products and services, and may be missing potential “export
successes”—a key measure of the post’s performance.

Collections management. The US&FCS Rome office does not make
weekly deposits of revenue from trade services or product sales, as
required by ITA policy and U.S. Treasury regulations. Instead, the
office accumulates this revenue until it totals $100 in order to minimize
processing costs. Although the practice makes sense, the post should
request a waiver from the current ITA and Treasury policy rather than
simply ignore it.

Also, to comply with ITA regulations, US&FCS Rome must further
segregate collection responsibilities among staff to safeguard against
misuse of receipts and ensure accurate reporting of income.

Use of trade event funds to purchase capital assets. The post used
some funds generated from trade events to purchase capital assets
without proper authorization to do so. ITA does permit these funds to
be used in this way—as long as the purchase supports the post’s trade
events program—but has specific authorization policies for capital
equipment purchases. We found that the Italy post did not consistently
follow these policies, although all purchases did support the trade events
program. Post management must ensure that requests to use these funds
for capital equipment purchases are submitted to the appropriate
headquarters officials.




 Commerce OIG Semiannual Report                               55              March 2002
                                                         International Trade Administration

                                 Cost allocation system. US&FCS Milan does not have an effective
                                 cost allocation system to identify and allocate direct and indirect costs
                                 between fee-for-service expenditures and operations and administration
                                 costs. Without such a system, US&FCS Italy cannot determine the full
                                 cost of trade events and, by extension, whether fees collected recover
                                 the full cost of those events, as required.

                                 Information technology. The post has a myriad of IT support and
                                 infrastructure problems that could hinder operations. For example, the
                                 Client Management System frequently malfunctions, and there is
                                 inadequate local technical support for IT systems.

                                 A fully functioning information technology infrastructure and support
                                 system are critical to maintaining the post’s operations and ensuring its
                                 peak performance. US&FCS Italy must work with the ITA Office of
                                 the Chief Information Officer to find viable, cost-effective solutions to
                                 the multitude of IT problems it faces.

                                 We made a total of 34 recommendations to address these and other
                                 deficiencies we noted. The director general of US&FCS generally
                                 concurred with them, cited many instances in which the post and
                                 US&FCS headquarters have already taken action, and noted other
                                 areas in which corrective action is planned. (Office of Inspections and
                                 Program Evaluation: IPE-14243)




Commerce OIG Semiannual Report                      56                                    March 2002
National Oceanic and
Atmospheric Administration

OIG INSPECTIONS OF WEATHER FORECAST                                       The National Oceanic and
                                                                          Atmospheric Administration
OFFICES CONTINUE                                                          studies climate and global change;
                                                                          ensures the protection of coastal
The National Weather Service’s 121 weather forecast offices (WFOs)        oceans and the management of
provide weather information services and products for local, national,    marine resources; provides
and international users. Through a variety of technologies (including     weather services; and manages
                                                                          worldwide environmental data.
radar, satellites, and automated surface observing systems) and           NOAA does this through the
programs, WFOs provide warnings and continuous updates of weather         following organizations:
conditions and impacts, particularly in relation to severe weather—       National Weather Service
tornadoes, severe thunderstorms, floods, hurricanes, extreme winter       reports the weather of the United
weather, and intense summer heat.                                         States and provides weather
                                                                          forecasts and warnings to the
                                                                          general public.
Since 2000, OIG has been conducting inspections of WFOs                   National Ocean Service issues
nationwide. The first three were conducted at Raleigh, North Carolina     nautical charts; performs geodetic
(see September 2000 issue, page 52), Missoula, Montana, and San           surveys; conducts research; and
Angelo, Texas (see September 2001 issue, pages 43-49). During this        develops policies on ocean mining
                                                                          and energy.
semiannual period, OIG completed its fourth WFO inspection, this one      National Marine Fisheries
in Minnesota.                                                             Service conducts a program of
                                                                          management, research, and
Chanhassen, Minnesota                                                     services related to the protection
                                                                          and rational use of living marine
The Chanhassen, Minnesota, WFO staff of 25 is responsible for a           resources.
warning area covering 51 counties in southern and central Minnesota       National Environmental
and west central Wisconsin. In May 2000, NWS implemented the              Satellite, Data, and Information
Advanced Weather Interactive Processing System in Chanhassen to           Service observes the environment
                                                                          by operating a national satellite
integrate NWS’s meteorological and hydrological data with its satellite
                                                                          system.
and radar data, enabling forecasters to prepare and issue more accurate   Office of Oceanic and
and timely forecasts and warnings.                                        Atmospheric Research conducts
                                                                          research related to oceans and
From August through November 2001, we conducted an inspection of          inland waters, Earth’s lower and
                                                                          upper atmosphere, and space
the Chanhassen WFO to determine how effectively it (1) delivers
                                                                          environment.
warnings, forecasts, and other information to its service users;          Office of Marine and Aviation
(2) coordinates its activities with state and local emergency managers;   Operations operates NOAA’s
and (3) supervises its network of observers and volunteer spotters. We    ships and aircraft and provides
also assessed the office’s management and internal controls; its          NOAA programs with trained
                                                                          technical and management
                                                                          personnel from the nation’s
                                                                          seventh uniformed service—
                                                                          NOAA’s Commissioned Corps.




 Commerce OIG Semiannual Report                           57                                March 2002
                                 National Oceanic and Atmospheric Administration

                                     compliance with Department, NOAA, and NWS policies and
                                     procedures; and the effectiveness of NWS’ regional oversight.

                                     We found that the Chanhassen office generally provides excellent
             NOAA
                                     weather products and drew the following conclusions:

  National            National    â the WFO’s weather forecasts and warnings are timely and accurate,
  Weather              Ocean
  Service             Service        except that, in general, lead time for flash-flood warnings is
                                     significantly shorter than times provided by other area weather
   National                          offices;
Marine Fisheries       NESDIS
    Service
                                  â  the Outreach Program to emergency managers, the media, local
                                     schools, and community groups is effective and popular;
 Oceanic and          Marine and  â the Skywarn and Cooperative Observer Programs are well run and
 Atmospheric           Aviation      particularly successful as a result of staff outreach to the community,
  Research            Operations
                                     but the Cooperative Observer Program may, because of staff
                                     attrition, face a future decline in support;
                                  â information technology resources are well maintained; and
                                                         â Chanhassen’s statewide forecast contains
                                                            information that is readily available from other
                CHANHASSEN, MINNESOTA,                      sources.
             WFO SERVICE AREA
                                                           We also, however, found managerial and
                                                           administrative deficiencies that need prompt
                                                           attention by NWS and WFO managers:

                                                           â the office’s training program could be
                                                             improved by giving staff a more comprehensive
                                                             list of available training and ensuring that all staff
                                                             have a completed individual development plan;
                                                           â administrative operations lack adequate internal
                                                             controls to ensure proper use of purchase cards
                                                             and convenience checks, and accurate
                                                             inventories of accountable property; and
                                                           â regional oversight should be improved by
                                                             having the Central Region Headquarters in
 Source: www.nws.noaa.gov                                    Kansas City conduct on-site reviews of
                                                             management, program, technical, and
                                                             administrative operations.




Commerce OIG Semiannual Report                        58                                        March 2002
National Oceanic and Atmospheric Administration

Recommendations Summary
To address the deficiencies we noted, we recommended that the
assistant administrator for NWS instruct the regional director to (1)
work with Chanhassen forecasters and Central Region staff to
determine how best to increase the lead time for flash-flood warnings;
(2) ensure that the Cooperative Observer Program is adequately
supported by trained staff, given anticipated attrition; (3) ensure that the
meteorologist-in-charge, the administrative support assistant, and all
appropriate staff receive necessary training in the use of purchase cards
and convenience checks, and in tracking accountable property;
(4) develop a schedule to periodically visit the Chanhassen and other
Central Region WFOs to comprehensively review their programs,
management, and technical and administrative operations; and
(5) evaluate the costs and benefits of producing the statewide forecast
and decide how or whether it should be continued.

In addition, we recommended that the regional director instruct the
meteorologist-in-charge to (1) implement individual development plans
for all Chanhassen employees and ensure that all have access to and
information about appropriate training courses; (2) ensure that adequate
internal controls are in place regarding the use of purchase cards and
convenience checks and that all uses are in accordance with
departmental and NOAA guidelines; (3) evaluate reducing the number
of purchase card holders; and (4) secure sensitive property and
maintain an accurate, complete, and official inventory.

NOAA concurred with all of our recommendations and has already
acted on three of them. Specific to the question of duplicative statewide
forecasts, Chanhassen canvassed its users and found that its forecast is
still a valued product it should continue to produce. NOAA has
developed an implementation plan for the remaining six
recommendations. (Office of Inspections and Program Evaluations:
IPE-14423)


AUDIT OF NOAA’S FY 2001 FINANCIAL
STATEMENTS
For the third year running, NOAA received an unqualified opinion on its
consolidated financial statements. The FY 2001 audit was conducted by
an independent certified public accounting firm under contract with OIG.

 Commerce OIG Semiannual Report                                59              March 2002
                                 National Oceanic and Atmospheric Administration

                                   The auditor’s assessment of internal control (including IT controls) over
                                   financial reporting identified one new condition and two repeat
                                   conditions, none of which is a material weakness.

                                   Financial Systems, Management, and Reporting
                                   The two conditions identified in this portion of the audit are as follows:

                                       â Accounting for construction work in progress (CWIP)
                                         should be improved (new). NOAA has made improvements
                                         in its accounting for CWIP over the past few years; however,
                                         we noted certain deficiencies in FY 2001 regarding NOAA’s
                                         monitoring and accounting for CWIP that need to be resolved.
                                         During FY 2001, NOAA did not receive detailed spreadsheets
                                         for certain construction projects to complete year-end
                                         reconciliation of costs; many of those it did receive were late
                                         and incomplete, and often contained inconsistent information
                                         from one to another. The auditing firm and the NOAA Finance
                                         Office had to conduct extensive research to resolve
                                         discrepancies and collect complete information, and ultimately
                                         had to make numerous adjustments to the financial statements.
                                         To avoid this situation in the future, the independent auditor
                                         recommended that NOAA take steps to ensure that CWIP
                                         managers enforce policies and procedures for providing
                                         complete documentation and improve their oversight of these
                                         processes.

                                       â Controls over monitoring the budget should be improved
                                         (repeat). Although NOAA has implemented certain manual
                                         procedures to detect overobligations, it needs to automate
                                         procedures or system controls within its accounting system
                                         (known as the Financial Management System, or FIMA) to
                                         prevent overobligation of apportioned funds. Currently, NOAA
                                         relies on budget officers and program managers to detect
                                         overobligations by reconciling entries in FIMA against available
                                         funds—which means that the overobligation is only revealed
                                         after the fact. An automated system would allow for features to
                                         alert budget officers to a given entry or request that would
                                         exceed available funds before the funds are promised.




Commerce OIG Semiannual Report                       60                                     March 2002
National Oceanic and Atmospheric Administration

Information technology controls
The repeat condition identified in the assessment of IT controls was the
failure of NOAA’s accounting system (including CAMS) to meet five of
the six criteria outlined in GAO’s Federal Information System
Controls Audit Manual (FISCAM): entitywide security program
planning and management; access controls; application software
development and change control; segregation of duties; and service
continuity. No deficiencies were noted in system software.

Compliance with laws and regulations
The review of NOAA’s compliance with applicable laws and regulations
identified two matters, both of which were cited in the prior-year audit:
(1) NOAA again did not fully fund its capital leases during FY 2001;
and (2) its financial management systems still do not comply with federal
requirements for such systems because they do not adequately support
the budget execution process or the preparation of timely and accurate
financial statements via an integrated system.

NOAA’s Response
NOAA concurred with the findings and recommendations contained in
the audit report and commented that certain of them will be resolved as
CAMS implementation proceeds. The agency is taking action to correct
other deficiencies. (Financial Statements and Audits Division: FSD-
14475-2)




 Commerce OIG Semiannual Report                            61               March 2002
                                           Technology Administration

                                     By partnering with industry, NIST seeks to tap private sector creativity to
The Technology Administration        bring promising innovations to market swiftly and helps firms modernize,
serves the needs of technology-      improve productivity, and enhance efficiency to achieve or maintain a
based industry, advocates federal    competitive advantage.
actions and policies to speed the
transfer of technology from the
                                     The Advanced Tech-                             Percent of Technologies Funded
laboratory to the marketplace, and                                                   of First 50 Completed Projects
removes barriers for commer-         nology Program (ATP)
                                                                                     Information technology
cializing new technologies by        and the Manufacturing                                    12%


industry. It includes three major    Extension Partnership
organizations:                       (MEP) program                                                              Electronics/computer
Office of Technology Policy                                                                                   hardware/communications
                                     both support this               Advanced materials/chemicals
                                                                                                                        38%
works to raise national awareness                                              14%


of the competitive challenge,        collaborative relation-
                                                                                Biotechnology
promotes industry/government/        ship.                                           14%

university partnerships, fosters
                                                                                                    Manufacturing
quick commercialization of federal   ATP uses an early                                 22%

research results, promotes
                                     stage investment strat-
dedication to quality, increases
industry’s access to and partici-    egy to accelerate devel-
pation in foreign research and       opment of innovative
development, and encourages the      technologies that offer Source: www.atp.nist.gov/eao/factsheet/facts-01.htm
adoption of global standards.        significant commercial payoffs and widespread benefits for the nation.
National Institute of Standards
                                     MEP—a nationwide network of more than 400 nonprofit centers—
and Technology promotes U.S.
economic growth by working with      provides small and medium-sized manufacturers with the technical and
industry to develop and apply        business assistance they need to succeed.
technology, measurements, and
standards. NIST manages four         During this semiannual reporting period, we conducted audits of four
programs: the Advanced Technol-
                                     ATP awards and two MEP cooperative agreements. Our findings of
ogy Program, the Manufacturing
Extension Partnership program, a     inadequate financial management and improper claims resulted in our
laboratory-based measurement         questioning $900,000 in federal claimed costs and recommending
and standards program, and the       $400,000 in funds to be put to better use.
National Quality Program.
National Technical Information
Service is a self-supporting         ADVANCED TECHNOLOGY PROGRAM (ATP)
agency that promotes the nation’s
economic growth and job creation
by providing access to information
that stimulates innovation and       AWARDEE’S FINANCIAL MANAGEMENT SYSTEM FAILED TO
discovery. NTIS accomplishes this    MEET MINIMUM REQUIREMENTS
mission through two major
programs: information collection     An ATP cooperative agreement to fund a 3-year research project was
and dissemination to the public,     awarded to a Massachusetts firm in September 2001. The budget
and information and production       called for federal funding of $1,890,596 for direct costs of the project,
services to federal agencies.
                                     with first-year funding of $570,449.


Commerce OIG Semiannual Report                         62                                                            March 2002
                                                                 Technology Administration


                                 date, and (3) identify any instances of noncompliance with the award
                                 terms and conditions. We determined that the firm’s financial
                                 management system was not adequate for purposes of the award. We
                                 also questioned $61,465 in claimed costs.

                                 We recommended that NIST require the firm to implement a project
                                 cost accounting system that segregates the cost of each project and
                                 allocates indirect costs to research projects, disallow questioned costs
                                 of $61,425, and recover $30,425 in excess federal disbursements.
                                 (Denver Regional Office of Audits: DEN-14403)

                                 QUESTIONED COSTS TOTALING NEARLY $400,000 AND
                                 COMPLIANCE ISSUES ARE UNCOVERED DURING AUDIT
                                 In September 2000, NIST awarded an ATP cooperative agreement to
                                 a California company. Total estimated costs for the 3-year project were
                                 $7,926,506, with the total federal funding not to exceed $2,000,000,
                                 and a first-year limit of $1,246,549. The company submitted two
                                 requests to NIST for reimbursement totaling $493,551.

                                 We conducted an interim audit of the award and found that the
                                 company’s accounting system was generally adequate for purposes of
                                 the award and that the firm was adhering to award terms and conditions
                                 in all material respects. Our audit disclosed, however, $395,208 of
                                 questioned costs, including $393,937 for general and administrative
                                 costs not applicable to the ATP award. We also noted several
                                 compliance issues that needed to be corrected, including the failure to
                                 have adequate agreements in place for three subcontractors.

                                 We recommended that NIST disallow the $395,208 in questioned
                                 costs, recover disbursed federal funds totaling $182,780, and require
                                 the firm to correct its current subcontract agreements. (Denver
                                 Regional Office of Audits: DEN-14516-2)

                                 AUDIT OF ADMINISTRATOR OF $10 MILLION JOINT VENTURE
                                 PROJECT DISCLOSES NO COST OR COMPLIANCE ISSUES
                                 We audited the operations and records of the joint venture administrator
                                 for a $4.8 million ATP cooperative agreement awarded in 1997 to a
                                 consortium located in California. The award was intended to partially
                                 fund a proposed 2-year, $10,155,543 project. The original project


Commerce OIG Semiannual Report                     64                                   March 2002
Technology Administration


period was extended to June 30, 2000, at no additional cost to the
federal government.

Our audit verified that the records were adequate to support the major
elements of costs claimed and did not find any cost issues. We noted no
other audit issues related to award compliance or project performance.
(Seattle Regional Office of Audits: STL-14370-2)


MANUFACTURING EXTENSION PARTNERSHIP
(MEP)

MORE THAN $2.5 MILLION IN QUESTIONED COSTS FOUND
An MEP cooperative agreement was awarded to a nonprofit
corporation in 1999 to provide manufacturing extension services to
small and mid-size businesses in a designated service area in Utah.
Total estimated costs for the 2-year award period were $6,670,892
with federal funding not to exceed $2,240,713 or 33.6 percent of
allowable costs. The award recipient is located on a college campus,
and all project costs are processed through the institution’s accounting
system.

In April 2000, we received a request from the NIST Grants Office to
examine the recipient’s use of the college’s indirect cost rate. During the
course of our limited-scope audit, it became apparent that the
organization had not based its claimed costs on actual costs incurred for
the program. When we advised corporation officials of our concerns in
this regard, they elected to amend their claims. In August 2001, the
recipient submitted two revised requests for reimbursement, claiming
total costs of $7,271,330 including a federal share of $2,240,713.

In November 2001, we returned to complete our original review and to
conduct a cost and compliance audit of the award. We determined that
program income had not been reported accurately and that the
recipient’s revised claims included questioned costs of $2,538,305
including (1) $1,482,551 in costs that were not adequately supported,




 Commerce OIG Semiannual Report                              65               March 2002
                                                                Technology Administration

                                 (2) $1,003,854 in contract costs that were outside the scope of the
                                 NIST award, (3) $4,380 in unapproved foreign travel costs,
                                 (4) $20,700 in duplicate claims, and (5) $26,820 in other unallowable
                                 costs.

                                 We recommended that NIST disallow the questioned costs and recover
                                 $650,417 in excess federal disbursements. (Denver Regional Office of
                                 Audits: DEN-13088)

                                 MEP RECIPIENT’S IMPROVED FINANCIAL MANAGEMENT
                                 SYSTEM GENERALLY COMPLIES WITH REGULATIONS AND
                                 REQUIREMENTS
                                 In December 1995, NIST awarded a 5-year MEP cooperative
                                 agreement to a nonprofit corporation located in Puerto Rico to provide
                                 manufacturing assistance to small and medium-sized manufacturers.
                                 Estimated costs for the award period—January 1, 1996, through June
                                 30, 2001—were $5,345,774 with the federal share not to exceed
                                 $2,312,186.

                                 We conducted an interim financial and compliance audit of costs
                                 claimed during the fifth year and found that the recipient’s financial
                                 management system generally complied with federal regulations and
                                 MEP requirements. Three areas, however, required improvement:
                                 (1) unnecessary general ledger expense accounts, (2) overdue accounts
                                 payable, and (3) program income reporting. Based on the organization’s
                                 response to our draft audit report, we are satisfied that appropriate
                                 actions were under way to improve its financial management system,
                                 and we made no recommendations in that regard in our final report. We
                                 did, however, question a total of $38,425 in claimed costs, and
                                 recommended that NIST recover $27,485 in excess federal
                                 disbursements. (Denver Regional Office of Audits: DEN-14275-2)


                                 OIG REVIEWS ATP PROGRAM-SPECIFIC AUDITS
                                 PERFORMED BY PUBLIC ACCOUNTANTS
                                 During this semiannual period, OIG reviewed 83 audit reports from
                                 independent public accountants that performed program-specific audits
                                 of ATP research and development awards made to for-profit
                                 companies. The audited dollars in these reports totaled $121,213,193.


Commerce OIG Semiannual Report                    66                                  March 2002
Technology Administration


Ten of the 83 reports we examined had questioned costs totaling
$3,778,301. The federal portion of the questioned costs amounted to
$1,648,457 and resulted from violations of cost principles established
by federal acquisition regulations and other terms and conditions of the
ATP awards. A complete list of the audit reports is included in
Appendix B-1. Below are summaries of some of the significant findings:

    â A Delaware company charged $639,834 in indirect costs to the
      project in excess of the approved indirect cost budget.

    â A California company incurred $1,066,617 in subcontracting
      costs without obtaining required approvals from the NIST
      Grants Office.

    â A Pennsylvania company overstated its direct costs by
      $533,468 because direct labor was charged at average rates
      and not actual rates. The company also overstated indirect
      costs by $368,841 by using previously approved rates rather
      than current rates.

    â A Massachusetts company overstated direct salary and fringe
      benefit costs by $124,012 because it charged too great a
      percentage of certain employees’ time to the award.

In addition to the 10 reports that had questioned costs, we reviewed and
informed NIST of another 19 that included administrative findings. The
two most common administrative findings reported by the independent
public accountants were (1) failure to maintain written procurement policies
and procedures that conform to federal procurement standards and
(2) failure to include provisions in subcontracts requiring subcontractors
to adhere to federal laws and regulations. The remaining 54 audit reports
reviewed did not include any findings.


NIST’S REPORTING OF PERFORMANCE
MEASURES NEEDS IMPROVEMENT
Our evaluation of NIST’s procedures for measuring and reporting
performance was the second of two such audits we completed during this
semiannual period, in assessing the Department’s efforts to comply with
the Government Performance and Results Act. (See USPTO, page 71.)


 Commerce OIG Semiannual Report                               67               March 2002
                                                                          Technology Administration

                                                                         We conducted fieldwork from July to
                                                                         December 2001 and submitted our final
                                                                         report in March 2002.

                                                                         Commerce submits NIST’s performance
                                                                         information as part of its Department-
                                                                         wide performance and accountability
                                                                         reports. The Department includes in
                                                                         those reports the following goals that are
                                                                         specific to NIST:

                                                                         â Provide technical leadership for
                                                                           the nation’s measurement and
                                                                           standards infrastructure and ensure
                                                                           the availability of essential
                                                                            reference data and measurement
                                                                            capabilities.
Source: www.nist.gov/public_affairs/
budget/budgetpiechart.htm                  â Accelerate technological innovation and development of new
                                             technologies that will underpin economic growth.
OIG assessed performance measures that
pertain to NIST laboratories, MEP, and
ATP. These three operations account for    â Improve the technological capability, productivity, and
nearly three-fourths of NIST’s budgetary      competitiveness of small manufacturers.
resources. *Baldrige National Quality
Award Program
                                           NIST has implemented a comprehensive set of performance measures
                                           that include a range of indicators to assess progress in meeting bureau
                                           goals: output and outcome measures, peer reviews, and impact studies,
                                           to name a few. NIST collects data and reports on 15 measures,
                                           including (1) the number of technical publications produced,
                                           (2) cumulative number of technologies under commercialization,
                                           (3) cumulative number of patents filed, and (4) increased sales
                                           attributed to assistance from the Manufacturing Extension Partnership
                                           (MEP) program. We limited our review to these four measures as they
                                           pertain to MEP, NIST laboratories, and the Advanced Technology
                                           Program (ATP). We evaluated NIST’s reporting of performance
                                           information in documents submitted to meet GPRA requirements as well
                                           as the adequacy of internal controls for ensuring the data’s accuracy,
                                           consistency, and reliability.

                                           While we found that the bureau had a comprehensive approach to
                                           reporting results, we noted several deficiencies.

   Commerce OIG Semiannual Report                           68                                  March 2002
Technology Administration


MEP. NIST’s reporting of MEP performance to quantify its assistance
to small manufacturers includes data for clients of all sizes, and the data
it collects regarding increased sales attributable to MEP assistance is
unverifiable. The bureau must restate its performance goal to reflect the
data reported and clearly articulate which percentages of claimed results
do not come from small manufacturers, or report only the data that
pertains to the goal. It must also implement procedures for ensuring that
sales information collected from program awardees is verified.

NIST laboratories. The labs slightly understate the number of
technical publications they produce because for certain years, they do
not include documents produced at two of their locations. Also, the
measure’s use of the term “publication” is misleading because the
manuscripts counted have not necessarily been published. The bureau
must improve its collection methods to ensure that data is consistently
gathered from all labs, and revise the discussion of the measure with
terminology that reflects the fact that unpublished documents are
included in the count.

ATP. Reported results for cumulative numbers of patents filed for fiscal
years 1998 and 1999 were slightly overstated because the results
included copyrights. Additionally, the bureau reports cumulative
numbers of patents and cumulative technologies under
commercialization on a multiyear rather than a current-year basis, which
does not permit comparison against its annual budget. Again, the bureau
should either revise its reporting procedures to include cumulative ATP
expenditures that match the multiyear accounting of patents and
technologies or provide single-year totals for these measures.

The director of NIST generally agreed with our recommendations and
noted that the bureau was already exploring ways to improve
performance measurement and reporting systems, and had taken steps
to revise the text of performance reports to accurately reflect the data
collected. (Financial Statements and Audits Division: FSD-14430)




Commerce OIG Semiannual Report                               69               March 2002
                                                                  Technology Administration


                                 AUDIT OF NTIS’ FY 2001 FINANCIAL
                                 STATEMENTS
                                 NTIS received an unqualified opinion on its fiscal year 2001 financial
                                 statements—the ninth year in a row for this accomplishment. The
                                 independent certified public accounting firm that performed the audit
                                 found no material weaknesses in the bureau’s internal controls over
                                 financial reporting and no instances of noncompliance with laws and
                                 regulations.

                                 INFORMATION TECHNOLOGY CONTROLS
                                 In conjunction with the review of financial statements, the auditors
                                 assessed the adequacy of IT controls associated with NTIS’
                                 information systems against the six criteria outlined in GAO’s Federal
                                 Information System Controls Audit Manual: entitywide security
                                 program planning and management; access controls; application
                                 software development and change control; system software;
                                 segregation of duties; and service continuity. While it found no new
                                 weaknesses in the integrity of these controls, it reissued four outstanding
                                 findings still unresolved from FY 1999 in the areas of access control,
                                 application software development and change control, and service
                                 continuity. It reiterated its FY 1999 recommendations for correcting
                                 these weaknesses, with modifications to reflect changes in the bureau’s
                                 computing environment.

                                 These internal control weaknesses continue to pose a threat to the
                                 security of NTIS’ data, programs, and hardware, and could have a
                                 negative effect on the financial statements of both the bureau and the
                                 Department. (Financial Statements and Audits Division: FSD-
                                 14476-2)




Commerce OIG Semiannual Report                     70                                    March 2002
United States Patent
and Trademark Office

                                                                    WHILE PATENT APPLICATIONS INCREASE,
   The United States Patent and
   Trademark Office administers the                                 EXAMINERS NEEDED TO PROCESS THEM
   nation’s patent and trademark
   laws. Patents are granted, and
                                                                    DECREASE
   trademarks registered, under a
   system intended to provide                                       The number of patent applications filed has been growing rapidly for
   incentives to invent, to invest in                               several years, and this trend is expected to continue. In FY 2000,
   research, to commercialize new                                   USPTO received 293,244 patent applications, a 12.3 percent increase
   technology, and to draw attention
   to inventions that would otherwise
                                                                    over FY 1999. For fiscal year 2001, the number of patent applications
   go unnoticed. USPTO also                                         rose another 11 percent, roughly the same as is expected in fiscal year
   collects, assembles, publishes, and                              2002. To keep up with the increasing number of patent applications,
   disseminates technological                                       USPTO is attempting to increase the number of patent examiners.
   information disclosed in patents.
                                             However, high attrition rates have been a concern for the agency for
                                             some time. They rose steadily from 6.8 percent in FY 1993 to
                                                               13.4 percent in FY 2000. Of particular concern is
                                                               the number of examiners who leave during their first
                                                               few years of USPTO employment. Between fiscal
                                                               years 1990 and 2000, 56 percent of attrition was
                Rate of Patent Examiner Attrition              among examiners in their first 3 years with the
                         FY 1990-2000                          agency; 30 percent left within their first year. The
                                                               loss of these employees within such a short period is
          16%                                                  especially troubling because USPTO makes a
          14%
          12%
                                                               sizable investment in training new employees.
          10%
           8%
           6%
           4%
                                                                                        In December 2001, we completed an audit to
           2%
           0%
                                                                                        determine whether USPTO’s attrition rates could be
                FY90 FY91 FY92   FY93   FY94 FY95   FY96 FY97   FY98 FY99   FY00
                                                                                        reduced through improved hiring and retention
                                                                                        practices. Our review focused on two patent
                         Source: USPTO                                                  examiner work groups: the group with the lowest
                                                                                        attrition rate and another that had a rate among the
                                                                                        highest during FY 2000.
Unacceptably high rates of attrition among
patent examiners plagued USPTO through-
out the1990s and continue unabated. The                             Our review confirmed what other studies had shown—that job
bureau is attempting to counter the prob-                           dissatisfaction, poor performance, and higher pay are the primary
lem with better screening methods, flex-                            reasons why patent examiners leave USPTO. Patent examination
ible work schedules, and more competitive
salaries and benefits.                                              requires individuals with a variety of unique skills, particularly technical
                                                                    expertise in such areas as engineering, computer science, and law.
                                                                    Competition from private industry and other federal agencies for this
                                                                    highly skilled group is strong, and the pool of eligible workers is

Commerce OIG Semiannual Report                                                          71                                           March 2002
                                                    United States Patent and Trademark Office

                                             relatively small. USPTO’s ability to retain highly skilled patent
                                             professionals is also hampered by lower-than-private-sector salaries and
            U.S. Patent and                  job pressure, including the need to meet rigorous production standards.
              Trademark
                 Office
                                             The agency has begun a series of initiatives to improve patent examiner
                                             recruitment and retention. For example, the Office of Personnel
     Patents                   Trademarks    Management has authorized special salary rates for patent examiners,
                                             and USPTO has implemented numerous family friendly programs, such
   CFO/Chief                      Chief
                                             as more flexible work hours, to encourage examiners to stay. A special
  Administrative               Information   pilot telework program is also being evaluated.
    Officer                      Officer
                                             Although not much more can be done to reduce the number of
     External                   General      employees leaving for higher pay, we believe that attrition resulting from
     Affairs                    Counsel
                                             job dissatisfaction and terminations resulting from poor performance can
                                             be reduced through an improved screening process during the hiring
                  Quality                    phase. We therefore recommended that the agency reexamine its
                Management                   process and determine whether recruiting techniques can be developed
                and Training
                                             to (1) better identify applicants best suited for examiner positions and (2)
                                             better inform applicants about USPTO’s production-oriented work
                                             environment. (Business and Trade Audits Division: BTD-14432-2)


                                             MINOR IMPROVEMENTS NEEDED IN REPORTING
                                             PERFORMANCE RESULTS
                                             GPRA was enacted to improve federal programs’ effectiveness,
                                             efficiency, and accountability to Congress and to the American public. It
                                             requires federal agencies to set goals for program performance and to
                                             annually compare their performance against those goals and report the
                                             results. Each year, all agencies gather from their units and bureaus the
                                             measurement data to be used to quantify and qualify their previous year’s
                                             accomplishments. To be useful, however, the data has to be accurate,
                                             timely, comprehensive, and credible.

                                             To ensure that the data users, such as Congress and OMB, can have
                                             confidence in the reported performance information, GPRA requires data
                                             verification and validation as quality control measures. During this last
                                             reporting period, we examined USPTO’s efforts to ensure that its
                                             reported performance results are reliable.




Commerce OIG Semiannual Report                                        72                                      March 2002
United States Patent and Trademark Office


We performed our audit from July to September 2001. Our final report,
issued in March 2002, notes USPTO’s strong commitment to report
accurate data but also recommends that the bureau take additional
steps to enhance the credibility of its data.

For example, one area of responsibility on which USPTO is measured
is its outreach efforts to developing countries. USPTO conducts
seminars and provides technical training to officials from those countries
on how to reform their intellectual property structures to comply with
World Trade Organization provisions. Measurements used to quantify
these training/technical assistance activities include the number of (1)
sessions performed at USPTO, (2) sessions performed in developing
countries, (3) radio or televised broadcasts to developing countries, and
(4) instances of legal advice provided.

Yet, USPTO has no clear criteria for determining which countries
qualify as “developing.” USPTO’s list of developing countries for a
given reporting period may come from one of a variety of sources—the
United Nations, the World Bank, the Department of State—and varies
year to year depending on the source and the country’s development
status. Because no one source was consistently used, and because
USPTO did not consistently use the most current list from any of the
sources, the reported data could have been misinterpreted.

As a result of our finding, we recommended that USPTO ensure that
criteria used to measure technical assistance to developing countries
clearly document and update on a regular basis those countries eligible
to be on USPTO’s developing countries list.

In responding to our report, USPTO agreed with our recommendation,
and the agency’s Office of Legislative and International Affairs is now
updating the list of developing countries on a regular basis and
documenting additions or deletions as needed.




Commerce OIG Semiannual Report                               73              March 2002
                                        United States Patent and Trademark Office


                                   GUIDANCE FROM SENIOR MANAGEMENT COULD
                                   STRENGTHEN USPTO’S INFORMATION
                                   SECURITY PROGRAM
                                   USPTO’s day-to-day operations increasingly depend on information
                                   technology: patent and trademark applications are filed, fees are paid,
                                   and some USPTO employees telework via the Internet, and these are
                                   only a few examples of the impact IT has on the agency. Information
                                   technology promises to improve and expand delivery of USPTO
                                   services, but expanded delivery also increases the vulnerability of and
                                   risk to USPTO’s computer systems and networks. Greater access
                                   escalates the risk of unauthorized access and exposure of USPTO’s
                                   data to improper disclosure or modification.

                                   Under GISRA, each agency head is charged with ensuring the security
                                   of information and information systems by promoting security as an
                                   integral component of that agency’s business operations. From October
                                   through December 2001, we evaluated USPTO’s information security
                                   program for unclassified systems to determine whether it complies with
                                   GISRA, which mandates that federal agencies have effective security
                                   for the information resources supporting their operations and assets.
                                   Our findings suggest that information security has not yet become an
                                   integral part of USPTO’s business operations. As a result, fundamental
                                   responsibilities are frequently not carried out.

                                   We evaluated USPTO’s information security policies and procedures,
                                   roles and responsibilities, and adherence to applicable laws, regulations,
                                   and guidance and found that although USPTO generally has
                                   documented policies and procedures in place that are consistent with
                                   accepted security practices, many other important security requirements
                                   are not satisfied. Our evaluation identified the following issues:

                                   â Eighty-two percent of USPTO’s 78 operational systems do not
                                     have documented risk assessments, 30 percent of its security plans
                                     are outdated, and none of its operational systems have current
 3
   Accreditation is the formal
                                     accreditation3 as required by OMB. Lack of accreditation means
 authorization by management for     that USPTO management has not officially authorized any of these
 system operation, including an      systems for use. Moreover, USPTO officials do not conduct
 explicit acceptance of risk.
                                     periodic reviews of information policies and security controls and
                                     techniques.

Commerce OIG Semiannual Report                            74                                     March 2002
United States Patent and Trademark Office

â USPTO provides information security-awareness training to new
  employees, but does not have a program to provide appropriate
  training and education to personnel who need specialized security
  skills and competencies. Thus, USPTO cannot ensure that
  employees who have significant security responsibilities understand
  or apply effective information security practices.

â USPTO’s incident response procedures do not include any
  requirement to report incidents to GSA, as required by GISRA and
  OMB.

â USPTO’s funding requests for information
  security do not appear to be based on a
  thorough analysis of its security needs or the
  cost of satisfying them.                       100%
                                                                                                            % Incomplete
                                                   80%                                                      % Completed
â Although senior management’s awareness
  and support are essential to establishing the 60%
  environment and ensuring the resources 40%
  needed to promote an effective information
  security program, such awareness and 20%
  support have been minimal and senior 0%
  management’s proactive involvement is                 Risk                 Security        Systems
  absent.                                           Assessments               Plans         Accredited


We made numerous recommendations for improving information                              Source: OIG. Status of USPTO’s
                                                                                        Key Infor-mation Security
security at USPTO. Most important is our recommendation that the                        Management Controls. Lack of
Under Secretary of Commerce for Intellectual Property and Director of                   documented risk assessments,
USPTO ensure that senior management officials give information                          outmoded security plans, and no
                                                                                        accreditation leave USPTO’s 78
security high priority, sufficient resources, and their personal attention              systems’ vulnerability in question.
and that they work closely with their CIO to improve information
security at the agency.

In response, USPTO agreed with all of our recommendations and
described corrective actions it is taking or has planned. The Under
Secretary affirmed the agency’s commitment to develop a strong
information security program to protect the information assets of
USPTO and its customers. As regards accreditation, the response
indicated that whether the agency can complete system accreditations
according to the timetable we recommended depends on the resources
required and their availability. Because of the importance of

Commerce OIG Semiannual Report                                75                                              March 2002
                                        United States Patent and Trademark Office


                                 accreditation in ensuring that operational systems are adequately
                                 protected, we urge USPTO, when allocating resources, to give this
                                 matter high priority. Since our evaluation, the agency has been making a
                                 concerted effort to improve information security, devoting increased
                                 management attention and resources to this area and taking steps to
                                 implement policies and procedures to enhance the integrity and
                                 confidentiality of its information assets. (Office of Systems
                                 Evaluations: OSE-14816)



                                 Audit of USPTO’s FY 2001 Financial
                                 Statements
                                 In FY 2001, USPTO received an unqualified opinion on its financial
                                 statements from the independent certified public accounting firm that
                                 conducted the audit. The audit identified no reportable conditions in its
                                 internal controls over financial reporting or instances of noncompliance
                                 with laws and regulations. USPTO has received clean opinions for the
                                 last 8 years.

                                 INFORMATION TECHNOLOGY CONTROLS
                                 As part of the overall audit, the auditors conducted separate reviews of
                                 the bureau’s IT controls. The first review assessed USPTO’s financial
                                 management systems against the six criteria outlined in GAO’s Federal
                                 Information System Controls Audit Manual (entitywide security
                                 program planning and management; access controls; application
                                 software development and change control; system software; segregation
                                 of duties; and service continuity). The review identified one new
                                 weakness in entitywide security program planning and management, and
                                 noted that two weaknesses identified in the FY 2000 audit remained
                                 unresolved. These were in the areas of access control and service
                                 continuity.

                                 In the second IT review, the auditors assessed whether the financial
                                 management systems were vulnerable to unauthorized access. They
                                 identified two new weaknesses in access controls and made five
                                 recommendations to address them. (Financial Statements and Audits
                                 Division: FSD-14477-2)



Commerce OIG Semiannual Report                          76                                      March 2002
Department-wide Management


VULNERABILITIES IN EMERGENCY
PREPAREDNESS AND PHYSICAL SECURITY ARE
EVIDENT AT MANY COMMERCE FACILITIES                                                          Office of
                                                                                          the Secretary
                                                                                           Staff Offices
The intensified national focus on personal and homeland security has
prompted all federal agencies to reconsider the safety of their facilities
                                                                               Business
and the adequacy of their emergency procedures. During this                     Liaison               Public Affairs
semiannual period, OIG evaluated emergency preparedness and
physical security measures at 27 Commerce facilities (see map on the
                                                                                                          Chief
following page), including the Department’s headquarters (Herbert C.            General
                                                                                                       Information
                                                                                Counsel
Hoover Building) in Washington, D.C., to quickly determine the                                           Officer
following for each site:
                                                                              Legislative and          Policy and
                                                                             Intergovernmen-           Strategic
    1. The level of emergency preparedness. We ascertained whether               tal Affairs            Planning
       facilities had viable Continuity of Operations Plans (COOPs),
       Occupant Emergency Plans (OEPs), or similar guidance, and
       emergency response structures in place.

    2. The status of physical security. We assessed the extent to which
       each site conforms to the minimum standards for physical
       security established by the Department of Justice in 1995                            CFO and
       (designed to ensure that federal facilities prevent unauthorized                     Assistant
                                                                                          Secretary for
       access and protect personnel, assets, and sensitive                                Administration
       information). We identified specific vulnerabilities in security
       frameworks at individual locations.                                   Exec. Budgeting
                                                                             and Assistance                Security
                                                                              Management
    3. Agency and facility responses to the events of September 11,
       2001, including changes in and new initiatives for emergency
                                                                                                       Financial
       preparedness and physical security. We also looked to see                 Budget
                                                                                                      Management
       whether there were any best practices or specific lessons
       learned from the Department’s handling of the events on                Management                Human
       September 11 and emergency preparedness initiatives taken                  and                 Resources
                                                                              Organization            Management
       since then.

                                                                              Acquisition                    Civil
                                                                              Management                    Rights


                                                                                                        Small and
                                                                             Administrative
                                                                                                     Disadvantaged
                                                                               Services
                                                                                                     Business Util.


 Commerce OIG Semiannual Report                                77                                  March 2002
                                                              Department-wide Management




Source: OIG

Commerce sites surveyed by OIG inspection teams. Every facility—from NOAA ships to Department
headquarters—had some physical security weaknesses, and many had emergency preparedness
vulnerabilities.




Commerce OIG Semiannual Report                         78                                       March 2002
Department-wide Management




We found that, to a greater or lesser degree, all sites we visited have
devoted more attention and resources to emergency procedures and
physical security since September 11. However, there were often
inconsistencies from site to site within the same agency or among sites
within the same geographic location.

SUMMARY OF FINDINGS
Continuity of operations plans. Most of the agencies we visited
reported that prior to September 11, they either had no COOP or had
put a low priority on developing one, although most have since
increased efforts to complete these plans. The majority of sites reported
that they have backup plans for protecting critical information
technology systems.

After September 11, the Chief Financial Officer and Assistant Secretary
for Administration established an interdisciplinary team to coordinate the
finalization of COOP plans for the Department and its bureaus. From
November 2001 through February 2002, this group worked with
bureau staff to review existing plans and make appropriate refinements.
A consolidated plan for the Department has been prepared and
reviewed by the Federal Emergency Management Agency, which has
found it to be responsive to and in compliance with Federal
Preparedness Circular 65. However, Department officials agreed that
no bureau’s COOP is deemed complete until its management has
identified specific resources to test and implement the plan and until
plans for the bureau’s field offices are included.

Emergency and evacuation planning. Most sites had emergency
evacuation plans; however, many plans dealt only with fire emergencies.
Some facilities have expanded their plans to address a wider range of
potential emergencies since September 11. Many sites have established
formal emergency and evacuation teams as well as training to implement
their plans. Some sites had no plans to evaluate or upgrade their current
procedures. In addition, many employees were not aware of specific
evacuation plans, nor could they identify the members of their
emergency support team.



 Commerce OIG Semiannual Report                              79              March 2002
                                                         Department-wide Management




                                 The operating units and their individual sites typically have emergency
                                 plans for people with disabilities. But some sites need to establish
                                 procedures for quickly locating those with special needs and to evaluate
                                 the adequacy of equipment for evacuating these employees.

                                 Physical security. Some deficiencies in physical security were evident
                                 at every Commerce operation we visited.

                                 SUMMARY OF SUGGESTED IMPROVEMENTS
                                 Our review revealed a number of important principles that we believe
                                 should form the foundation of a responsible security and emergency
                                 preparedness program for the Department.

                                 Management support and leadership are crucial. Agencies need to
                                 develop clearly stated emergency preparedness and security policies
                                 that have unambiguous goals and the visible involvement of top
                                 management. We found that in the most effective programs, senior
                                 managers had prominent roles.

                                 Employees should be involved. Employee involvement in the
                                 development and implementation of emergency preparedness and
                                 security programs complements management leadership and promotes
                                 staff commitment to these initiatives. Management should encourage
                                 employee involvement in related decision making and operations, and
                                 must clearly assign and communicate staff responsibilities for program
                                 implementation. Employee awareness of and support for emergency
                                 preparedness/security efforts are best reinforced through periodic
                                 training, e-mail reminders, posting of security tips, distribution of
                                 relevant materials, and participation on building evacuation teams.

                                 Hiring and termination practices should enhance security.
                                 Security and emergency preparedness briefings should be mandatory
                                 for all new hires. In addition, management must retrieve keys and
                                 identification badges from departing employees and contractors, change
                                 their computer passwords, and block key-card access to ensure that
                                 they cannot access Department facilities and IT systems after leaving
                                 Commerce employment.


Commerce OIG Semiannual Report                     80                                   March 2002
Department-wide Management




Plans and facilities need to be reassessed periodically. Because
conditions affecting security and emergency preparedness can change,
managers should examine security measures regularly by updating risk
assessments and site surveys, reviewing employee/contractor
compliance with security protocols, and regularly testing and maintaining
security and emergency plans and procedures. (Office of Inspections
and Program Evaluations: IPE-14825)

Beyond these general observations, we provided a number of specific
suggestions to improve Department-wide emergency preparedness and
physical security.


SAFETY VULNERABILITIES IDENTIFIED AT
DEPARTMENT HEADQUARTERS AND NOAA
SEATTLE
Our review of emergency preparedness and security at Commerce
facilities also uncovered a number of safety concerns at the
Department’s headquarters (Herbert C. Hoover Building) and NOAA’s
Seattle facilities. We brought these concerns to the attention of
departmental and NOAA management, and are pleased to report that
corrective action is being taken.

HERBERT C. HOOVER BUILDING
We observed numerous safety vulnerabilities that could endanger
occupants, including the following:

    â Fire and health hazards. Parts of the building’s basement and
      subbasement were littered with cigarette butts, empty food and
      soda containers, uneaten food, and other trash, indicating that
      people were using these areas for eating, smoking, loitering, and
      possibly lodging. One unlocked subbasement storage room
      contained paint, painting equipment, unidentified solvents, and
      other potentially hazardous materials scattered about. The
      condition of these areas poses significant health and fire hazards.



 Commerce OIG Semiannual Report                             81              March 2002
                                                                  Department-wide Management



                                             â Security of basement areas. In a number of locations,
                                               property and equipment were not properly secured.

                                             â Isolated office space. Offices in some parts of the building are
                                               very isolated and poorly monitored, and—in the event of an
                                               emergency—it may be difficult to communicate with staff
                                               located in these areas.

                                         We presented this list of safety issues to the Department’s managers,
                                         who swiftly moved to address most of our concerns. (Memorandum to
                                         the Deputy Secretary and the Chief Financial Officer, January 24, 2002)

                                         NOAA SEATTLE
                                         In February 2001, an earthquake measuring 6.8 on the Richter scale
                                         rocked NOAA’s Seattle facilities. The quake damaged NOAA’s
                                         Western Regional Center and Northwest Fisheries Science Center.
                                         Although critical repairs were immediately made to protect employee
                                                          health and safety, the buildings needed a thorough
                                                          assessment by a qualified seismic engineer to ensure
                                                          that they were in fact safe for occupancy and able to
                                                          withstand future earthquakes.

                                                          When we visited the site, lingering damage to the
                                                          buildings was readily apparent: concrete walls and
                                                          foundations had fissures; roofs had twisted rafters;
                                                          rivets and bolts were missing from equipment repair
                                                          facilities.

                                                           Cost of the seismic survey was estimated at $261,000.
Source: OIG                              Seattle management requested this funding from NOAA headquarters
NOAA’s Western Regional Center,          and, after our report was issued, received the funding in February 2002.
Seattle, Washington (pictured) and       The current plan is to award a contract for the survey in June 2002 and
several ancillary facilities sustained   receive the contractor’s draft damage report the following September.
varying amounts of damage in a
February 2001 earthquake that            The seismic survey will assess the structural integrity of the buildings,
measured 6.8 on the Richter scale.       identify safety issues that need to be resolved, and prioritize and
                                         estimate the cost of required and recommended repairs or demolition.
                                         (Memorandum to the Deputy Secretary and NOAA Deputy Under
                                         Secretary, January 18, 2002)


    Commerce OIG Semiannual Report                         82                                   March 2002
                                                          Department-wide Management



                                         the audit. The Department responded that, as implementation of
                                         CAMS progresses, this condition will be resolved.

                                     â Financial management and reporting. Weak management
                                       and reporting capabilities persist at several entities and hamper
                                       the Department’s efforts to produce accurate and timely
                                       financial reports. These weaknesses, which constitute a
                                       reportable condition, were noted in reporting processes at three
                                       operating units (Census, EDA, and NIST), in data
                                       reconciliations at two (Census and NOAA), and in procedures
                                       for producing information to support financial data at one
                                       (NOAA). The auditors recommended that the Department’s
                                       Office of Financial Management monitor the entities’ efforts to
                                       resolve the cited conditions and ensure timely and effective
                                       implementation of corrective actions. The firm also made
                                       specific recommendations to two of the bureaus (EDA and
                                       NIST) for addressing the reportable condition as it specifically
                                       pertains to them.


                                 INFORMATION TECHNOLOGY CONTROLS
                                 The review of the Department’s IT controls over major financial systems
                                 against the six criteria outlined in GAO’s Federal Information System
                                 Controls Audit Manual revealed problems in all six areas: entitywide
                                 security program planning and management; access controls; application
                                 software development and change control; system software; segregation
                                 of duties; and service continuity. These deficiencies combine with the
                                 lack of a single, integrated financial system, noted above, to constitute
                                 the material weakness.


                                 COMPLIANCE WITH LAWS AND REGULATIONS
                                 As part of the audit, the Department’s financial management procedures
                                 and systems were assessed for compliance with select provisions of
                                 applicable federal laws and regulations. Several instances of
                                 noncompliance were, in fact, identified:

                                     â NOAA’s failure to fully fund its capital leases (see page 60) is
                                       contrary to requirements in OMB Circular A-11, Preparation


Commerce OIG Semiannual Report                     84                                   March 2002
Department-wide Management



        and Submission of Budget Estimates, which mandates that
        agencies have sufficient budgetary resources up-front to cover
        the present value of lease payments for capital assets and lease
        purchases.

    â ITA’s failure to fully recover the total cost of providing goods
      and services is contrary to OMB Circular A-25, User Charges,
      which requires that federal agencies recover the total cost of
      providing goods and services.

    â The Department’s lack of a single, integrated financial
      management system rendered Commerce noncompliant with
      federal requirements for financial management systems
      stipulated under the Federal Financial Management
      Improvement Act (FFMIA) of 1996.

The appropriate departmental managers reviewed all of the findings and
recommendations contained in the consolidated audit report as well as
those in the separate audit reports for Census, NIST, and NOAA. They
generally concurred with the findings, although they took exception to
the weakness in financial reporting noted at NIST and the determination
of FFMIA noncompliance for Census. (Financial Statements and
Audits Division: FSD-14474-2)

Section 803 of FFMIA requires agencies that are not in compliance
with the act to prepare a remediation plan outlining actions to achieve
compliance. The Department prepared such a plan in FY 2001 to
address noncompliance issues identified in the FY 2000 audit. It intends
to update the plan to reflect its progress in moving toward compliance.
Section 804(b) requires OIG to notify Congress when the Department
does not meet the plan’s intermediate target dates for implementing
actions. We did not identify any instances in which Commerce failed to
meet these dates.




 Commerce OIG Semiannual Report                             85             March 2002
                                                         Department-wide Management



                                 Preaward Financial Assistance Screening
                                 As part of our ongoing emphasis on prevention of fraud and
                                 mismanagement, we continue to work with the Office of Executive
                                 Budgeting and Assistance Management, NOAA and NIST grant
                                 offices, and EDA program offices to screen the Department’s proposed
                                 grants and cooperative agreements before award. Our screening serves
                                 two functions: it provides information on whether the applicant has
                                 unresolved audit findings and recommendations on earlier awards, and it
                                 determines whether a name check or investigation has revealed any
                                 negative history on individuals or organizations connected with a
                                 proposed award.

                                 During this period, we screened 803 proposed awards. For 8 of the
                                 awards, we found major deficiencies that could affect the ability of the
                                 prospective recipients to maintain proper control over federal funds. On
                                 the basis of the information we provided, the Department delayed the
                                 awards until concerns were satisfactorily resolved, and established
                                 special conditions for two awards to adequately safeguard federal
                                 funds. (Office of Audits)




                                    Preaward Screening Results

                   Results                                            Award

                                                        Number                      Amount

            Awards delayed to resolve concerns               6                       $3,723,500


           Special award conditions established              2                       $1,092,119




Commerce OIG Semiannual Report                     86                                   March 2002
Department-wide Management



Indirect Cost Rates

Under OMB policy, a single federal agency—the “cognizant” or general
oversight agency— is responsible for reviewing, negotiating, and
approving indirect cost rates for public and private entities that receive
funds under various federal programs. Normally, the federal body that
provides the most direct funding to an entity is chosen as its cognizant or
general oversight agency. OMB has designated Commerce as the
cognizant agency for about 280 economic development districts, as well
as for a number of state and local governments receiving federal funds.
From time to time, the Department also has oversight responsibilities for
other recipient organizations.

Commerce has authorized the Office of Inspector General to negotiate
indirect cost rates and review cost allocation plans on its behalf. OIG
reviews and approves the methodology and principles used to pool
indirect costs and establish an appropriate base for distributing those
costs to ensure that each partnering federal, state, and local program
bears its fair share.

During this period, we negotiated 36 indirect cost rate agreements with
nonprofit organizations and government agencies, and reviewed and
approved 45 cost allocation plans. To recipients of Commerce awards,
we also provided technical assistance regarding the use of rates
established by other federal agencies and their applicability to our
awards. We continued to work closely with first-time for-profit and
nonprofit recipients of Commerce awards to establish indirect cost
proposals that are acceptable for OIG review. (Atlanta Regional
Office of Audits)




 Commerce OIG Semiannual Report                               87              March 2002
                                                           Department-wide Management



                                  Nonfederal Audit Activities

                                  In addition to undergoing OIG-performed audits, certain recipients of
                                  Commerce financial assistance are periodically examined by state and
                                  local government auditors and by independent public accountants.
                                  OMB Circular A-133, Audits of States, Local Governments, and Non-
                                  Profit Organizations, sets forth the requirements for most of these
                                  audits. For-profit organizations that receive Advanced Technology
                                  Program funds from NIST are audited in accordance with Government
                                  Auditing Standards and NIST Program-Specific Audit Guidelines
                                  for ATP Cooperative Agreements, issued by the Department.

                                  We examined 162 audit reports during this semiannual period to
                                  determine whether they contained any findings related to Department
                                  programs. For 130 of these reports, the Department acts as oversight
                                  agency and monitors the audited entity’s compliance with the OMB
                                  circular or NIST’s program-specific reporting requirements. The other
                                  32 reports are from entities for which other federal agencies have
                                  oversight responsibility.




                                  Nonfederal Audit Activities

                Report Category           OMB A-133               ATP Program-              Total
                                           Audits                 Specific Audits
           Pending (October 1, 2001)              36                      62                    98

           Received                               49                      78                   127

           Examined                              79                      83                    162

           Pending (March 31, 2002)               6                      57                    63




Commerce OIG Semiannual Report                        88                               March 2002
Department-wide Management



The following table shows a breakdown by bureau of the $225 million
in Commerce funds audited this period.



                 Breakdown by Bureau


                 Bureau                               Funds

          EDA                                      $ 41,838,121

          MBDA                                         2,486,259

          NIST                                      131,385,815*

          NOAA                                        13,798,627

          NTIA                                         1,442,197

          Multiagency                                 33,343,631

          Agency not identified                          961,198

                    Total                          $225,255,848

             * Includes $121,213,193 in ATP program-specific audits.




We identified a total of $2,225,201 in questioned costs. In most
reports, the Department’s programs were considered nonmajor,
resulting in limited transaction and compliance testing against laws,
regulations, and grant terms and conditions. The 20 reports with
Commerce findings are listed in Appendix B-1. (Atlanta Regional
Office of Audits)




 Commerce OIG Semiannual Report                                   89    March 2002
                                                      Investigative Highlights


                                 OIG’s Office of Investigations (OI) investigates allegations of fraud and
                                 other wrongdoing that impacts Commerce programs and operations,
                                 including criminal or otherwise prohibited activities engaged in by
                                 employees, contractors, or recipients of financial assistance. Staffed by
                                 special agents located in Washington, D.C., Denver, Colorado, and
                                 Silver Spring, Maryland, OI works closely with the Department of
                                 Justice and with U.S. Attorneys’ offices throughout the country to
                                 prosecute criminal and civil actions to punish offenders and recover
                                 losses suffered by the government as a result of fraud and misconduct.

                                 Like their counterparts in most OIG offices, our special agents have full
                                 law enforcement powers as special deputy U.S. marshals under a
                                 deputation agreement with the Department of Justice. We also work
                                 with the FBI and other federal law enforcement agencies to investigate
                                 matters of mutual interest. The results of OIG investigations of
                                 employee misconduct are provided to agency officials to support
                                 appropriate disciplinary and administrative actions.

                                 During this semiannual period, OIG investigations led to one arrest, two
                                 convictions, and the filing of indictments, informations, or criminal
                                 complaints against four individuals. Two other matters were referred to
                                 the Department of Justice for prosecution. In addition, there were four
                                 personnel actions taken by the Department as a result of OI case work.
                                 The following are highlights of our investigative activity over the past 6
                                 months.

                                 SECOND NOAA EMPLOYEE SENTENCED ON CONSPIRACY
                                 CONVICTION
                                 In previous issues, we reported the conspiracy convictions of two
                                 former NOAA employees, stemming from an OIG investigation that
                                 uncovered their arrangement to falsify payroll records to enable one of
                                 them to receive more than $9,800 in unearned pay, a portion of which
                                 she kicked back to the second employee. (See March 2001 issue,
                                 pages 81-82, and September 2001 issue, page 80.) As noted in our
                                 last semiannual report, one defendant was sentenced in May 2001. On
                                 October 10, 2001, her co-conspirator was sentenced in U.S. District
                                 Court for the District of Columbia to 2 years’ probation, and ordered to
                                 make restitution to the government. (Silver Spring Field Office of
                                 Investigations)

Commerce OIG Semiannual Report                     90                                    March 2002
Investigative Highlights


MISUSE OF GOVERNMENT PURCHASE CARD RESULTS IN THEFT
CONVICTION
On January 2, 2002, a former employee of an NWS regional office in
Alaska was convicted of theft of government property after an OIG
investigation confirmed that she had engaged in at least 50 unauthorized
transactions on a government purchase card, charging nearly $7,500 in
goods and services for her personal use. Sentencing is scheduled for
early April 2002 in U.S. District Court for the District of Alaska.
(Denver Field Office of Investigations)

FORMER CENSUS EMPLOYEE SENTENCED FOR THEFT OF
GOVERNMENT PROPERTY
A clerk with access to an automated banking system that enables
Census customers to purchase publications by credit card used the
system to issue nearly $6,200 in credits to her personal debit card.
Under the terms of a plea agreement, she was convicted of one count of
theft of government property in December 2001. On February 15,
2002, she was sentenced in U.S. District Court for the Eastern District
of Virginia to 2 years’ probation and ordered to make full restitution to
the government. (Washington Field Office of Investigations)

CENSUS EMPLOYEES CHARGED WITH THEFT OF DEBIT CARDS
On March 27, 2002, a former Census field representative was arrested
by an OIG special agent and local law enforcement officials in Santa
Ana, California, for cashing debit cards provided to her for use as
incentive payments to participants in a Census survey. The former
employee failed to perform any survey-related work, but cashed 16
cards with a total value of more than $1,100. She has been charged
with grand theft and embezzlement by the district attorney in Santa Ana,
and was arraigned in Orange County Superior Court on March 29,
2002.

In a similar case, 11 debit cards were stolen from the Detroit Regional
Census office and cashed at various ATM machines in and around the
city. An OIG investigation identified a recently retired Census employee
and a current employee as the responsible parties. In March 2002, the
retired employee entered into a 1-year pretrial diversion agreement in


 Commerce OIG Semiannual Report                             91              March 2002
                                                                    Investigative Highlights


                                 Detroit municipal court, conditioned upon her agreement to make full
                                 restitution to the government. Charges are pending against the other
                                 employee, who repaid the government for the value of the cards and
                                 resigned from federal service.

                                 As a result of these investigations, OIG recommended new security
                                 measures for the Census debit card program, which both the Los
                                 Angeles and Detroit regional offices have since implemented. (Denver
                                 Field Office of Investigations)

                                 FORMER MASC EMPLOYEE INDICTED FOR WIRE FRAUD
                                 A warrant has been issued for the arrest of a former finance accounting
                                 technician at NOAA’s Mountain Administrative Support Center, who
                                 was indicted on March 12, 2002, in the District of Colorado on six
                                 counts of wire fraud, based on her manipulation of the Commerce
                                 Administrative Management System (CAMS) to make personal credit
                                 card payments with government funds. An OIG investigation revealed
                                 that between November 2000 and June 2001, the employee transferred
                                 a total of approximately $19,000 to her government travel card account
                                 to cover improper personal charges. The employee stopped reporting
                                 to work when she learned of management’s suspicions; she was
                                 subsequently removed from federal service for absence without official
                                 leave and misappropriation of government funds. As a result of the
                                 investigation, MASC has implemented new procedures for daily review
                                 of vendor payments reported in CAMS. (Denver Field Office of
                                 Investigations)

                                 THIRTY-DAY SUSPENSION FOR PERSONAL USE OF GOVERNMENT
                                 TELEPHONE
                                 A patent examiner was suspended for 30 days and ordered to repay the
                                 government more than $500 after an OIG investigation revealed that he
                                 had run up nearly 200 hours of personal long distance charges on his
                                 office telephone over a 1-year period. (Washington Field Office of
                                 Investigations)




Commerce OIG Semiannual Report                     92                                  March 2002
Investigative Highlights


SENIOR BIS EMPLOYEE SUSPENDED FOR FAILURE TO FILE
COMPLETE ACCIDENT REPORT
A senior BIS employee was suspended for 5 days based on the filing of
an incomplete and misleading report on an accident in a government-
owned vehicle. An OIG investigation found that the employee had
reported the accident, but failed to provide the agency with a copy of
the police report, which assigned responsibility for the collision to her.
Her supervisor received a written reprimand for approving the report
even though he had witnessed the accident and knew the report was
incomplete. (Washington Field Office of Investigations)




 Commerce OIG Semiannual Report                              93              March 2002
                                                 Office of Inspector General

                                   Audit Resolution and Follow-up

                                   The Inspector General Act Amendments of 1988 require us to present in
                                   this report those audits issued before the beginning of the reporting
                                   period (October 1, 2001) for which no management decision had been
                                   made by the end of the period (March 31, 2002). We are pleased to
                                   report that there are no audit reports that have been unresolved over 6
                                   months.

                                   Department Administrative Order 213-5, “Audit Resolution and Follow-
                                   up,” provides procedures for management to request a modification to an
                                   approved audit action plan or for a financial assistance recipient to
                                   appeal an audit resolution determination. The following table summarizes
                                   modification and appeal activity during the reporting period.




                                 Audit Resolution Follow-up


              Report Category                        Modifications                Appeals



       Actions Pending (October 1, 2001)                   0                         14



       Submissions                                         2                         14



       Decisions                                          2                         12


      Actions Pending (March 31, 2002)                     0                         6




Commerce OIG Semiannual Report                      94                                    March 2002
Statistical Highlights

                                           Audit and Inspection
                                           Statistical Highlights

                  Questioned costs this period                                  $4,859,584

                  Value of audit recommendations made
                  this period that funds be put to better use                   $2,297,145

                  Value of audit recommendations agreed
                  to this period by management                                  $7,865,531

                  Value of inspection recommendations that
                  funds be put to better use made this period                               $0



                                               Investigative
                                           Statistical Highlights

                   Matters referred for prosecution                        1
                   Indictments, informations, and criminal complaints      4
                   Convictions                                             2
                   Personnel actions*                                      4
                   Fines, restitutions, judgments, and
                   other civil and administrative recoveries          $14,166
                 * Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
                    or retirements in lieu of adverse action.




                                          Allegations Processed
                                          by OIG Investigators
                                         Accepted for investigation                           12
                  OIG Hotline
                                         Referred to operating units                          26
                   (202) 482-2495        Evaluated but not accepted for
                   (800) 482-5197        investigation or referral                            76

                hotline@oig.doc.gov      Total                                              114

                 Note: Numerous other allegations and complaints were forwarded to the appropriate
                      federal and nonfederal investigative agencies.


Commerce OIG Semiannual Report                                    95                                        March 2002
                                                     Reporting Requirements



                                                INDEX
  The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for semiannual
  reports. The requirements are listed below and indexed to the applicable pages of this report.


           Section                                           Topic                               Page

 4(a)(2)                  Review of Legislation and Regulations                                       97

 5(a)(1)                  Significant Problems, Abuses, and Deficiencies                         21-93

 5(a)(2)                  Significant Recommendations for Corrective Action                      21-93

 5(a)(3)                  Prior Significant Recommendations Unimplemented                             97

 5(a)(4)                  Matters Referred to Prosecutive Authorities                            90-93

 5(a)(5) and 6(b)(2)      Information or Assistance Refused                                           99

 5(a)(6)                  Listing of Audit Reports                                             104-111

 5(a)(7)                  Summary of Significant Reports                                         21-93

 5(a)(8)                  Audit Reports—Questioned Costs                                              101

 5(a)(9)                  Audit Reports—Funds To Be Put to Better Use                             102

 5(a)(10)                 Prior Audit Reports Unresolved                                               94

 5(a)(11)                 Significant Revised Management Decisions                                     94

 5(a)(12)                 Significant Management Decisions with which OIG Disagreed                   94

OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
to report on instances and reasons when an agency has not met the dates of its remediation plan. We
discuss this matter in the March 2002 issue as part of our financial statements audit reporting.




 Commerce OIG Semiannual Report                         96                                  March 2002
Reporting Requirements


Section 4(a)(2): Review of Legislation
and Regulations

This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that
agency’s programs and operations. Based on this review, the Inspector
General is required to make recommendations in the semiannual report
concerning the impact of such legislation or regulations on the economy
and efficiency of the management of programs and operations
administered or financed by the agency or on the prevention and
detection of fraud and abuse in those programs and operations.
Comments concerning legislative and regulatory initiatives affecting
Commerce programs are discussed, as appropriate, in relevant sections
of the report.

Section 5(a)(3): Prior Significant Recommendations
Unimplemented

This section requires identification of each significant recommendation
described in previous semiannual reports for which corrective action
has not been completed. Section 5(b) requires that the Secretary
transmit to Congress statistical tables showing the number and value of
audit reports for which no final action has been taken, plus an
explanation of the reasons why recommended action has not occurred,
except when the management decision was made within the preceding
year.

To include a list of all significant unimplemented recommendations in
this report would be duplicative, costly, unwieldy, and of limited value
to Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-
upon corrective action. Management updates the Department’s Audit
Tracking System on an annual basis, based on annual status reports due
from the bureaus in mid-October. The last update was as of
September 30, 2001. However, additional information on the status of
any audit recommendations can be obtained through OIG’s Office of
Audits.




 Commerce OIG Semiannual Report                             97             March 2002
                                                                   Reporting Requirements


                                 Sections 5(a)(5) and 6(b)(2): Information or
                                 Assistance Refused

                                 These sections require a summary of each report to the Secretary when
                                 access, information, or assistance has been unreasonably refused or not
                                 provided. There were no such instances during this semiannual period
                                 and no reports to the Secretary.

                                 Section 5(a)(10): Prior Audit Reports Unresolved

                                 This section requires a summary of each audit report issued before the
                                 beginning of the reporting period for which no management decision has
                                 been made by the end of the reporting period (including the date and
                                 title of each such report), an explanation of why such decision has not
                                 been made, and a statement concerning the desired timetable for
                                 delivering a decision on each such report.

                                 As of March 31, 2002, there were no audit reports unresolved over 6
                                 months.

                                 Section 5(a)(11): Significant Revised Management
                                 Decisions

                                 This section requires an explanation of the reasons for any significant
                                 revised management decision made during the reporting period.
                                 Department Administrative Order 213-5, Audit Resolution and Follow-
                                 up, provides procedures for revising a management decision. For
                                 performance audits, OIG must be consulted and must approve in
                                 advance any modification to an audit action plan. For financial
                                 assistance audits, OIG must concur with any decision that would change
                                 the audit resolution proposal in response to an appeal by the recipient.

                                 The decisions issued on the 12 appeals of audit-related debts were
                                 finalized with the full participation and concurrence of OIG.




Commerce OIG Semiannual Report                     98                                   March 2002
Reporting Requirements


Section 5(a)(12): Significant Management Decisions
with which OIG Disagreed

This section requires information concerning any significant management
decision with which the Inspector General disagrees.

Department Administrative Order 213-5 provides procedures for
elevating unresolved audit recommendations to higher levels of
Department and OIG management, including their consideration by an
Audit Resolution Council. During this period, no audit issues were
referred to the council.




 Commerce OIG Semiannual Report                            99             March 2002
                                                                  Tables and Appendixes




    T ABLES                                                                                                           P AGE

    1. Audits with Questioned Costs                                                                                      101

    2. Audits with Recommendations That Funds Be Put to Better Use                                                       102


    APPENDIXES
    A. Office of Inspector General Reports                                                                               103

        A-1. Performance Audits                                                                                          104

        A-2. Inspections                                                                                                 105

        A-3. Financial Statements Audits                                                                                 106

        A-4. Financial Related Audits                                                                                    107

    B. Processed Reports                                                                                                 109

        B-1. Processed Financial Related Audits                                                                          110


    D EFINITIONS
    The term questioned cost refers to a cost that is questioned by OIG because of (1) an alleged violation of a provision of
    a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
    funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or (3) a finding
    that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

    The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
    Questioned costs include unsupported costs.

    The term recommendation that funds be put to better use refers to a recommendation by OIG that funds could be
    used more efficiently if Commerce management took action to implement and complete the recommendation, including
    (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy costs
    on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements
    related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward
    reviews of contracts or grant agreements; or (6) any other savings specifically identified.

    The term management decision refers to management’s evaluation of the findings and recommendations included in
    the audit report and the issuance of a final decision by management concerning its response.




Commerce OIG Semiannual Report                                              100                                             March 2002
Audits with Questioned Costs
Table 1

                                                                       Questioned     Unsupported
Report Category                                      Number              Costs          Costs



A. Reports for which no management decision              17         $4,189,759           $507,290
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period            29            4,859,584          806,815

      Total reports (A+B) requiring a management         46         9,049,343           1,314,105
      decision during the reporting period1

C. Reports for which a management decision               18            4,289,581          514,913
    was made during the reporting period2

      i. Value of disallowed costs                                     1,802,827          480,975

     ii. Value of costs not disallowed                                 3,158,237          361,316

D. Reports for which no management decision              28            4,759,762          799,192
   had been made by the end of the reporting
   period




Notes:

1
    Ten audit reports included in this table are also included in the reports with recommendations that funds be put
    to better use (see table 2). However, the dollar amounts do not overlap.

2
    In Category C, lines i and ii do not always equal the total on line C because resolution may result in values
    greater than the original recommendations.




Commerce OIG Semiannual Report                                   101                                        March 2002
                                                                 Audits with Recommendations
                                                                That Funds Be Put to Better Use
                                                                                        Table 2


Report Category                                       Number            Value



A. Reports for which no management decision                13        $6,549,846
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period1             8           2,297,145

       Total reports (A+B) requiring a management         21          8,846,991
       decision during the reporting period2

C. Reports for which a management decision                 19          7,669,846
   was made during the reporting period3

      i. Value of recommendations agreed to                            6,062,704
         by management

     ii. Value of recommendations not agreed                           2,605,303
         to by management

D. Reports for which no management decision                6          1,177,145
   had been made by the end of the reporting
   period




Notes:

1
    One report was resolved last reporting period but inadvertently missed in our calculations.

2
    Ten audit reports included in this table are also included in the reports with questioned cost (see table 1).
    However, the dollar amounts do not overlap.

3
    In Category C, four reports had funds to be put to better use identified during the resolution process. Also, in
    Category C, lines i and ii do not always equal the total on line C because resolution may result in values
    greater than the original recommendations.




Commerce OIG Semiannual Report                                       102                                      March 2002
Office of Inspector General Reports
Appendix A

Type                             Number         Appendix



Performance Audits                  4              A-1

Inspections                         7              A-2

Financial Statements Audits        12              A-3

Financial -Related Audits          16              A-4

Total                              39




Commerce OIG Semiannual Report            103              March 2002
                                                                                  Performance Audits
                                                                                        Appendix A-1


                                                                                                          Funds to
                                                                                                          Be Put to
Agency          Subject                                          Number                 Date              Better Use



ESA-CENSUS      Improving Our Measure of America:              ESD-14431               03/02                 --
                What Census 2000 Can Teach Us in
                Planning for 20101

TA-NIST         Reporting of Performance Measures              FSD-14430               03/02                 --
                Needs Improvement

USPTO           Minor Improvements Needed in Reporting         FSD-14429               03/02                 --
                Performance Results

                Patent Examiner Hiring Process Should          BTD-14432               03/02                 --
                Be Improved




Multi-unit review that includes the work of auditors, inspectors, system evaluators, and investigators.
1




Commerce OIG Semiannual Report                                   104                                      March 2002
Inspections
Appendix A-2

                                                                                     Funds to Be
                                                                                     Put to
Agency           Subject                                          Number      Date   Better Use



BIS              BXA Needs to Strengthen its ECASS              IPE-14270   02/02       --
(formerly BXA)   Modernization Efforts to Ensure
                 Long-Term Success of the Project

                 Interagency Review of Federal Automated        IPE-14977   03/02       --
                 Export Licensing Systems

ESA-CENSUS       Selected Aspects of Census 2000 Accuracy      OIG-14226    03/02       --
                 and Coverage Evaluation Need Improvements
                 Before 2010

ITA              Trade Agreement Compliance Process             IPE-14282   03/02       --
                 Needs Better Coordination Within ITA

                 US & FCS Italy’s Effectiveness Can be          IPE-14234   03/02       --
                 Further Enhanced by Focusing on
                 Management and Program Improvements

NOAA             Chanhanssen Weather Forecast Office            IPE-14423   03/02       --
                 Generally Provides Effective Forecasts, but
                 Office Management and Regional Oversight
                 Need Improvement

USPTO            Additional Senior Management Attention         OSE-14846   03/02       --
                 Needed to Strengthen USPTO’s Information
                 Security Program




Commerce OIG Semiannual Report                                 105                   March 2002
                                                                Financial Statements Audits
                                                                               Appendix A-3

Agency        Subject                                         Number        Date



CENSUS        Improvements Needed in the General            FSD-14473(1)   02/02
              Controls Associated with
              Census’ Financial Management Systems

              Financial Statements for FY 2001              FSD-14473(2)   02/02

NOAA          Improvements Needed in the General Controls   FSD-14475(1)   02/02
              Associated with Financial Management
              Systems

              Financial Statements for FY 2001              FSD-14475(2)   02/02

TA-NTIS       Improvements Needed in the General Controls   FSD-14476(1)   02/02
              Associated with NTIS’ Financial Management
              Systems

              Financial Statements Fiscal Year 2001         FSD-14476(2)   02/02

O/S           Department of Commerce Consolidated           FSD-14474(2)   02/02
              Financial Statements for FY 2001

              Improvements Needed in the General Controls   FSD-14474(1)   02/02
              Associated with the Department’s Financial
              Management Systems

              FY 2001 Agreed-upon Procedures Federal        FSD-14474(3)   03/02
              Agencies’ Centralized Trial-Balance System
              Data

USPTO         Financial Statements for FY 2001              FSD-14477(2)   02/02

              Improvements in the General Controls          FSD-14477(1)   02/02
              Associated with USPTO’s Financial
              Management Systems

              Network Vulnerability Assessment:             FSD-14477(3)   03/02
              Improvements Needed in the General
              Controls Associated with USPTO’s
              Financial Management Systems




Commerce OIG Semiannual Report                               106                    March 2002
Financial-Related Audits
Appendix A-4

                                                                                   Funds to
                                                      Questioned     Unsupported   Be Put to
Agency/Auditee                Number         Date       Costs            Costs     Better Use

EDA
Town of Quartzsite, AZ        STL-14253      10/01         $99,822      $7,623          --

Washington Association of     STL-14140      10/01          53,500         --           --
Minority Entrepreneurs

Port of Moses Lake, WA        STL-14790      01/02            --            --          --

Economic Development Bank     ATL-13955(1)   01/02            --            --     1,000,000
for Puerto Rico

City of Lake City, SC         ATL-14690      02/02           111            --       193,405

Dutchess County Economic      ATL-14033      03/02         134,703      134,703         --
Development Corporation, NY

Jefferson Parish Economic     ATL-13214      03/02            --            --          --
Development Commission, LA

Economic Development Bank     ATL-13955(2)   03/02          22,283      22,283       204,276
for Puerto Rico

Greater North-Pulaski Local   DEN-14321      03/02           2,965         --        500,000
Development Corporation, IL

City of Tooele, UT            DEN-14874      03/02     1,429,892        166,726         --

TA-NIST
Commerce One, Inc., CA        STL-14370      12/01            --           --          --

Office of Inspector General   ATL-14928      12/01            --           --        120,000
Survey of Selected Aspects
of Advance Technology
Program Awarded to ACT
Group, Inc., MA

Puerto Rico Manufacturing     DEN-14275      02/02          27,485         --         72,741
Extension, Inc.




Commerce OIG Semiannual Report                       107                           March 2002
                                                         Financial-Related Audits
                                                          Appendix A-4 (Continued)


                                                                            Funds to
                                                 Questioned   Unsupported   Be Put to
Agency/Auditee               Number      Date      Costs        Costs       Better Use


TA-NIST
SurroMed, Inc., CA           DEN-14403   03/02      30,425        --           --

Etec Systems, Inc., CA       DEN-14516   03/02     182,780        --          30,000

WestCAMP, Inc., UT           DEN-13088   03/02     650,417      295,683      176,723




Commerce OIG Semiannual Report                   108                        March 2002
Processed Reports
Appendix B

The Office of Inspector General reviewed and accepted 162 financial-related audit reports pre-
pared by independent public accountants and local and state auditors, and federal auditors.
The reports processed with questioned costs, recommendations that funds be put to better use,
and/or nonfinancial recommendations are listed in Appendix B-1.



Agency                                                                        Audits


Economic Development Administration                                              42

Minority Business Development Agency                                              5

National Institute of Standards and Technology                                   87*

National Oceanic and Atmospheric Administration                                    8

National Telecommunications and Information Administration                         4

Multiagency                                                                      14

Agency not identified                                                              2

Total                                                                           162



*Includes 83 ATP program-specific audits.




Commerce OIG Semiannual Report                                     109                           March 2002
                                                  Processed Financial-Related Audits
                                                                       Appendix B-1


                                                                     Questioned   Unsupported
 Agency/Auditee                         Number               Date        Costs      Costs


 EDA
 Trade Task Group, WA                   ATL-09999-2-0826     03/02     $85,041        $85,041

 Benton-Franklin Council                ATL-09999-2-0987     03/02     231,000          --
 of Governments, WA

 Northeast Council of Governments       ATL-09999-2-0966     03/02      83,128          --
 Development Corporation, SD

 Armstrong County Industrial            ATL-09999-2-1016     03/02      20,567          --
 Development Authority, PA

 Northwest Regional Planning            ATL-09999-2-1052     03/02      27,652          --
 Commission, WI


 TA-NIST
 True North Composites, LLC, AZ         DEN-09999-2-0316     02/02     497,629       22,430

 UTC-Carrier Corporation, CT            DEN-09999-2-0339     02/02      19,776          --

 Extrude Hone Corporation, PA           ATL-09999-2-0957     03/02     348,506       11,042

 Organogenesis, Inc., MA                ATL-09999-2-0980     03/02      83,001          --

 MicroDexterity Systems, Inc., MI       ATL-09999-2-0850     03/02     16,284           --

 New England Aquarium Corporation, MA   ATL-09999-2-1000     03/02        --            --

 PE Biosystems, CA                      DEN-09999-2-0378     03/02    561,794           --

 E.I. duPont de Nemours and Company,    ATL-09999-2-0482     03/02     18,212           --
 High Performance Materials, OH

 Acorda Therapeutics, Inc., NY          ATL-09999-2-0364     03/02     27,622           --

 PerkinElmer Optoelectronics, CA        ATL-09999-2-0830     03/02     61,009           --

 Praxair, Inc., CT                      ATL-09999-2-0868     03/02     14,624           --




Commerce OIG Semiannual Report                             110                      March 2002
Processed Financial-Related Audits
(Continued) Appendix B-1



                                                                  Questioned   Unsupported
Agency/Auditee                   Number                   Date        Costs      Costs


NOAA
North Pacific Marine             ATL-09999-2-0430         03/02     $63,331        $2,326
Science Foundation, WA

South Carolina State Budget      ATL-09999-2-0996         03/02      7,067           --
and Control Board

New England Aquarium             ATL-09999-2-1000         03/02        --            --
Corporation, MA

State of Alaska                  ATL-09999-2-1069         03/02      58,958       58,958




Commerce OIG Semiannual Report                      111                           March 2002
                  Def initions:
                  Definitions:                          T ypes of OIG R
                                                                      Reevie ws
                                                                         views


                                         OIG Reviews


Audits                                                   Inspections
Performance Audits—These audits look at the              Operational Inspections—These are reviews of
efficiency, effectiveness, and economy of the            an activity, unit, or office, or a contractor or
Department’s programs, activities, and information       organization that receives funds from the
technology systems. They may check a unit’s              Department. They focus on an organization, not a
compliance with laws and regulations, and evaluate       whole program, and are designed to give agency
its success in achieving program objectives.             managers timely information about operations,
                                                         including current and foreseeable problems.
Financial-Related Audits—These audits review
the Department’s contracts, grants, cooperative          Program Evaluations—These are in-depth reviews
agreements, loans, and loan guarantees. They             of specific management issues, policies, or
assess compliance with laws, regulations, and            programs.
award terms; adequacy of accounting systems and
internal controls; allowance of costs; and the degree
                                                         Systems Evaluations—These are reviews of
to which a project achieved the intended results.
                                                         system development, acquisitions, operations, and
                                                         policy in order to improve efficiency and
Financial Statements Audits—These audits                 effectiveness. They focus on Department-wide
determine whether a reporting entity’s financial         computer systems and other technologies and
statements are presented fairly in accordance with       address all project phases, including business process
generally accepted accounting principles, the entity     reengineering; system definition; system
has an internal control structure that provides          development, deployment, operations, and
reasonable assurance of achieving the control            maintenance.
objectives set forth by OMB, and the entity com-
plied with laws and regulations that could have a        Investigations
direct and material effect on the financial state-
ments, the Federal Financial Management Improve-         These are investigations conducted to collect facts
ment Act, and other laws as prescribed by OMB.           needed to resolve an allegation that someone has
                                                         violated a federal criminal or civil law or
                                                         administrative regulation.

                                                         If an investigation discloses employee misconduct or
                                                         evidence of waste or abuse, the facts are reported to
                                                         agency officials for appropriate disciplinary or
                                                         administrative actions. If criminal or civil
                                                         wrongdoing is found, the case is referred to the U.S.
                                                         Department of Justice.




Commerce OIG Semiannual Report                           112                                   March 2002
                                                                                                                          Acronyms




A.C.E..........................................................................................................Accuracy and Coverage Evaluation
ACOTR ......................................................................Alternate Contracting Officer’s Technical Representative
A&R...................................................................................................Advances and Reimbursements Program
ATP...................................................................................................................Advanced Technology Program
BIS...................................................................................................................Bureau of Industry and Security
CAMS..................................................................................... Commerce Administrative Management System
CFIUS..............................................................................Committee on Foreign Investment in the United States
CIO...........................................................................................................................Chief Information Officer
DAO..............................................................................................................Department Administrative Order
EDA.......................................................................................................Economic Development Administration
ESA......................................................................................................Economics and Statistics Administration
ESU.....................................................................................................................Evolutionarily Significant Unit
FAA..................................................................................................................Federal Aviation Administration
FMFIA...............................................................................................Federal Managers’ Financial Integrity Act
GAO........................................................................................................................General Accounting Office
G&B............................................................................................................................Gifts and Bequests Fund
GISRA.........................................................................................Government Information Security Reform Act
GPRA...............................................................................................Government Performance and Results Act
GSA.................................................................................................................General Services Administration
GWAC..........................................................................................................Governmentwide Agency Contract
IA....................................................................................................................................Import Administration
IG..........................................................................................................................................Inspector General
IT..................................................................................................................................Information Technology
ITA................................................................................................................International Trade Administration
MASC..................................................................................................Mountain Administrative Support Center
MAF..................................................................................................................................Master Address File




     Commerce OIG Semiannual Report                                              113                                                 March 2002
Acronyms




MBDA.................................................................................................Minority Business Development Agency
MEP..........................................................................................................Manufacturing Extension Partnership
NESDIS...............................................................National Environmental Satellite Data and Information Service
NIST...........................................................................................National Institute of Standards and Technology
NMFS............................................................................................................National Marine Fisheries Service
NOAA...................................................................................National Oceanic and Atmospheric Administration
NTIA.....................................................................National Telecommunications and Information Administration
NTIS......................................................................................................National Technical Information Service
NWS.........................................................................................................................National Weather Service
OBL.........................................................................................................................Office of Business Liaison
OCS......................................................................................................................Office of Computer Services
OGC.........................................................................................................................Office of General Counsel
OHRM..............................................................................................Office of Human Resources Management
OI.................................................................................................................................Office of Investigations
OIG.........................................................................................................................Office of Inspector General
OMB............................................................................................................Office of Management and Budget
OPM..............................................................................................................Office of Personnel Management
OSY......................................................................................................................................Office of Security
RLF..................................................................................................................................Revolving Loan Fund
TA............................................................................................................................Technology Administration
TAAC........................................................................................................Trade Adjustment Assistance Center
TIGER................................................................Topologically Integrated Geographic Encoding and Referencing
US&FCS..................................................................................................U.S. and Foreign Commercial Service
USPTO.........................................................................................................U.S. Patent and Trademark Office
WCF................................................................................................................................Working Capital Fund
WFO...........................................................................................................................Weather Forecast Office




     Commerce OIG Semiannual Report                                             114                                                March 2002
                                 Office of Inspector General
                                     Organization Chart

                                                                        Inspector
                Office of                                                General                                           Office of
             Compliance and
                                                                         Deputy                                            Counsel
             Administration
                                                                    Inspector General

               Office of
                                                                                                                       Office of
           Inspections and
                                                                                                                  Systems Evaluation
         Program Evaluations



                               Office of                                                                       Office of
                                Audits                                                                      Investigations



Headquarters            Financial Statements                 Regional              Financial Fraud            Investigative              Investigative
   Audits                      Audits                         Audits                    Unit                   Operations                  Services




                                                    OIG Points of Contact
Inspector General .................................. (202)       482-4661    Office of Counsel .................................... (202) 482-5992
Legislative and                                                              Office of Inspections and Program Eval. . (202) 482-2754
Intergovernmental Affairs ....................... (202)          482-3052    Office of Investigations ............................ (202) 482-0934
Office of Audits ....................................... (202)   482-1934    Office of Systems Evaluation ................. (202)482-6186
Office of Compliance and Admin. .......... (202)                 482-0231    Media Inquiries ........................... ......... (202) 482-5992



REQUESTS FOR REPORTS:                                                       OIG HOTLINE:
Telephone ....................................... (202) 482-0231            Telephone ....................................... (202) 482-2495
TDD Number .................................. (202) 482-4948                                                              or (800) 424-5197
Internet E-Mail ................................. reports@oig.doc.gov       Internet E-Mail ................................. hotline@oig.doc.gov



                                                             OIG Internet Home Page
                                                   http://www.oig.doc.gov
